<html>
<title> - IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                   SUBCOMMITTEE ON INFRASTRUCTURE AND
                            BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2003

                               __________

                     Committee on Government Reform

                           Serial No. 108-73

                 Select Committee on Homeland Security

                            Serial No. 108-4

                               __________

Printed for the use of the Committees on Government Reform and Homeland 
                                Security


  Available via the World Wide Web: http://www.gpo.gov/congress/house


                                 ______

90-400              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      http://www.house.gov/reform
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
          Nick Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk
         Julian A. Haywood, Minority Professional Staff Member
                 SELECT COMMITTEE ON HOMELAND SECURITY

                    CHRIS COX, California, Chairman

JENNIFER DUNN, Washington, Vice      JIM TURNER, Texas, Ranking Member
    Chair                            BENNIE G. THOMPSON, Mississippi
C.W. ``BILL'' YOUNG, Florida         LORETTA SANCHEZ, California
DON YOUNG, Alaska                    EDWARD J. MARKEY, Massachusetts
F. JAMES SENSENBRENNER, Wisconsin    NORMAN D. DICKS, Washington
W.J. ``BILLY'' TAUZIN, Louisiana     BARNEY FRANK, Massachusetts
DAVID DREIER, Calfornia              JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER, New 
SHERWOOD BOEHLERT, New York              York
LAMAR SMITH, Texas                   PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER GOSS, Florida                 ELEANOR HOLMES NORTON, District of 
DAVE CAMP, Michigan                      Columbia
LINCOLIN DIAZ-BALART, Florida        ZOE LOFGREN, California
ROBERT W. GOODLATTE, Virginia        KAREN McCARTHY, Missouri
ERNEST ISTOOK, Oklahoma              SHEILA JACKSON-LEE, Texas
PETER KING, New York                 DONNA M. CHRISTENSEN, Virgin 
JOHN LINDER, Georgia                     Islands
JOHN SHADEGG, Arizona                BOB ETHERIDGE, North Carolina
MARK SOUDER, Indiana                 CHARLES GONZALEZ, Texas
MAC THORNBERRY, Texas                KEN LUCAS, Kentucky
JIM GIBBONS, Nevada                  JAMES R. LANGEVIN, Rhode Island
KAY GRANGER, Texas                   KENDRICK B. MEEK, Florida
PETE SESSIONS, Texas
JOHN SWEENEY, New York

                      JOHN GANNON, Chief of Staff
                  STEVEN CASH, Minority Staff Director

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                     DAVE CAMP, Michigan, Chairman

KAY GRANGER, Texas, Vice Cair        LORETTA SANCHEZ, California
JENNIFER DUNN, Washingotn            EDWARD J. MARKEY, Massachusetts
DON YOUNG, Alaska                    NORMAN D. DICKS, Washington
DUNCAN HUNTER, California            BARNEY FRANK, Massachusetts
LAMAR SMITH, Texas                   BENJAMIN L. CARDIN, Maryland
LINCOLN DIAZ-BALART, Florida         LOUISE McINTOSH SLAUGHTER, New 
ROBERT W. GOODLATTE, Virginia            York
ERNEST ISTOOK, Oklahoma              PETER A. DeFAZIO, Oregon
JOHN SHADEGG, Arizona                SHIELA JACKSON-LEE, Texas
MARK SOUDER, Indiana                 BILL PASCRELL, Jr., New Jersey
JOHN SWEENEY, New York               CJARLES GONZALES, Texas
CHRIS COX, California,  ex officio   JIM TURNER, Texas, ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2001.....................................     1
Statement of:
    Beilein, Thomas A., sheriff, Niagara County Sheriff's 
      Department.................................................    53
    Camp, Hon. Dave, a Representative in Congress from the State 
      of Michigan................................................     5
    D'Ambrosio, Michael, interim Director Field Operations, 
      Buffalo, Bureau of Customs and Border Protection...........     9
    Deveso, Russell, chairman, NYS Motor Truck Association, Inc., 
      general manager, G.W. Burnett, Inc., Buffalo, NY...........    55
    Feely, Kevin, president, Chapter 154, National Treasury 
      Employees Union............................................    56
    Gugg, Commander Paul M., Commanding Officer, Marine Safety 
      Office, Buffalo, New York, U.S. Coast Guard................    11
    Hamilton, Dawn, director of strategic planning, WNED.........    59
    Jackson-Lee, Hon. Sheila, a Representative in Congress from 
      the State of Texas.........................................     7
    Lee, Derek, Member of Parliament, House of Commons, Canada...    43
    Maloney, John, Member of Parliament, House of Commons, Canada    41
    Mayer, Stephen, general manager/operations, Buffalo & Fort 
      Erie Public Bridge Authority...............................    60
    Moran, Peter, Chief Patrol Agent, Buffalo Sector, U.S. Border 
      Patrol, Bureau of Customs and Border Protection............    12
    Quinn, Hon. Jack, a Representative in Congress from the State 
      of New York................................................     8
    Rich, Luke, senior consultant, Buffalo Niagara Partnership...    62
    Sanchez, Hon. Loretta, a Representative in Congress from the 
      State of California........................................    30
    Slaughter, Hon. Louise, a Representative in Congress from the 
      State of New York..........................................     1
    Smith, Peter J., Special Agent in Charge, Bureau of 
      Immigration and Customs Enforcement........................    34
    Sweeney, Hon. John E., a Representative in Congress from the 
      State of New York..........................................     7
    Walker, William, Associate Special Agent in Charge, New York 
      Field Division, Drug Enforcement Administration............    14

 
  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER

                              ----------                              


                          MONDAY, MAY 19, 2003

        House of Representatives, Subcommittee on Criminal 
            Justice, Drug Policy and Human Resources, 
            Committee on Government Reform, joint with the 
            Subcommittee on Infrastructure and Border 
            Security, Select Committee on Homeland 
            Security,
                                                 Niagara Falls, NY.
    The subcommittees met, pursuant to notice, at 9:30 a.m., in 
Festival Theater, Visitor Center, Niagara Falls State Park, 
Niagara Falls, NY, Hon. Mark E. Souder (chairman of the 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources) presiding.
    Present: Representatives Souder, Camp, Shadegg, Sweeney, 
Sanchez, Slaughter, and Jackson Lee.
    Also present: Representative Quinn.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Nick Coleman, professional staff and counsel; Mandy 
Bowers, professional staff member; and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will come to order. And I'd 
like to yield for a brief welcome from Congresswoman Slaughter.

    STATEMENT OF HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you so much, Mark. I'm so pleased just 
to have this distinguished group in this area this morning. I 
can't prove this but I would think it would be most unlikely 
that we can find eight Members of Congress in one spot for a 
hearing. And so I'm double honored as they have come here to 
the northern border this morning. Now, you know who many of 
them are.
    One of the nicest things that I love about this new 
district and I do love it, is getting to work with Jack Quinn 
and his office. That's always a delight and I'm happy to have 
Jack with us this morning. I'd like to introduce John Sweeney 
who is one of New York's most important Members of Congress. 
He's serves also on a Select Homeland Security Committee and 
he'S also on the Appropriations Committee. And it is of most 
delight that John is here he's very helpful to us in what we're 
trying to do for the State.
    Dave Camp is from Michigan. And he is the chair of the 
Homeland Security Border and Infrastructure Subcommittee. And 
then you've met Mark Souder, who is the chair of the Government 
Reform subcommittee on Criminal Justice, Drug Policy and Human 
Resources and is our expert here this morning because he's been 
working on this issue long before the Select Committee on 
Homeland Security was even thought of.
    On my right is Congresswoman Sheila Jackson-Lee from 
Houston. We've been working with Sheila for years on the 
southern border, we're delighted to have her here today to see 
the northern border and to work with us there. She is also a 
member of the Border Security and Infrastructure Subcommittee, 
so you'll have four group members of that subcommittee here 
today.
    We have two more coming. We have Congressman John Shadegg 
from Arizona who chairs the Emergency Responders Subcommittee, 
Mark's committee. His plane is coming in and he will get here 
as soon as he can. And Congresswoman Loretta Sanchez, from 
California will also be arriving, and she is a ranking member 
on the Border and Infrastructure Committee and Select 
Committee.
    I'm the ranking member on the Rules Committee, so I'm going 
to keep the rules, I guess. But in any case, I am so happy to 
have all of you here. First you got to see our majestic Seventh 
Wonder of the World, out here in the back and this is the best 
place to see it from. It is a great honor and I think the 
recognition as I said of Western New York's importance in our 
continued battle with terrorism.
    And I am certainly pleased, I don't see where they've gone, 
but I have two MPs--there they are, they're still up top there. 
I'm delighted to have them here with us today. They have just 
traveled back from U.S.-Canada parliamentary meeting which is 
held annually for the last 44 years, it's been absolutely 
wonderful and they're our great friends and people who have our 
interest at heart as we have their's.
    So I'd like to introduce Mr. Derek Lee and Mr. John Maloney 
and they will be testifying on our third panel. Welcome 
gentlemen. We're happy to have you here. And I want to 
recognize the men and women of Western New York here this 
morning. The Federal, State and local workers who are out there 
daily on the vigilant watch and we are grateful to you.
    I was privileged to have the occasion last week to meet the 
committee of our first responders in the 28th District and I'm 
glad to have many of you here with us today. We acknowledge 
your commitment and your dedication. And you know last week 
certainly brought a sad reminder at the threat of terrorism in 
our allies. One of the cold blooded killers like those we saw 
on September 11th murdered once again, in the name of hate.
    The State Department is now warning there are other soft 
targets around the world in danger. It's a real threat to our 
security that brings us here today. We may be thousands of 
miles away from Morocco and Saudi Arabia, but the terrorists 
persist. So we're here to talk about the things we can do to 
make sure we can be ready if anything does happen. As we sit 
around the great falls, it represents extraordinary power. 
There's also marks on the northern border and the huge 
vulnerability.
    U.S.-Canadian border is 5,525 miles long, in some areas 
it's pretty remote. Securing it is not an easy task. Unlike the 
southern border, where we've poured resources into security for 
years, we considered security around the northern border less 
of a priority because it was not necessary. We're good friends 
with the Canadians, the fact that they are our largest trading 
partners, we know each other so well, it's never been any kind 
of threat at all on that border.
    But it's possible that someone can come across this border. 
We can remember in 1999 just before the Millennium that alert 
Canadian border guards stopped a man coming through Washington 
State, whose stated purpose was to blow up L.A. Airport. So 
here we've got several points of entry from Canada, where we 
want to make sure while we are secure we are also able to 
continue our commerce and our easy movement back and forth 
across the border.
    Lots of works is being done to make sure that we can do 
that. And we're right here in this area we have four 
international bridges, three international airports and two of 
the largest hydropower facilities in the world. It is terribly 
important for the rest of this country that we secure those 
assets and make sure that they are safe. So let me again thank 
all of my colleagues. I won't say they've come armed with an 
awful lot of information already and know that what we eat most 
here are chicken wings and beef-on-weck. And so we'll try to 
treat them to some of that before they leave today and go back 
to Washington. Thank you again for being here.
    Mr. Souder. Thank you. Good morning and thank you all for 
coming. Today the Subcommittee on Criminal Justice, Drug Policy 
and Human Resources, which I chair, and the Subcommittee on 
Infrastructure and the Border, chaired by my friend and 
colleague Dave Camp, will explore the status of security and 
law enforcement along this section of the Canadian border. 
Since the summer of 2001, the Criminal Justice Subcommittee has 
been making a comprehensive study of our Nation's borders, 
focusing particular attention on the effectiveness of the 
Federal law enforcement agencies entrusted with protecting and 
administering the borders and ports of entry. Last summer my 
subcommittee released a comprehensive report on these issues, 
but our study continues.
    In March and April of this year, my subcommittee held field 
hearings concerning the U.S.-Mexico border in Sells, AZ and El 
Paso, TX. Today, we return our focus to the northern border. 
We've already had hearings in Vermont and the Northeast part of 
New York State, as well as Washington State and multiple visits 
along the entire border. Today we return our focus here in 
upstate New York. U.S.-Canada border sees considerably less 
illegal activity than the southern border, but the nature of 
the illegal activity on the northern border raises special 
concerns.
    First, the problem of cross-border drug smuggling is a 
serious and growing problem. In particular, I have deep 
concerns about moves by the Canadian Government to 
decriminalize marijuana, which has much the same practical 
effect as legalization. Such efforts will cause more problems 
at the border crossings, which will affect law enforcement, 
trade and travel. Much of the marijuana being smuggled out of 
Canada is not your typical marijuana; it is very high-potency, 
sometimes 4 and 5 times as much as 10 times, more similar in 
strength to cocaine or even heroin. This new marijuana often 
called ``B.C. Bud'' or ``Quebec Gold'' has been on the rise, 
and I hope that Canada will take this into consideration as it 
develops its new drug policies.
    Other serious drug trafficking problems have been illegal 
smuggling of methamphetamine precursor chemicals through 
Canada, such as the cold medicine pseudoephedrine. It is of 
particular concern since many of the smugglers have been linked 
to Middle Eastern groups that may have ties to terrorists. The 
Canadian Government has begun the process of bringing some 
regulations to the precursor trade to which we're very thankful 
but more progress needs to be made.
    The second significant danger we face here is the potential 
for terrorists to sneak across the northern border. In the 
Buffalo area, there are numerous avenues for potential 
terrorists to cross, and numerous tempting targets. There are 
four nuclear power plants on the shores of western New York 
State and many major bridges vital to cross-border trade and 
travel. The vulnerability of this area to this kind of attack 
was illustrated just last year, when the Federal Government 
announced the arrests of six Yemeni-American men described as 
an Al-Queda ``sleeper cell'' in the suburb of Lackawanna.
    The U.S. Federal Government has responded to these 
vulnerabilities by doubling the number of border patrol agents 
in the Buffalo sector, adding customs and immigration 
inspectors at the local ports of entry, and expanding Coast 
Guard patrols of sensitive areas. New surveillance equipment 
and tightened border crossing regulations have also been added. 
Still, the northern border remains vulnerable to penetration. 
Moreover, the increased security at the legal ports of entrance 
threatens to slow commerce and hurt both the regional and the 
national economy unless it is implemented properly.
    These issues are all very important and extremely urgent, 
and we look forward to hearing from our witnesses today about 
ways to address them. I first want to thank the personnel of 
Niagara Falls State Park for hosting this hearing today. I also 
when to thank Chairman Camp of the Border Security Subcommittee 
for agreeing to hold this hearing jointly with us, and for the 
assistance that he and his staff provided to us in setting it 
up. I am also a member of Mr. Camp's subcommittee, and I have 
appreciated his leadership on these issues. I further want to 
thank the ranking member of the Border Security Subcommittee, 
Mrs. Sanchez, who should be here shortly and my other 
colleagues from the House of Representatives for joining us as 
well.
    We also welcome the representatives of the U.S. Federal 
agencies primarily responsible for dealing with border security 
and drug smuggling in this region. Namely the Department of 
Homeland Security's Bureau of Customs and Border Protection and 
the U.S. Coast Guard, and the Department of Justice's Drug 
Enforcement administration. My subcommittee is vitally 
interested in ensuring the effective functioning of these 
agencies, and we will continue to work with them and their 
staff to ensure the continued security and effective 
administration of our Nation's borders and its protection from 
narcotics. We welcome Mr. Michael D'Ambrosio, Interim Director 
of Field Operations at the Bureau of Customs and Border 
Protection's Buffalo Field Office; Commander Paul Gugg, 
Commanding Officer of the U.S. Coast Guard's Buffalo Marine 
Safety Office; Mr. Peter Moran, Chief Patrol Agent of the U.S. 
Border Patrol's Buffalo Sector; and Mr. William Walker, 
Associate Special Agent in Charge of the DEA's New York Field 
Division.
    Border policy, of course, affects not simply the United 
States but also Canada. As such, it is of vital importance that 
we seek the input of our neighbors to the north in evaluating 
changes at the border. In each of our areas of the northern 
border we taxed Canadian parliamentarians as well as other 
representatives from Canada to make sure that we acknowledge 
their concerns in the trade questions between our countries, 
and this is pointed out by Mr. John Maloney and Mr. Derek Lee 
and they will be here. This past weekend I had the pleasure of 
attending the U.S.-Canada Interparliamentary Conference at 
Niagara-on-the-Lake, where I met with these gentlemen as well 
as many other officials of the Canadian parliament, we're glad 
that they are able to join us today.
    When examining border policies, we must also seek the input 
of representatives of the local community whose lives are 
directly affected by changes at the border. Representing a law 
enforcement agency entrusted with protecting local citizens 
from drug smugglers and other cross-border criminals, we are 
pleased to be joined by Sheriff Thomas Beilein of the Niagara 
County Sheriff's Department. Mr. Kevin Feely, president of the 
local Chapter 154 of the National Treasury Employees Union will 
testify about working conditions for our inspectors at the 
ports of entry. Ms. Dawn Hamilton of the PBS affiliate WNED 
joins us to discuss ways to improve communication with first 
responders and other security personnel. Here to discuss the 
impact of international traffic on one of the most important 
bridges in the world is Mr. Stephen Mayer, who's the general 
manager for Operations for the Buffalo and Fort Erie Public 
Bridge Authority. We're also joined by two witnesses who can 
testify to the impact that border security policies have on the 
local economy and local businesses: Mr. Russell Deveso, 
chairman of the New York State Motor Trucking Association; and 
Dr. Andrew Rudnick, president of the Buffalo Niagara 
Partnership. We thank everyone for taking the time this morning 
to join us for this important hearing. And I'd now like to 
yield to Chairman Camp.

STATEMENT OF HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Camp. Well, thank you very much, Chairman Souder. As 
has been mentioned, the ranking member of this subcommittee is 
on her way here, Loretta Sanchez. This is a hearing that the 
Government Reform Committee had scheduled for some time. The 
Homeland Security Committee is a new committee and so I want to 
thank Chairman Souder for letting us join together to have a 
joint hearing with both the Criminal Justice Subcommittee of 
Government Reform and the Infrastructure and Border Security 
Subcommittee of Homeland Security Committee. It's a pleasure to 
be in Niagara Falls today. I want to thank Congresswoman 
Slaughter for letting us have this hearing in her district as 
well. I guess when I flew in I flew into Congressman Jack 
Quinn's district, so I'm learning the district lines in this 
part of the country. The Buffalo Niagara border crossing ranks 
in the top three in total land border crossings in the Nation 
and is second only to Detroit in the amount of freight crossing 
in the northern border each year. Nationwide, border security 
has become a top priority and the Buffalo region is a perfect 
place to demonstrate what's being done on the northern border 
to improve security.
    The potential scope of border security is immense. The 
challenge before us is to provide a level of security that's 
appropriate for the risks, including cargo screening, 
monitoring who and what is coming in and out of the country 
without hindering legitimate commerce and travel. I do not 
believe these are mutually exclusive goals.
    Shutting down borders or delaying the flow of commerce in 
the event of a terrorist attack or in the name of increased 
security would have serious and longstanding effects on the 
national and world economy. This is especially true in 
communities like this, where ``just-in-time'' deliveries are 
essential to the local employers. The security and livelihood 
of the United States depends more than ever on how efficiently 
Federal agencies charged with border management achieve their 
respective missions and coordinate their functions.
    During this hearing, I'm particularly interested in the 
flow and dissemination of crucial intelligence information from 
national headquarters to the field offices, as well as access 
to the FBI data and intelligence reports. As the chairman of 
the Subcommittee on Border and Infrastructure for the House 
Homeland Security Committee, I'm also interested in how 
technology is advancing the respective missions that we have 
before us.
    Since September 11th, at the direction of the President, 
the top priority of the agencies like Customs, U.S. Border 
Patrol and Coast Guard has been responding to the continuing 
terrorist threat on our land borders, seaports and airports. 
These agencies are working diligently to protect our homeland 
by keeping terrorists and terrorists weapons from entering 
United States while enhancing our economic security by moving 
goods and people efficiently across the borders. As some of our 
witnesses today are working on the front lines to secure our 
borders, I'd like to thank them for their service and look 
forward to hearing their testimony as well.
    I appreciate the members of the Canadian House of Commons 
testifying today. With almost $1.4 billion crossing our common 
border every day, an ongoing dialog and increased cooperation 
or harmonization, if you will, is essential to maintaining our 
strong security and economic relationship. I am also looking 
forward to hearing from community witnesses representing law 
enforcement, the private sector and other strategic areas that 
are involved in the security partnership.
    I want to thank you all for being here. I want to thank my 
fellow members for being here. I've been in a lot of hearings 
in Washington and there were fewer Members in attendance as we 
have here today. So I think it's a real statement to how 
important these issues are and how much the Members do want to 
hear the information that may be discussed today. Thank you for 
being here. I look forward to your testimony. Now, I would 
yield to Congressman Sweeney.

STATEMENT OF HON. JOHN E. SWEENEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Sweeney. I thank you chairman and thank Chairman Souder 
for the invitation the opportunity to be here. As a fellow New 
Yorker I want to also recognize, acknowledge and thank my 
friend Louise Slaughter and my dear friend Jack Quinn for 
allowing an Easterner to come a little bit west to understand a 
little bit better the policies that effect us. I, Mr. Chairman, 
am not going to submit for the record a formal statement 
because I think it's quite important that we hear from the 
witnesses and I'm interested in the information that they have 
and they will share with us.
    As a New Yorker I recognize the critical decisions that 
we're going to make in Washington and their application here on 
the border and the effect it has on the quality of life of the 
people that I represent in my district, both in terms of their 
safety and security and in terms of the economy of the region. 
I'm particularly interested to see how we have developed a 
system, how that system is working. And most particularly how 
the interaction between local, State and Federal agencies is 
occurring and what improvements and changes that we can make 
into that system, as well as ensuring that Federal resources 
reach where they need to reach.
    As a member of the Appropriations Committee, we're right in 
the process of marking up the 2004 budget at this point in time 
so there are a lot of critical decisions that are gonna be made 
in the next several weeks and your testimony here in this panel 
and the following two panels testimony will have a real impact 
on policy as it's made in Washington. And I thank you for the 
opportunity to be here.
    Mr. Camp. Thank you. And I should have mentioned, the rules 
of the full committee apply here at this hearing and that means 
any Member who waives their opening statement has that time 
added on to their questioning time. But why don't I defer to 
Congresswoman Jackson Lee, if she has an opening statement 
you're welcome to make that now.

   STATEMENT OF HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
first of all thank you for joining with Chairman Souder for 
this very important hearing. And to be able to be hosted so 
aptly and appropriately by Congresswoman Slaughter being in her 
district, I want to thank her particularly for her vision and 
leadership on these issues, along with my good friends 
Congressmen Sweeney and Quinn who are here as well and I look 
forward to my other colleagues joining us.
    Mr. Chairman, I guess I'll be penalized, but I just have a 
brief few remarks and I'd ask that my entire statement be 
submitted into the record. I am grateful to be able to be in 
Niagara Falls. I've heard great explanations about it from two 
young people that I've got to know, my mother and father who 
honeymooned here. So it's good to be in this very beautiful 
area and I want to thank the community as well as the various 
panelists and witnesses that will be here. And particularly the 
members of parliament from Canada for your interest in this 
area.
    This is a big border that is more than 5,000 miles long and 
certainly I've spent a lot of time coming from Texas on the 
southern border and seeing the lack of difficulty in moving 
across the southern border, even with the Rio Grande. It's 
important for us to be in this region because I have made the 
point of noting that there should be no second rate or second 
class border.
    Just a few days ago we saw the tragedy of 19 individuals 
seeking to come into the United States losing their lives in a 
smuggling ring. It is worth noting that smuggling takes place 
everywhere. It may not be in the degree that we saw in Texas 
and on the border, but it happens. And if you smuggle people, 
you smuggle drugs and you launder money.
    And so all of these are intertwined. And this hearing is 
extremely important so that we can get a sense of the need here 
on the northern border region. I believe one of the important 
focuses of this hearing or should be, is the idea of providing 
resources and support for our U.S. Customs agents, certainly 
the Coast Guard we have reinforced over the last fiscal year 
and Border Patrol agents.
    I'm particularly interested in retention and professional 
development training, as well as for our legislation dealing 
with improved compensation and benefits. And I've worked on 
legislation along those lines. I'd be interested in hearing 
from our witnesses as to the needs in this area so that the 
attention can be brought to this border.
    I'm particularly interested as well in an improved and 
enhanced communication system that will have the capacity for 
law enforcement agencies to communicate between State and 
Federal agencies but also internationally. I always believe 
that when Members of Congress are invited to the districts of 
leaders of our Congress, that we should be problem solvers. We 
hope that we can come and listen to your testimony and bring 
the kind of added support to this region, to ensure that all of 
America is made safe by having two secure borders; the northern 
and southern borders. With that, I yield the rest of my time.
    Mr. Camp. Thank you. Now, I'd like to recognize Congressman 
Jack Quinn.

STATEMENT OF HON. JACK QUINN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Quinn. Thank you, Mr. Chairman. And I am certainly this 
morning out of my committee assignment, out of my district and 
my constituents think out of my mind often, but pleased to be 
here nonetheless. And Louise, I echo your opening remarks for 
we're now neighbors, particularly in your Buffalo office, 
almost right across the street from each other and our staffs 
are getting along famously.
    The seriousness of the discussion this morning, although I 
can't stay, I need to move back to Downtown Buffalo in just a 
few minutes. It is critically important because a lot of these 
solutions we need to remember have solutions where one size 
doesn't fit all. And so that some of our concerns on the 
northern border aren't the same as the southern border. Some of 
our concerns in other parts of the country might not match what 
we need to do here with our good friends from Canada; a 
relationship we have had for so, so many years.
    So I'll waive an opening statement. Welcome everybody to my 
little corner of the district and thank Louise for her 
hospitality, as well as Sergeants Castromen and Sakowski here 
at the park. Thanks.
    Mr. Camp. Thank you very much. Chairman Souder.
    Mr. Souder. I want to say for the official record we find 
that Congressman Quinn is very seldom out of his mind.
    Mr. Quinn. Don't put it to a vote, Mr. Chairman, while I'm 
here. [Laughter.]
    Mr. Souder. Before proceeding, I'd like to take care of a 
couple of procedural matters. First ask and consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record. That any answers to 
written questions provided by the witnesses, also to be 
included in the record. Without objection, so ordered. And 
unanimous consent that all Members present be permitted to 
participate in the hearing. Without objection, so ordered.
    Now our standard approach in congressional protocol is that 
Government witnesses representing the administration testify 
first. So our first panel consists of these witnesses. Would 
the witnesses on the first panel please rise, raise your right 
hands, and I'll administer the oath. As an oversight committee 
it's our standard practice to ask all witnesses to testify 
under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative. The witnesses will now be 
recognized for opening statements. We ask all witnesses, 
summarize your testimony in 5 minutes. We'll insert your full 
statements into the record, in addition to any materials you'd 
like submitted and any other testimony that members have. The 
green light is not working, is that correct? So when the red 
comes up, it's like a fairly abrupt halt. Maybe we can do it 
like 4 minutes 30 seconds or something like that. So we're 
gonna start with Mr. D'Ambrosio on behalf of the Bureau of 
Customs and Border Protection. And thank you for coming back 
again, you've testified before.

    STATEMENT OF MICHAEL D'AMBROSIO, INTERIM DIRECTOR FIELD 
  OPERATIONS, BUFFALO, BUREAU OF CUSTOMS AND BORDER PROTECTION

    Mr. D'Ambrosio. Chairman Souder, Chairman Camp, members of 
the subcommittees. Thank you for the invitation to testify 
before you today. My name is Michael D'Ambrosio. I am the 
Interim Director, Field Operations for the Bureau of Customs 
and Border Protection, Buffalo Field Office. My 
responsibilities entail providing leadership for the legacy 
agencies of Customs, Immigration and Agriculture for all ports 
of entry in the State of New York with the exception of New 
York City.
    On March 1, 2003, the U.S. Customs Service, U.S. 
Immigration and Naturalization Service, and the inspection 
functions of the Agriculture, Plant Health Inspection Service 
merged into CBP within the Department of Homeland Security, 
while the investigative functions of U.S. Customs and U.S. 
Immigration and Naturalization merged into the Bureau of 
Immigration and Customs Enforcement.
    The collective goal of CBP is to prevent terrorists and 
their weapons from entering the United States while, at the 
same time, facilitate the flow of legitimate trade and travel 
while the traditional missions of the respective agencies 
continue to be observed, we now have one common mission that 
will serve to enhance security of our borders.
    The CBP is the guardian of the borders of the United States 
of America--America's frontline of defense. Within the Buffalo 
Field Office we have approximately 1,000 officers, which 
include Inspectors, Canine Enforcement Officers, Commercial 
Officers and support staff, who are working ceaselessly to 
protect the American public. These officers ensure that all 
passengers and cargo entering or exiting the United States are 
doing so in compliance with the applicable laws and regulations 
and that they pose no terrorist threat. These laws and 
regulations are enforced by CBP officers in a judicious manner.
    There are challenges along the Niagara frontier. CBP has 
the responsibilities at two bridges in Buffalo; the Peace 
Bridge and the International Bridge at BlackRock. In the 
Niagara Falls area CBP is responsible for international traffic 
at the Rainbow Bridge, the Whirlpool Bridge and the Lewiston 
Bridge.
    In 2002, these bridges funneled nearly 1.2 million trucks, 
7.3 million privately owned vehicles, 48,000 buses and 3,300 
trains through CBP. Commercial carriers delivered nearly 2 
million cargo releases to screen and process, netting the U.S. 
Treasury nearly $139 million in duties. Vehicle, bus, train and 
pedestrian traffic resulted in the inspection of 19 million 
travelers. Although an overwhelming majority of this passenger, 
vehicle and cargo traffic was processed and released by CBP in 
an expeditious manner, it also resulted in a large number of 
enforcement actions being taken by our officers. For example, 
CBP and ICE Officers made 197 narcotics seizures including over 
6,000 pounds of marijuana, over 72,000 tabs of Ecstasy and 
11,738,000 tabs of pseudoephedrine and 420 arrests. They seized 
over $6.6 million in undeclared currency, refused entry to over 
48,000 aliens, expedited the removal of 200 aliens, and 
intercepted over 2,100 criminal aliens. Additionally, there 
were 30 cargo seizures totaling nearly $1 million in value.
    During the past year CBP has received a significant 
increase in the resources that has allowed us to accomplish our 
work more effectively and efficiently. Inspectional staffing in 
the Port of Buffalo has increased roughly 100 percent. 
Additionally, facilitation programs jointly administered by CBP 
and Canadian authorities have been implemented to allow for 
expedited, yet highly secure, border processing of both 
travelers and commercial conveyances. High technology devices 
that enhance our ability to balance our facilitation and 
enforcement efforts have been added to many border locations, 
including the Buffalo area and the Niagara frontier. These 
technological systems have allowed CBP to create a layered 
enforcement strategy that requires a potential adversary to 
defeat a variety of complementing systems in order to be 
effective. Please allow me to elaborate on the equipment used 
in this highly effective enforcement strategy.
    First would be the Radiation Portal Monitors [RPMs]. RPMs 
provide a means to screen cars, trucks or other conveyances for 
the presence of radioactive and nuclear material without 
inhibiting the flow of commerce or traffic. These systems are 
capable of detecting both gamma and neutron radiation emanating 
from both natural sources and nuclear materials.
    Currently, there are five RPMs at the Buffalo Peace Bridge 
and four at the Lewiston Bridge cargo facilities providing 100 
percent screening of all commercial trucks entering the Port of 
Buffalo and Niagara Falls.
    Another device is the Radiation Isotope Identifier Device 
[RIID]. A RIID is a device that verifies whether a source of 
radiation is a possible threat or a medical commercial source 
of radiation. The RIID can be used both as a screening device 
to detect the presence of radiation and to perform the 
identification of radioactive isotopes that have been detected 
by other radiation detection equipment, such as the RMPs. 
Currently the Port of Buffalo/Niagara Falls has six RIIDs 
deployed.
    There are additional technological issues that I could tell 
you about but my time is up. I'd like to thank you for this 
opportunity to testify. I would be happy to answer any 
questions that you have at this hearing.
    Mr. Souder. Thank you. Thank you very much.
    The record will have all those, we may have some followup 
questions that we'd like to get into the record.
    Commander.

STATEMENT OF COMMANDER PAUL M. GUGG, COMMANDING OFFICER, MARINE 
       SAFETY OFFICE, BUFFALO, NEW YORK, U.S. COAST GUARD

    Mr. Gugg. Morning, Mr. Chairman, Mr. Chairman, 
distinguished members of the committee. I'm Commander Paul Gugg 
and I'm the Coast Guard Captain for the Port of Buffalo, NY, 
which includes the Buffalo/Niagara region, the Saint Lawrence 
Seaway, Rochester, NY, and Erie, PA. It's a pleasure to appear 
before you today to discuss the role of the Coast Guard in 
protecting our public and our critical infrastructure, while at 
the same time, ensuring the safe movement of goods and people 
across the international border.
    As Captain of the Port, I'm responsible for an area that 
covers over 450 miles of shoreline from Massena, NY to the Ohio 
Pennsylvania line. This area is often referred to as the 
gateway to the Great Lakes, as all incoming vessels must pass 
through the Buffalo zone. In addition to Captain of the Port, 
I'm also the Federal On-Scene Coordinator for response to 
environmental disasters, the Officer in Charge of Marine 
Inspections for inspecting and certificating commercial freight 
and passenger vessels and, the Federal Maritime Security 
Coordinator, which makes me responsible for planning and 
coordination of ports and waterways security. All of these 
roles are relevant to the work of your subcommittees.
    With me today is Commander Jeffrey Hammond, I hope he's 
still behind me. Commander Hammond is the Commander of the 
Coast Guard Group Buffalo. He oversees 10 multi-mission Coast 
Guard stations with 33 boats that conduct search and rescue and 
law enforcements over an operational area that extends from 
Massena, NY to Fairport, OH.
    With regard to improving security and facilitating commerce 
in the Buffalo/Niagara region of the northern border, the Coast 
Guard's mission is three fold. First, as we are partners in CBP 
and ICE, excuse me--first our partners in CBP and ICE are very 
aware what efforts are stepped up in securing one area of 
motorists border crossing, other areas become more attractive. 
The Coast Guard has and must continue to patrol effectively by 
water, air and land the area between the bridges, as other 
agencies clamp down on drugs and illegal immigration at those 
portals.
    Second, knowing that terrorists focus on economic and 
symbolic targets we need to continue to identify and reduce the 
vulnerability of critical infrastructures such as bridges and 
key economic facilities, from waterside and waterfront attacks. 
Both of these missions are relied heavily on close coordination 
with other DHS agencies, our former brother agency the DOT and 
local organizations. My written testimony highlights some of 
the multi-agency groups with which we participate in a cross-
training and resource leveraging initiative that we have 
successfully engaged with Border Patrol.
    Also noteworthy, is that in this region the Coast Guard's 
undertaking of law enforcement missions, such as drugs and 
migrant innervation, is complimentary to enhanced port 
security. The assets in mission hours implored to accomplish 
one are not inclusive of the other. As a recent example, in the 
Saint Lawrence region the Integrated Border Enforcement Team 
combined anti-terrorism law enforcement operations netted 
several drug seizures.
    Last, we facilitate safe and efficient water borne trade 
and transportation as an alternative to highway checkpoints and 
enhancing in air pollution. A single ship can carry as much as 
800 trucks. The ferry scheduled to commence operations between 
Rochester and Toronto next spring can carry as many people as 
16 tour buses and a string of cars bumper to bumper more than 
one half mile long on each voyage. Meeting American's 
expectations with regards to security in commerce in addition 
to our other important missions, such as environmental 
protection and search and rescue is a challenge.
    But with your continued strong support and by continuing to 
work smart and by leveraging other agencies capabilities, we 
will undoubtedly succeed. We appreciate your focused interest 
in the northern border and particularly the Buffalo/Niagara 
region and enjoy the opportunity to show your staff our 
waterfront and our latest equipment. Thank you.
    Mr. Souder. Mr. Moran.

 STATEMENT OF PETER MORAN, CHIEF PATROL AGENT, BUFFALO SECTOR, 
  U.S. BORDER PATROL, BUREAU OF CUSTOMS AND BORDER PROTECTION

    Mr. Moran. Chairman Souder, Chairman Camp, distinguished 
committee members, I am very pleased to have the opportunity to 
appear before you today to discuss the operations and law 
enforcement initiatives by the Bureau of Customs and Border 
Protection, U.S. Border Patrol in Buffalo, NY.
    My name is Peter Moran, and I am the Chief Patrol Agent for 
the Buffalo Sector of the U.S. Border Patrol. I would like to 
begin by giving you a brief overview of the Buffalo Sector. 
Buffalo Sector's area of responsibility encompasses 450 miles 
of international boundaries stretching from the Ohio-
Pennsylvania line to the Saint Lawrence Seaway near Wellesley 
Island, NY. All 450 miles are comprised of water boundary.
    The Buffalo Sector is located near New York State's second 
largest city and is responsible for patrolling the areas 
adjacent to Canada's largest city, Toronto. This corridor 
between Buffalo and Toronto is a major funneling point for 
traffic, both legitimate and illegitimate, destined for New 
York City and other points along the East Coast. To address 
this enforcement challenge, the Buffalo Sector has 82 agents 
assigned to four stations. These stations are located in 
Tonawanda, Niagara Falls, Fulton and Wellesley Island, NY.
    Operationally, the Buffalo Sector accomplishes it's mission 
utilizing a variety of methods and equipment. Linewatch, or the 
physical observation by our agents of the international 
boundary, represents the primary function of the Sector's 
personnel. This is supplemented through boat patrol, traffic 
check and transportation check operations.
    The marine environment poses unique and formidable 
challenges to law enforcement officials on both sides of the 
border, as it permits virtually unlimited access to the United 
States or Canada by visitors, both lawful and unlawful, who 
have access to a boat, raft or other watercraft. Traditional 
electronic intrusion devices, used with success in a land 
border environment, are of little utility in a marine setting. 
Visual observation of the water boundary itself, by an agent 
manning a stillwatch position on a riverbank, aided by 
binoculars and night vision equipment, was, until recently, the 
only method of surveillance available.
    Now, thanks to the funding provided by the Congress, two 
Remote Video Surveillance Systems are in operation along the 
Niagara River with an additional two scheduled to be 
operational this summer. Funding for additional RVSS sites was 
included in the fiscal year 2003 budget. We expect those camera 
systems to be fully operational in fiscal year 2004.
    Not withstanding the technological advances utilized in 
border enforcement today, the greatest tool available to law 
enforcement along the U.S.-Canadian border is the outstanding 
spirit of cooperation and mutual assistance which exists 
between law enforcement officers on both sides of our shared 
border--be they Federal, State, provincial, county or 
municipal.
    Examples of such cooperative efforts are the numerous 
Integrated Border Enforcement Teams located along the entire 
northern border shared with Canada and the United States. Two 
such IBETs exist within the Buffalo Sector area; one along the 
Niagara frontier and one in the Thousand Islands area. Another 
example of cross-border cooperation is Project North Star, a 
bi-national multi-agency forum consisting of law enforcement 
agencies from Canada and the United States. Project North Star 
mandate, as stated in its by-laws is to enhance existing 
communication, cooperation and partnerships between Canadian 
and American law enforcement personnel. To provide a method for 
local, county, State, provincial and Federal law enforcement 
agencies and associations to voluntarily coordinate their 
efforts. And to promote the exchange of best practices in a 
more effective utilization of assets and resources.
    Project North Star is governed by four international quad-
chairs, representing United States and Canadian law enforcement 
agencies. I am the U.S. Federal quad-chair. Project North 
Star's headquarters is located in Cheektowaga, NY and is 
currently staffed by three Border Patrol Assistant Chief Patrol 
Agents under my direction. Discussions are currently under way 
with Canadian officials to assign Canadian officers to Project 
North Star.
    Another example of the spirit of cooperation which exists 
here in the Buffalo area is the exceptionally close working 
relationship that has been developed between the U.S. Border 
Patrol and the U.S. Coast Guard. In the days immediately 
following September 11 it became apparent to the Buffalo Sector 
that we needed to expand our boat patrol duties to include year 
round operation. Having little experience in cold weather 
operations, we immediately contacted the Coast Guard for 
assistance.
    The Coast Guard not only met our expectations but exceeded 
them. This cooperation evolved into a virtual twinning of our 
operations, which includes joint marine patrols, on-shore 
marine patrols and training. Furthermore, we are in the process 
of connecting the visual feed from our RVSS system with the 
Coast Guard and are funding a joint docking project at the 
Coast Guard's Station Niagara.
    For the first time in our Nation's history, we have a 
single uniformed law enforcement agency at the borders working 
as one to secure America against the terrorist threat. Not 
withstanding the training, the cooperation, and the equipment 
sharing, the thread that binds our agencies was and continues 
to be, protecting and securing our Nations borders. Better 
security. Better enforcement. Better intelligence. As has been 
demonstrated here in Western New York, the achievement of a 
complete security of our international border is not to be 
viewed as a singular one-agency effort, but as a collaborative 
multi-agency effort. One team. One fight.
    In conclusion, while operational challenges remain, I am 
confident that the continued support of Congress will help us 
meet these challenges and assure a safer homeland. I thank the 
committee for the opportunity to present this testimony today 
and I would be pleased to respond to any questions that the 
committee may have. Thank you.
    Mr. Camp. Thank you.
    Mr. Souder. Mr. Walker.
    I want to thank you too, Commander. We really appreciate 
the time you spent with all the staff yesterday going up and 
down the border, all the bridges out on the water, up in the 
air. It is immensely helpful as we do the reports.

STATEMENT OF WILLIAM WALKER, ASSOCIATE SPECIAL AGENT IN CHARGE, 
    NEW YORK FIELD DIVISION, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Walker. Morning Chairman Souder and Chairman Camp, 
distinguished committee members. I am William Walker, Associate 
Special Agent In Charge of the Drug Enforcement Administration, 
New York Field Division. I'm pleased to appear before you to 
discuss the role of the DEA regarding the New York/Canadian 
border and drug trafficking.
    I would like to thank each of the respective subcommittees 
for supporting the men and women of the DEA in our vital 
mission. DEA's office in upstate New York continues to support 
joint State, local, bi-national and international drug 
investigations, as well as intelligence sharing. DEA is 
exceedingly grateful for the outstanding cooperation and 
assistance that we receive from the Royal Canadian Mounted 
Police. The cooperative efforts of the RCMP were critical to 
the successful conclusions of a number of multi-agency 
counterdrug investigations.
    DEA investigates drug trafficking originating from the 
Canadian border and in the upstate New York region primarily 
through our offices in Albany, Plattsburg, Buffalo, Rochester 
and Syracuse. There's a total of 41 special agents in upstate 
New York and 27 DEA task force offices.
    The 428 miles of the New York/Canadian border, with 26 
points of entry, is one of the most active borders in the 
country as well as a favorite conduit for drug traffickers. 
Three of the four largest cities in Canada-Toronto, Montreal 
and Ottawa are within 2 hours drive from New York ports of 
entry, resulting in extensive commercial and private traffic 
across the border.
    In addition to the normal points of entry, drug traffickers 
take advantage of the Akwesasne/St. Regis Mohawk Indian 
Reservation. It bisects the New York/Canadian border and covers 
14,000 acres of the U.S. side and 7,400 acres in Canada. This 
reservation is completely unprotected by BICE--Bureau of 
Investigation and Customs Enforcement--and is a haven for 
smuggling narcotics, illegal aliens and what.
    The primary drug threat of the U.S.-Canadian border are 
marijuana, pseudoephedrine, club and predatory drugs and 
Southeast Asian Heroin. Highly sophisticated Canadian based 
drug trafficking organizations smuggle massive amounts of 
hydroponic marijuana across the border to New York State. The 
marijuana shipments are destined not only for the New York 
market but for further transshipment throughout the United 
States.
    Hydroponic marijuana has become a major concern to the Drug 
Enforcement Administration because of the potency that you 
discussed earlier. This increased marijuana traffic is being 
actively pursued by DEA and is amplified by Operation Northern 
Comfort, which targets the distribution of hydroponic marijuana 
from Canada by members of the Hells Angels organization 
throughout the United States via the Mohawk Reservation. 
Approximately 34 defendants have been arrested to date and over 
$1 million seized in this ongoing investigation.
    The illegal diversion of pseudoephedrine is also a 
particular concern to DEA in the upstate region. 
Pseudoephedrines is a precursor for methamphetamines and is 
continually diverted from legitimate to illegitimate sources 
for further transshipment, primarily to the West Coast. Canada 
based traffickers capitalize on the vulnerability of the border 
region as well as the one legal trade of pseudoephedrine in 
Canada, to facilitate the shipment of the drug into the United 
States. Pseudoephedrine, highly controlled in the United 
States, was not regulated in Canada until January 9, 2003.
    Drug traffickers based in Canada also serve as a prominent 
source of supply for club and predatory drugs, especially GHB/
GBL, Ecstasy and steroids. To counter this threat, DEA 
instituted Operation Webslinger; a ground breaking, multi-
jurisdictional investigation which targeted the illegal 
Internet trafficking of ``date rape'' drugs. The DEA, together 
with several other U.S. agencies, the Royal Canadian Mounted 
Police and Ontario Provincial Police arrested over 115 
individuals in 84 cities across the United States and Canada.
    More importantly, we seized more than 1,500 gallons of GHB 
and GBL. Part of Operational Webslinger, DEA, Buffalo conducted 
the first court authorized contemporaneous interception of 
Internet Web sites. This led to the identification and arrest 
of a major Canadian citizen who was a significant supplier of 
club and predatory drugs. Intelligence and ongoing 
investigations indicate that multi-thousand pill quantities of 
Ecstasy are being smuggled from Europe through the Canadian 
border to New York along various points of the border.
    Canada is a significant entry point of Southeast Asian 
Heroin as well. Southeast Asian Heroin organizations based in 
Canada receive and support shipments of heroin for further 
transshipment across the border into New York. DEA will 
continue to meet these challenges and these drug threats and is 
committed to intelligence sharing information and coordinating 
investigative initiatives to maximize counter drugs efforts 
along the border.
    Thank you for this opportunity to appear before this 
subcommittee. I will be happy to answer any questions you or 
other Members will have.
    Mr. Camp. Thank you very much.
    I want to thank all the witnesses for their testimony. I do 
want to acknowledge that Congressman John Shadegg from Arizona 
is now here. And, John, I'd like to give you the opportunity to 
make an opening statement if you wish or we can add that on to 
your question time.
    Mr. Shadegg. Mr. Chairman, I'll insert my opening statement 
into the record.
    Mr. Camp. Thank you very much. I just have a couple 
questions and then we'll go throughout the rest of the panel. 
But Commander Gugg, how are the Coast Guard operations being 
coordinated with the Border Patrol? I know we heard some 
testimony on that but particularly is there a clear line of 
communication between the different entities and do you have 
interoperable computer systems? And I just heard a little bit 
about the joint training, but can you tell us a little bit 
about how really the merging of these two different entities is 
going?
    Mr. Gugg. Well, for one, Mr. Congressman, we're actually 
co-located in several areas; including Niagara. As you folks 
may have noticed the Border Patrol boat is right there at our 
station in Niagara. We talked about the cross-training so that 
we're using the same standard procedures. And something that's 
kind of ground breaking initiative is that we actually share 
frequencies with Border Patrol now. Each Federal agency 
typically has its own communication frequency and you've 
probably heard communication problems before where one can't 
talk to the other one. We believe we've overcome that to a 
large degree in the Buffalo area.
    Mr. Camp. And do you have data bases that interface with 
one another?
    Mr. Gugg. We have a scheduled sharing type of data base, a 
calendar, but as far as a formal data base, sir, no we do not 
yet.
    Mr. Camp. And can you tell me how the mission of the Coast 
Guard might have changed as a result of the merging of the 
departments; particularly with regard to the entire Great 
Lakes? Because really we have vessels that enter the system and 
go throughout the Great Lakes Region.
    Mr. Gugg. It hasn't changed too horribly much since the 
merging of the departments but since September 11 our emphasis 
focus--our focus has changed dramatically. The Homeland 
Security related things were always a mission of the Coast 
Guard but it was significantly less than 10 percent of our 
efforts and at times at least 60 percent of our efforts in 
recent months, sir.
    Mr. Camp. Mr. D'Ambrosio, the--again, I'm interested in the 
interoperable compatible computer systems and the use of 
electronic manifests for shippers prior to arrival at the 
border. And how can those systems be implemented and can you 
give me a little update on that?
    Mr. D'Ambrosio. Mr. Chairman, are you referring 
specifically to the 24 hour rule or something else?
    Mr. Camp. The 24 hour rule but I guess in general how new 
technologies can be brought on line to help keep our borders 
open to bring enhanced cross-border travel and commerce, while 
protecting security at the same time?
    Mr. D'Ambrosio. With regard to the Niagara frontier, I'll 
focus on that. It's a land water operation overwhelmingly. We 
currently do not have an automated manifest system for trucks. 
We do for rail. The automated manifest system for rail has been 
in effect for at least 4 years here at the border. There is a 
manifesting requirement that's going to be implemented under 
the Trade Promotion Act. The final rule I believe is due in 
October of this year. My expectation, based on discussions with 
headquarters, is that there will be something in place within a 
year for trucks to transmit electronically some period of time 
before arrival at the port of entry what is on the truck. The 
pieces of that electronic system have not been finalized yet.
    The publication in the Federal registry has not taken place 
yet, so I really can't address it until that is published. But 
there is the intent to have an electronic system to know what's 
coming in a commercial conveyance; all forms of commercial 
conveyances in addition to the rail that we currently have.
    Mr. Camp. I'm aware of the press reports--first let me say 
in your testimony you mentioned the increase of resources that 
have been made available to the border. I'm aware of the press 
reports of the young boy who crossed undetected into the United 
States. Can you give me any new information that may not have 
appeared in the paper that can maybe sort of explain the 
situation and what steps may have been taken and how this could 
have happened?
    Mr. D'Ambrosio. Mr. Chairman, I don't know all of what 
happened because it's under investigation. It has been referred 
to our office in Internal Affairs. I understand the Inspector 
General is looking at the issue, so until we have all of the 
information from what occurred, it's hard to say how we would 
address it. Of course every inspector at the start of every 
shift, receives something called a muster. And in the muster we 
give them the latest intelligence information related to 
terrorism or narcotics smuggling, whatever it is. Of course it 
was reinforced after that event with every inspector that 
nobody enters the country without inspection. Now, if that did 
occur and under what circumstances did it occur, that will be 
shown in the investigation.
    Mr. Camp. All right. Thank you.
    Congresswoman Slaughter, you care to inquire?
    Ms. Slaughter. Thank you very much. Mr. D'Ambrosio, I'm 
pretty much impressed by your testimony and the new equipment 
that you have in radiation form machines and radioactive 
isotope device and you're well supplied with those. It's more 
than adequate to what you think you'll need here.
    Mr. D'Ambrosio. Well, we will be receiving actually more 
RIIDs, the isotope detectors. We will be receiving more--and 
I'm speaking in terms of the entire area of my coverage, not 
just the Buffalo/Niagara frontier but all of New York State; 
the borders for New York and Canada. This is a work in 
progress. We will be receiving more radiation portals, more 
RIIDs. Some of the devices I did not get into, I don't know if 
you'd like me to address those now?
    Ms. Slaughter. I would.
    Mr. D'Ambrosio. OK. Each inspector wears a personal 
radiation device [PRD]. That personal radiation device will 
give a reading of gamma ray material that is near the 
inspector. A type of a first line of defense if a vehicle or 
conveyance has not come through a portal. The RIID is something 
that is used to verify after that initial alert, what might be 
there. The RIID is much more precise. It will also identify the 
isotope, where as the PRD will simply give a reading that 
something anomalus is in the presence of the inspector.
    In addition to these radiation detector type devices, we 
have the VACIS, which is the Vehicle and Cargo Inspection 
System. That is a gamma ray system whereby an entire conveyance 
is run through this device. It sees into the conveyance and 
shows on a computer screen what is inside the conveyance. So 
the inspectors who are well trained, it's a 2-week training, 
are able to read the screens.
    Ms. Slaughter. Do you have those yet?
    Mr. D'Ambrosio. Yes, there's one at the Peace Bridge and 
one at the Lewiston Bridge.
    Ms. Slaughter. I understand I learned last week that 
reduces the amount of time in checking cargo from 8 hours to 
2\1/2\ minutes, is that correct?
    Mr. D'Ambrosio. Yes. If a truck needed to be unloaded the 
old fashioned way, you can imagine a 43 foot truck could take 
all day perhaps. Now we can make a decision whether it's high 
risk or low risk based on any anomalies that might become 
visible to a trained inspector. It takes a minute to run that 
truck through the VACIS, so we can screen many more 
conveyances, commercial conveyances today and have a higher 
level of confidence that they are a low risk and not need to 
deband them as we have in the past.
    Ms. Slaughter. Do you also examine rail cars for their 
cargo?
    Mr. D'Ambrosio. We currently do not have any VACIS 
capability for rail, but that is being implemented.
    Ms. Slaughter. And planes?
    Mr. D'Ambrosio. Yes.
    Ms. Slaughter. I'm very pleased to hear that.
    One other question that probably isn't in the high level of 
Homeland Security it may not rank as high but is terribly 
important to our constituents here, and that is the large 
number of recreational boaters who are constantly going back 
and forth between the United States and Canada. And I'm being 
told that with the new regulations that should the United 
States go to a orange alert that all U.S. boats have to be seen 
visibly face-to-face by either INS or Customs agents before 
they can go back to their home ports. Are you familiar with 
that?
    Mr. D'Ambrosio. Yes. During alert level orange all 
watercraft need to be inspected face-to-face. Now that we are 
in alert level yellow, that is not the case.
    Ms. Slaughter. But in an orange alert this summer, should 
that happen, what are all these boaters going to do? My feeling 
is that they may have to go as far as Rochester and Buffalo, 
this is my area here but there's many people that may have to 
go as far down as Alexandria Bay, is that correct?
    Mr. D'Ambrosio. They would have to go to a location where 
there would be inspectors available to inspect them.
    Ms. Slaughter. I think that's something we ought to take a 
look at. I believe that's a terrible bottle neck there. How do 
you feel about that Commander?
    Mr. Gugg. I agree it would be a bottle neck. There are a 
number of measures, security measures that are--do have an 
affect on American citizens. We try everything we can to reduce 
those but those particular procedures have been set in place as 
necessary and appropriate.
    Ms. Slaughter. One other question on the new radiation 
devices. You don't need both Canadian devices and U.S. devices. 
Are you sharing the cost or sharing any information or research 
on those?
    Mr. D'Ambrosio. As far as I know and I am in frequent 
discussions with my counterpart in Fort Erie Ontario. I believe 
CCRA, Canada Custom Revenues Agency is receiving their own 
VACIS units. I'm not aware that they have any other radiation 
or any radiation detector devices.
    Ms. Slaughter. Is there any way we can work together to 
avoid duplication that would work very well and save us some 
resources and use the money for other resources?
    Mr. D'Ambrosio. One of the ways that we are exploring 
working together is in a concept known as an International 
Zone. That has been a topic of discussion in the accord process 
between the United States and Canada for a number of years. So 
if we did have International Zones with inspectors from both 
countries working together, then yes, there probably could be a 
significant savings on the technology.
    Ms. Slaughter. Do you have any particular feelings about 
that, pro or con, any of you; about that kind of International 
Zone?
    Mr. D'Ambrosio. Well, I personally was involved in the 
process but it's ongoing.
    Ms. Slaughter. Part of bringing that level of understanding 
between Mr. Manly and----
    Mr. D'Ambrosio. Right. There have been some issues related 
to the level of authority that each country would have in the 
International Zone. If the zone were entirely in Canada let's 
say, there's a question of how much authority U.S. Customs 
inspectors and Immigration inspectors, now CBP inspectors, 
would have in that International Zone and that's a topic of 
continuing discussion.
    Ms. Slaughter. Jurisdictional issues?
    Mr. D'Ambrosio. Yes.
    Ms. Slaughter. Thank you very much.
    Mr. Camp. Thank you. Congressman Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman. I want to thank all 
of the witnesses for being here and for what really is deeply 
informative testimony that will allow us to more specifically 
focus our energies and priorities. I serve on both Select and 
on Props Homeland. On Select I also serve as co-chair of the 
Intelligence Committee. There's an area and it relates to this 
interconnectivity issue and I'm gonna ask a couple questions 
about that in a minute.
    But there's an area that I have some concern about. It is 
both concern in terms of our capacity in the Federal Government 
to quickly process our end of the responsibility and then also 
develop its protocols that will amply protect both agency 
sources and methods of information. And that is a notion of how 
many security clearances are available, how many are out there, 
how many are needed and how we are gonna develop a system to 
manage those clearances.
    And I was--I suppose this is a question for both for the 
Commander and Mr. D'Ambrosio, but also you Mr. Moran in the 
sense that you're dealing both from the macroperspective and 
then also in the very front line of where those security issues 
are gonna really meet the greatest challenges.
    Mr. D'Ambrosio, you mentioned that at the beginning of 
every report the teams on both border-crossing and the 
inspectors is what you called a muster report.
    My question very simply is how many of your folks, you have 
1,000 inspectors in the region, how many of your folks have 
that kind of security clearance that not only enable them to 
receive precise threat information in real time and then to 
whom are they able to transmit it to, in either the Commander 
under the Commander's control and Mr. Moran's control in order 
to react in real time?
    Mr. D'Ambrosio. Congressman, every inspector is cleared at 
least for information that is at the official use only level 
and that would generally be the level of the intelligence 
information that is given to them. The intelligence information 
frequently is the same information that has been in the 
newspapers. They would be informed of the kind of interdiction 
that took place let's say, on the southern border and maybe 
that technique may be applicable now to the northern border.
    When you start to get into the Secret and Top Secret levels 
that does not extend to the inspectors. With regard to sharing 
of the information, the same information that would be 
available in a muster to the inspector at the beginning of 
their shift would be available also to Border Patrol Agents 
and----
    Mr. Sweeney. If I could interrupt. That is the official use 
level, correct?
    Mr. D'Ambrosio. Yes. It's the kind of information that 
really shouldn't be discussed with anybody except for within 
the organization, but it very well could be already in the 
public domain.
    Mr. Sweeney. Have you or one of the other committees of 
jurisdiction on the appropriations side, I guess, with commerce 
justice with the FBI--and I'm on treasury postals with 
treasury, so I have kind of an umbrella view of what's 
available and what we have developed out there. Have you been 
asked or do you have a plan to develop a proposal that would 
allow for the incorporation at some levels of your purview, 
clearances for Top Secret and/or at least Secret clearances 
from the Federal Government; and do you see the need for such?
    Mr. D'Ambrosio. At what level, Congressman?
    Mr. Sweeney. Whatever level in your organization. The 
fundamental question is, does someone closer to the ground have 
that clearance and have we undertaken any plan to develop that?
    Mr. D'Ambrosio. I'm not aware of any plan at this moment 
within the Office of Field Operations to expand the Secret and 
Top Secret levels. I can tell you right now that I currently 
have a Secret clearance and I am in the process of being 
cleared for Top Secret clearance. The Port Director and Chief 
Inspectors have Secret clearances. It generally does not go at 
a lower level than that.
    Mr. Sweeney. Very good. At what point do you anticipate 
that your clearance will be approved, your Top Secret 
clearance, do you know that?
    Mr. D'Ambrosio. I really don't know.
    Mr. Sweeney. The other issue is are we able to expedite 
those clearances quickly enough? And that will be answered by 
other folks and I appreciate that. Commander, do you want to 
address that issue?
    Mr. Gugg. Thank you, sir. We have approximately 20 of our 
300 people that have security clearances Secret or above. I 
believe that's satisfactory for getting--for shifting 
operations as we need to related to security changes and 
alerts. But we have--we're fully aware that it is a cumbersome 
system when a new employee or new individual does come on 
board, it takes some time. Fortunately our people within the 
Coast Guard are pretty good at working that system, but it is 
as we know cumbersome and does take some time.
    Mr. Sweeney. Mr. Moran.
    Mr. Moran. Approximately 10 individuals and 10 of our 
agents do on our staff have Top Secret and I have Top Secret. 
Our intelligence agents who are at the field level have Top 
Secret, the agents that Mr. D'Ambrosio already testified to 
official use. I'm confident that at least for the Buffalo 
Sector we have the clearance levels at all levels that are 
appropriate.
    Mr. Sweeney. Thank you. I want to address both the 
Commander and Mr. Moran with a followup question to Chairman 
Camp's question. We talked about the interconnectability, you 
mentioned that you are on like systems as it relates to 
scheduling. How far away are we on like systems as it relates 
to other communicating shared information?
    Mr. Moran. Between us and the Coast Guard specifically, the 
communication was a big thing if you're going to work out in 
the field, you have to be able to speak to each other. We 
determined that in very short order in our operations. We were 
working on that prior to September 11 and of course we 
accelerated that process post September 11.
    We don't share any other data bases other than the 
scheduling. We work together face-to-face on a daily basis. We 
ride in the same cars, we ride in the same boats. I can't think 
of any real data bases that perhaps we might need to share. I 
think if one did arise we would certainly work together and get 
access to those data bases.
    Mr. Gugg. There is certainly one other piece of 
information, I wouldn't call it a data base but it regards 
imagery. And I'll leave that to Border Patrol to say how much 
they want to say about that.
    Mr. Moran. The Remote Video Surveillance System, the Coast 
Guard and the Border Patrol share the water boundaries, it's 
very difficult to patrol. It can only be done visually. We are 
providing a feed to the Coast Guard so they will be able to see 
on our monitors exactly what we're seeing.
    Mr. Sweeney. In terms of technology I think one of the 
greatest concerns that we have is the connectability in an 
appropriate fashion in real time and whether that--those 
decisions need to be made I would stress with each of you. Many 
of those goals are gonna happen with folks like you rather than 
folks back at CHS in Washington or Congress because you know 
the process essentially what's gonna work.
    Let me ask two very quick questions. One, Mr. D'Ambrosio, 
in as much a statement as you can give for me, and I know Ms. 
Slaughter and Mr. Quinn will agree will benefit us in our 
efforts in Washington, you talked about the VACIS system 
significantly speeding up the flow of cargo and transportation 
traffic through the area. I've been one, I know Louise 
Slaughter has been, John McHugh and a number of us have been 
prior to September 11th, talking about the agent infrastructure 
its effects on traffic. So maybe you could address very briefly 
for us the kinds of challenges you see and possibly the needs 
to improve those, in terms of the bricks and mortar 
infrastructure that allow you to better do your job.
    Mr. D'Ambrosio. As far as bricks and mortar are concerned, 
Congressman, there is a program that's afoot to rebuild 
virtually every port of entry in my area of responsibility. 
Where the last hearing took place, Chairman Souder's 
subcommittee in Champlain, NY a couple of years ago, that major 
point port of entry is scheduled to be rebuilt over the next 2 
years.
    Not only is there an indoor fixed VACIS unit, the only one 
of its kind on the U.S.-Canada border, but they just received 
delivery of another mobile VACIS unit, the entire 
infrastructure is going to be rebuilt. So that major ports of 
entry are getting the focus thanks to----
    Mr. Sweeney. On a scale of one to five, I see the light on, 
I have one more really important question in terms of need, 
five being high need and the need for restructure, one through 
five, very quickly?
    Mr. D'Ambrosio. At many of the locations the need is a 
four, that are commercial centers, where commerce comes through 
and trucks are processed. We would need to rebuild those 
facilities.
    Mr. Sweeney. And I thank you for that. And Agent Walker, 
let me just briefly say thank you for your testimony in 
particular as it relates to the risks at the St. Regis--that 
are presented at the St. Regis Mohawk Indian Reservation and 
our ability to develop a coordinated multi-jurisdictional 
enforcement effort. Not just in drug interdiction but in terms 
of immigration issues and potential threats on the terrorists 
side. I've spoken to a number of both FBI and other law 
enforcement sources in upstate New York and in the region, and 
there is a great deal of concern in terms of our ability to 
develop a program. Mr. D'Ambrosio, you've mentioned it I'm 
sure. And with my time having run out, I'd like to followup at 
some other point with a more specific question about that. But 
if there are any comments that you'd like to quickly make but 
my time has run out. With that I'll thank the chairman for 
extending my time.
    Mr. Camp. Thank you. I would like to recognize that the 
ranking member of the Infrastructure and Border Security 
Subcommittee Congresswoman Sanchez has now arrived and I'll 
give her a minute to absorb some of the testimony. Why don't I 
now ask Congressman Jackson Lee if she'd like to inquire?
    Ms. Jackson Lee. Thank you, Mr. Chairman. I'm delighted to 
also be able to welcome the ranking member of our subcommittee. 
She's traveled a long distance and I'm delighted that she's 
here. The testimony has been very instructive and I want to 
pursue some of the lines of legislative action that I've been 
involved in. Let me, Mr. D'Ambrosio, speak to the question of 
your RPMs and congratulate you, as I understand your testimony 
suggests, that you've done 100 percent on commercial vehicles, 
is that accurate?
    Mr. D'Ambrosio. That's correct, Congresswoman.
    Ms. Jackson Lee. And that the--any commercial vehicles, any 
types whether it's a truck or any other type of vehicle that's 
involved in commerce, is that correct?
    Mr. D'Ambrosio. That's correct, that comes across at the 
Peace Bridge or the Lewiston Bridge.
    Ms. Jackson Lee. In so doing, what are you able to tell us 
in terms of what you're finding? Have you been able to 
intercept and stop illegal activities or have you found 
smuggling of human beings, drugs, etc.? What have you been able 
to determine out of this?
    Mr. D'Ambrosio. With regard to the RPMs, which detects 
radiation, we have not in my area of responsibilities yet found 
anything that would be related to a weapon of mass destruction. 
With regard to the smuggling of aliens, the VACIS, which shows 
images of what is inside of it, there have been in my area of 
responsibility the detection of aliens in commercial 
conveyances, detection of narcotics. So that the two together, 
the radiation detectors and the VACIS, which will indicate 
anomalies which are not related to radiation, provide a far 
stronger line of defense than we had just a year ago.
    Ms. Jackson Lee. So you're better able now with the 
combined equipment to really target in on problems that we 
might be having with respect to smuggling across the border.
    Mr. D'Ambrosio. Absolutely, yes.
    Ms. Jackson Lee. And Mr. Moran, you're on the ground. Mr. 
Walker, your responsibility is with DEA and as a member of this 
committee, I thank you very much, all of you for your service 
and for your testimony. And Mr. Gugg, obviously coming from 
Texas the Coast Guard is very prominent and we thank you for 
acknowledging the folks in the south, but we are gratified of 
your presence and the work you're doing. But let me focus in on 
the smuggling of persons and would all of you just respond to 
drug contraband. Are we seeing a better solving of problems or 
intercepting of the smuggling of aliens, with respect to either 
the new resources or the new focus? Mr. Moran.
    Mr. Moran. First of all, the Buffalo Sector, thanks to 
Congress, doubled in size over the past year. Those agents on 
the ground have made a significant difference. We have twice as 
many people out there this year as we had last year, that has 
translated into interception of more smuggling loads. Coupled 
with the RVS system, a system that is just beginning to be put 
into place but already with results. For example, the first day 
at one of the sites we apprehended 50 pounds of hydroponic 
marijuana coming across. We have literally saved the life of a 
smuggler who dumped his raft in the middle of the Niagara 
River. Along with the Coast Guard, we went out and plucked him 
out of the cold waters of the Niagara River. We intercepted 
smuggling those coming across the river. So the combination of 
the personnel plus the technology is making a real difference 
up here along the Canadian border.
    Ms. Jackson Lee. And is there a major problem of smuggling 
aliens in this region?
    Mr. Moran. The numbers cannot compare to the southern 
border. It is more organized along the U.S.-Canadian border. 
And it tends to move around much like as it does in the 
southern border. We make an impact in an area in Buffalo and 
they'll move to Detroit or up into Vermont.
    Much like the southern border, the flow will move depending 
upon the threat that we pose to them. But we have noticed this 
fiscal year an increase in the smuggling of Costa Ricans. It's 
easier to get in to Canada. As a visitor, they come to Canada 
and then they get into the United States either through a port 
of entry hidden in a vehicle or in this area by raft, across 
the Niagara River. So we have seen an increase but nothing that 
compares with the numbers down south.
    Ms. Jackson Lee. And the culprits, perpetrators, are they--
how would I say it, truckers in the normal course of commerce 
just taking an opportunity for easy money or are these people 
who are long time perpetrators of this criminal activity? I'm 
trying to find out the profile of the individuals that may be 
doing this, helping to smuggle; meaning the truckers or the 
vehicle persons bringing them across.
    Mr. Moran. I think that they run the whole range from an 
individual walking into a Canadian tire store on the other side 
and buying a $25 raft in the middle of the winter and paddling 
across, to a highly organized alien smuggling operation from 
Chinese--or you name the nationality, there's probably an 
organization dedicated to smuggling them. Anything related to a 
higher level of the smuggling organizations I would defer those 
questions to ICE, Immigration and Customs Enforcement Branch of 
Homeland Security. They deal with the investigations of those 
higher level groups.
    Ms. Jackson Lee. Let me quickly move and just ask--you 
mentioned that you doubled in size. I've been working on since 
coming to Congress a number of years on the retention, 
training, compensation for Border Patrol Agents. Have we 
improved over the years or can we do more in professional 
development training in height of the added responsibilities 
that you have? Maybe Mr. D'Ambrosio and both of you would like 
to answer that.
    Mr. Moran. From the Border Patrol perspective the attrition 
that is a problem along the southern border is not really a 
problem along the northern border. We do not except trainee 
agents up here on the Canadian border. The agents apply for 
positions that exist up here, so they're coming up here 
willingly versus being assigned. They're seasoned journeymen 
officers who have been in the Border Patrol at least several 
years before they ever come to work.
    But the attrition is not the problem. I know the grade 
levels have been a problem for our agents. We have lost some to 
the Department of Transportation Security on the grade levels--
--
    Ms. Jackson Lee. So something along those lines to look at 
again would be helpful to you with respect to grade levels, 
compensation?
    Mr. Moran. That would be helpful.
    Ms. Jackson Lee. That would be helpful. What about 
professional development and training, enhanced training?
    Mr. Moran. The training we have is vigorous, both the 
academy training program. Some of that post September 11 was 
postponed as we were all forward deployed. And of course 
there's also now a merging of various branches within the 
Department of Homeland Security. I'm sure training functions 
will also be consolidated to give us more cross-training which 
will be needed.
    Ms. Jackson Lee. Mr. Walker, if you would, I'm curious and 
I would like to know about the St. Regis Mohawk Indian 
Reservation. Are you all handling that on your own or are you 
collaborating with other law enforcement agencies which might 
include the Border Patrol, on the work that you're doing on the 
reservation?
    Mr. Walker. We're working together with all the law 
enforcement agencies; principally the New York State Police. 
They're our primary partner on the reservation. They actually 
conduct law enforcement operations on the reservation. So the 
investigations we do conduct are principally with the New York 
State Police.
    Ms. Jackson Lee. And what would be the governmental entity 
to restore the police powers of the tribal police? You made a 
statement that you'd like to see the police powers of the 
tribal police restored. Who would make that decision?
    Mr. Walker. I'm not sure who would actually give them back 
the power to, I don't know if it's Congress but----
    Ms. Jackson Lee. But you're making the request?
    Mr. Walker. Yes.
    Ms. Jackson Lee. I think that we're somewhere involved and 
I just wanted to be clear that you're making the request and 
that would be helpful to your work?
    Mr. Walker. Yes. We'd have a point of contact. It's 
difficult to penetrate and infiltrate Indians, so we would need 
Indians to--New York State Police and DEA agents who are not 
Native American's, who are not familiar with the reservation, 
it's difficult for us to actually penetrate and conduct 
undercover operations.
    Ms. Jackson Lee. I certainly wouldn't want this hearing to 
suggest that we're targeting them, but what you're telling us 
is that area is a very vulnerable area?
    Mr. Walker. Yes, it is.
    Ms. Jackson Lee. And besides drug smuggling, other 
opportunities raise up because of the vulnerability of the 
area?
    Mr. Walker. Yes.
    Ms. Jackson Lee. I'll just finish on this note, if you 
gentlemen can respond to this. What are the, if you will, the 
processes that you put in place to ensure that as we secure 
this area, that we balance the concerns on civil liberties and 
prohibit or do not engage in what we have called racial 
profiling?
    Mr. Moran. It has never been the policy, Congresswoman, of 
racial profiling within the U.S. Border Patrol. Nothing really 
has changed post September 11. We're obviously at a heightened 
sense of awareness, out there looking for suspicious activity. 
We have noticed a substantial increase in citizens calling us, 
sometimes substantiated, sometimes not. But there has been very 
much an increase in citizen awareness of what is happening 
along the border, certainly along this border which is entirely 
different than the southern border where everybody knows where 
it is.
    Up here, most individuals we don't think of it or we never 
did. It's a border that is a hard fast impediment to travel. 
Since September 11 we are noticing a great deal of increased 
citizen involvement in reporting suspicious activity along the 
waterways.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Just a note that this comes obviously pursuant to the Arab 
community and so I just wanted to raise the question to be 
assured that you're aware of it and that the work that is being 
done is done to secure us but also recognize those 
sensitivities.
    Mr. Camp. Thank you. Congressman Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Let me begin, Mr. 
Walker, with you. I want to begin by thanking you for what I 
consider to be excellent testimony on the issue of the drugs 
that cross our border and the problems they cause. I have been 
with Congressman Souder up and down the Arizona-Mexico border, 
which is--my home State is Arizona and we've been to Nogales 
and to several other places along that border. Most recently we 
were at Sells, AZ which is on the Tohono O'odham Indian 
Reservation. And so I want to focus some of my questioning--and 
we were looking there at drug crossings and looking at 
important efforts--we looked at the efforts then of both 
Customs and Border Patrol and DEA, along with the efforts of 
the tribal authorities in that area.
    I want to focus a little bit on the Akwesasne St. Regis 
Mohawk Indian Reservation that you mentioned in your testimony. 
The first question I have is--and you just reiterated it, 
apparently here in New York State, law enforcement has 
jurisdiction on that Indian reservation?
    Mr. Walker. The New York State Police patrol--they're on 
the--that's the only law enforcement we work with primarily is 
the New York State Police.
    Mr. Shadegg. And they would have jurisdiction within the 
boundaries of the reservation?
    Mr. Walker. Yes.
    Mr. Shadegg. That makes it somewhat unique in that in 
Arizona at least that I know of where local law enforcement has 
no jurisdiction. One of the--some of the testimony we heard 
when we were in Sells, AZ on the Tohono O'odham and quite 
frankly this has now been picked up by the major newspapers in 
Arizona since then, is that the burden imposed upon the 
reservation itself, both on law enforcement agencies of the 
tribe trying to deal with drug interdiction and on 
environmental damage by crossers, has caused a huge financial 
burden for the reservation. Have you heard comments by this 
reservation by this indian tribe, with regard to the burden 
imposed upon them to control their--either for drugs or for 
other types of smuggling across the border?
    Mr. Walker. No, sir, I haven't, but we can get back to you 
on that.
    Mr. Shadegg. Mr. D'Ambrosio or Mr. Moran, do your agencies 
interdict drugs or interdict the flow of traffic of individuals 
that cross that indian reservation?
    Mr. D'Ambrosio. Congressman, the Office of Field Operations 
which I'm responsible, has authority only at the ports of 
entry. The Akwesasne Indian Reservation is between the port of 
Massena and Fort Covington. And that has been handled by a 
combination of what's now ICE and Border Patrol and State 
Police.
    Mr. Shadegg. Mr. Moran, do you have a comment?
    Mr. Moran. The Akwesasne Reservation is not in the Buffalo 
Sector's area, our area ends over by the Thousand Islands. So I 
would have to refer any questions specifically regarding the 
Akwesasne to the Swanton Sector of the Border Patrol.
    Mr. Shadegg. OK. Then, let me go back to you, Mr. Walker. I 
would appreciate very much if in addition to looking into the 
issue of the burden imposed on the reservation and the tribe 
itself, the other issue that came up with when we were in 
Sells, was the exploitation of tribal members by smugglers. The 
Tohono O'odham Reservation in southern Arizona on the border is 
vastly different than this. Mark and I were there, we flew over 
in a Custom's Black Hawk, there are places you can't tell where 
the border is because it's just raw desert and then three 
strands of barbed wire fence that was once there is gone.
    But one of the issues that we were made aware of is and it 
has been gotten more press attention is exploitation of local 
residents in these remote locations by smugglers; come in and 
simply bribe them to help get drugs or people across the 
border. So I would appreciate if you would look into that issue 
as well as and get back to me on that.
    Mr. Walker. We certainly will.
    Mr. Shadegg. You would have only drug authority with regard 
to traffic across the border and then I guess none of the 
gentlemen here have authority here for other types of smuggling 
across that border, including the smuggling of terrorists 
across the border inside the reservation, is that right?
    Mr. D'Ambrosio. Right.
    Mr. Shadegg. Let me turn then to Mr. D'Ambrosio and Mr. 
Moran. I think, Mr. Moran, it was in your testimony that--the 
reference to the Remote Video Surveillance System that you 
currently have in place, is that right?
    Mr. Moran. That's correct, Congressman.
    Mr. Shadegg. And you've had those up and running for now--
some of them for 2 years?
    Mr. Moran. A year.
    Mr. Shadegg. A year. Congressman Souder and I have been, as 
I said, on the Arizona-Mexico border. We are looking at various 
ways to patrol that border. Right now it's done by truck, it's 
done by ATVs, it's done by horseback, it's done by helicopter 
and it's done by these raised platforms, where people get up on 
the top of them and actually have a mechanical platform that 
goes up in the air and looks.
    Can you describe for me the Remote Video Surveillance 
System you have; what distance they have and how they perform 
and whether you're happy with them?
    Mr. Moran. The systems we have now are a combination of 
thermal imaging device and a high resolution color television 
camera. They can see as far as the human eye can see. As far as 
actual tactical use, it's several miles, sometimes even more. 
They're particularly useful in the water environment since the 
water environment has to be done visually, the seismic sensors 
and infrared sensors don't----
    Mr. Shadegg. Nothing interferes with line of sight, you 
don't have trees or gullies or----
    Mr. Moran. Yeah, trees do present a problem up here along 
the border. We have to be able to get up above the trees in 
order to see the water. And it is very heavily populated which 
also presents unique difficulties.
    Mr. Shadegg. Are they faced just looking in one direction 
down the border, period, or are they remotely controlled?
    Mr. Moran. They can be controlled. They have I believe 
about a 340 degree radius, depending upon the situation. We 
also have mobile systems very similar to those that are for 
thermal imaging devices as well as infrared that are mobile.
    Mr. Shadegg. And their night capability is equal to their 
day capabilities as a result of the infrared?
    Mr. Moran. Yes.
    Mr. Shadegg. Have you looked at--one of the things that 
we're looking at in the southern border of the United States is 
the issue of--the Arizona Delegation recently turned in a 
letter requesting that unmanned arial of vehicles be funded on 
the southern border as a way to try to give us a better view of 
that border, which is a very, very long and very, very 
unprotected border. Have you looked at that as a possibility?
    Mr. Moran. The Border Patrol just recently received a 
rotary ring aircraft which has been a great help. As far as 
utilities, UAVs in this area, I guess I'd have to refer to the 
FAA. We have Toronto with the airports just across the river 
and of course the Buffalo/Niagara Region. I think a UAV up in 
the skies certainly in the Buffalo area. The Niagara frontier 
might pose problems with other commercial and military aircraft 
out of the airbase here in Niagara Falls.
    Mr. Shadegg. Those issues have been raised in the southern 
border as well, although we probably don't have the same degree 
of air traffic with the Luke Air Force Bombing Range portion of 
the Arizona-Mexico border and there is an issue of the Air 
Force in using that. There is a proposal, I think Chairman 
Souder has been working on that's creating a corridor along the 
border where UAVs could be flown in there, flown at lower 
altitudes, perhaps if you all want to come down and take a look 
at them, they cost a lot less than rotary aircraft to operate.
    Let me ask both you and Mr. D'Ambrosio. There was testimony 
in your testimony about the coordination between your office 
and the Coast Guard and the fact that you now have radio 
frequencies that are the same. I guess having just heard Mr. 
D'Ambrosio refer to the fact that he has the ports and you have 
the rest of the border, I guess part of my question is how do 
you each feel about the degree of cooperation and 
interoperability that you have as we move forward into an 
integrated homeland security system and integrated border 
surveillance system?
    Mr. Moran. The ports and the Border Patrol have always had 
radio communication with each other. We have always worked very 
closely with the ports of entry. We respond to run throughs at 
the port of entry that we cover, we have a longstanding close 
working relationship.
    Mr. Shadegg. You were previously Border Patrol, correct?
    Mr. Moran. Still am.
    Mr. Shadegg. And Mr. D'Ambrosio, you're Customs?
    Mr. D'Ambrosio. Was Customs, now Customs and Border 
Protection, correct. I'd like to state that the Border Patrol 
has worked closely for years here at the U.S.-Canada border at 
the ports of entry. The only other law enforcement personnel is 
a Border Patrolman, so if there was a problem at the port of 
entry, the inspector is on the radio to the Border Patrol.
    Mr. Shadegg. Is there anything in Congress we can do in 
particular, with regard to the law--the new law, the Homeland 
Security Act and its merging of responsibilities or anything 
that we can do outside of the law, in terms of resources that 
would be of particular help to you in integrating that to a 
greater degree along with the Coast Guard?
    Mr. D'Ambrosio. At the moment I can't think of anything. I 
know that our radio contact has been on the front burner. In 
the northeast part of the State we have a little problem being 
worked on, not a resource problem, we just need to get a 
digital system in place. Offhand, I can't think of anything at 
the moment.
    Mr. Shadegg. Mr. Moran.
    Mr. Moran. I would agree with Mr. D'Ambrosio and I'm not 
aware of any problems in our resources.
    Mr. Shadegg. Thank you.
    Mr. Camp. Thank you very much. Congresswoman Sanchez, glad 
you're here, you may inquire.

STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Sanchez. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing today. Sorry I came in late, I 
actually came from the San Diego area, you can imagine it's 
probably the furthest point one would come from. I am from 
southern California and am very aware of the southern border 
that we have and some of the problems we're having there. And 
since I grew up along the border, I really have seen the 
changes going on and how it effects our commerce, etc. So I'm 
very interested to hear from you with respect to what's going 
on with our northern border.
    I guess the real question I asked myself when I take a look 
at what the Homeland Security Committee is trying to do, can 
the U.S. land borders really be secured to prevent infiltration 
of terrorists and instruments of terrorism; and that is the 
real question we have to ask ourselves. And my colleague from 
Arizona mentioned the Mexican-U.S. Border, which is under 2,000 
miles, whereas I look at the Canadian border with the United 
States and it's 5,500 miles.
    And, you know, when I look at the mission to monitor all of 
our borders in order to detect illegal intrusions and intercept 
and apprehend smuggled goods and people attempting to enter 
illegally, I think to myself managing the flow of people and 
goods to border check points is really only one aspect of what 
we're assigned to do now.
    I have several questions and forgive me, I also did not get 
to read your written testimony because unfortunately Fed-Ex had 
thunderstorms through Memphis on Friday and Saturday, I'm sure 
my package with your information will arrive at my home today. 
But I'm here, I think it's important to be here, so here are my 
questions. And since I didn't know who would address them, pick 
and choose as you see fit.
    What is the progress of implementation of the U.S.-Canadian 
Smart Border Declaration including the 30 points action plan? 
Is the Border Patrol properly equipped to accomplish this 
mission and can we improve in any way the State and Federal 
cooperation in these efforts? And last, because I get this 
asked all the time, I also sit on the Arm Services Committee, 
is there any role for the Department of Defense in border 
surveillance missions, is it a proper role--I'm not talking 
about the whole issue we have on the southern border where we 
have--I'm talking about the issue of border surveillance and 
how we take a look at terrorists or instruments of terror 
crossing our border?
    Mr. D'Ambrosio. Congresswoman, I guess I will go first and 
then pass it on to Mr. Gugg and Mr. Moran. With regard to the 
Smart Border, there are some aspects of it that apply to the 
ports of entry, I'll address those. We have implemented along 
the border--I'll focus just on my area of responsibilities 
which is New York State, a program called FAST. FAST is a way 
to identify low risk commercial transactions whereby the driver 
is cleared very thoroughly, background checked. The importer 
belongs to the Custom-Trade Partnership Against Terrorism. 
Again, enrollment is a commitment and specific commitment to 
making sure that supply chain is clean. He knows who his 
suppliers are, he knows all the routes of travel of his goods, 
and that the carrier is also on C-TPAT. It does the same thing 
that's been in effect now since early winter here at the Peace 
Bridge and at the Lewiston Bridge, it also is in effect at 
Detroit.
    What FAST will do is it will give us a high level of 
confidence that those transactions present a very low level of 
risk. On a sample basis we'll verify that the risk is low for 
the most part of those commercial transactions without the need 
for the usual thorough check that those receive.
    Ms. Sanchez. How many do you have signed up in this area?
    Mr. D'Ambrosio. Roughly 400. In addition to FAST, there's 
NEXUS. Now NEXUS is something equivalent which applies to 
privately owned vehicles and just pleasure travelers. We have a 
number of people--a few thousand that have signed up in this 
area, another few thousand--quite a few thousand in the Detroit 
Port Huron area. It will be expanding to Champlain, NY by mid 
summer so the major border crossings have Nexus in place.
    That's a system whereby people have their background 
thoroughly checked. They carry a card with them. If the 
inspector is able to verify based on the photo of the person 
that appears based on an electronic transmission of the data to 
a card, to the computer screen, the people in the car have 
indeed been cleared for NEXUS. So these systems are in place 
and they're being expanded. We see the fruits of the resources 
that you have devoted to these types of things occurring, so 
that we have a more secure border but don't slow down 
legitimate travelers. We're able to provide devoted lanes to 
these low risk transactions. This kind of traffic can flow 
across smoothly. Anyone who doesn't participate is probably 
going to spend some time at the border.
    Ms. Sanchez. I notice that not having the NEXUS card 
crossing the border Saturday night took me back 2\1/2\ hours 
versus probably 20 minutes.
    Mr. D'Ambrosio. I will pass it to Mr. Gugg.
    Mr. Gugg. Sure. The Coast Guard doesn't have a huge role in 
the border--we do have frequent persons in our area who carry 
NEXUS cards, and what might seem of a quick fix to your 
question, that card entitles the bearer only to cross, so you 
can't have additional persons on that vessel that is not 
necessarily cleared for that. That's all I have.
    Mr. Moran. Congresswoman, with regard to the equipment and 
resources, again, I don't know if you were here but the Buffalo 
Sector doubled in size over the past year. We're anticipating 
an additional number of resources, I don't know exactly how 
many. We are funded for an additional 14 RVS which will give us 
a good handle on the Niagara frontier, good visuals on the 
Niagara River.
    With regard to the State and local cooperation, it's been 
my been experience on the Canadian border since 1979, we have 
always worked very closely, not just with the State, the county 
and the municipal U.S. agents, but also with the Canadians. The 
list of traffic goes both ways. The criminals will go whichever 
way there's money, it's a two-way street. We're all working 
very closely. Of course we're trying to get even better at what 
we do but it's nothing new, since September 11 it's certainly 
ongoing. But since my time in 1979 it's been a daily function 
of law enforcement.
    Ms. Sanchez. So with respect to monitoring all illegal 
intrusions and intercepting and apprehending smuggled goods and 
people, are you telling me that you're properly equipped to 
accomplish that mission at this point?
    Mr. Moran. As far as intercepting all, I don't know if that 
would be a realistic goal in our country.
    Ms. Sanchez. That's in your statement, it says monitor all 
to detect illegal intrusions and apprehend people attempting 
to----
    Mr. Moran. The great challenge obviously would be to 
monitor all of the border, in-between the ports and that is a 
very large chore. Obviously that is a plausible goal and that 
is what we are working forward to achieve. The resources that 
you have given us are making an impact. As the resources come 
we will be able to make a greater impact along securing the 
border.
    Ms. Sanchez. Again, are you properly equipped at this 
point?
    Mr. Moran. At this point within the Buffalo Sector we do 
not have the resources to guarantee the entire 450 miles of 
water boundary.
    Ms. Sanchez. OK. Thank you. Back to the surveillance and 
the Department of Defense, do any of you have a comment with 
respect to that?
    Mr. Moran. The Border Patrol in the past has received some 
support mission from the Department of Defense, no surveillance 
missions. They have assisted us with intelligence analysts, 
radio technicians, that sort of thing. I do not see a need for 
militarization or active surveillance role for the military 
certainly in my area.
    Ms. Sanchez. Any of you other gentlemen have any comment to 
that question?
    Mr. Gugg. The Department of Defense technical support 
working group with regard to technologies is helping us 
evaluate the possible use of a portal rail detection at some of 
our check points for commercial vessels that pass. But again, 
that's limited to the technical support at this time.
    Ms. Sanchez. With respect to expertise you all carry, would 
you say there is no role with respect to border surveillance, 
you should be doing it or it's already being done; and there 
should be no role for the Department of Defense? I'm just 
asking because as a member of the Defense Committee, we get 
asked all the time to put our military forces on the border for 
different reasons; one being this whole issue of surveillance. 
Personally, I prefer not to.
    I'm just asking you as the experts who deal on a day-to-day 
basis, is a there a role for them or do you think the role 
falls under you and you have the resources and get the 
resources that you'd be able to do it?
    Mr. Moran. I continue to see a continued need for support. 
The military has equipment and expertise and expensive 
equipment that might not be cost effective for our Buffalo 
Sector to have this specialized equipment. I see a continued 
need for support operations, I do not see a need for law 
enforcement missions from the military.
    Ms. Sanchez. Any others?
    Mr. D'Ambrosio. Congresswoman, at the ports of entry I 
don't see a role for the military. I would say the ports of 
entry are adequately covered by the staff we have in place.
    Mr. Camp. Thank you very much. Before we go to Chairman 
Souder, you have two other questions----
    [Brief interruption.]
    Mr. Sweeney. This is borne out of questions asked by Mr. 
Shadegg and Ms. Sanchez, and I think it points out a level of 
concern that we have in terms of the interconnectability. And 
the question is to Mr. D'Ambrosio. You stated in your testimony 
that your responsibility entails providing leadership for the 
legacy agency for Customs, Immigration.
    For all ports of entry in the State of New York with the 
exception of New York City, all ports of entry being 
waterports, being--what is a port of entry?
    Mr. D'Ambrosio. There are specified ports of entry 
designated by Congress. And they're the ones--Buffalo, Niagara 
Falls, Alexandria Bay, but also includes Albany, Syracuse, 
Rochester. But specifically relative to the inland ports, it 
would be the airports. In Rochester, right now there's the 
airport, but within a year there is development of a fast ferry 
coming in from Toronto. So it's evolving. It depends on where 
the commerce and where the modes of transportation come in. So 
Rochester would become then a seaport.
    Mr. Shadegg. This is my question, Mr. Moran has indicated 
in a question by Mr. Shadegg that the Buffalo Sector is a 450 
mile stretch that does not include the St. Regis Reservation. 
Mr. Walker in his testimony said that therefore it is possible 
for an individual to legally enter the Canadian portion of the 
reservation and transit into the United States, without 
supervision.
    You don't have supervisory capacity, you don't have 
supervisory capacity. There is an entity that oversees as it 
relates to the transportation of illegal entries, beyond 
interdiction, drug interdiction. There isn't anybody here who 
has jurisdiction over that. And my suspicion is there isn't 
anybody here on the northern border in New York much less the 
northern border period, that has that kind of specific 
oversight.
    Is that your understanding as well? You have no authority 
by virtue of Act of Congress is what you're telling us today?
    Mr. D'Ambrosio. Over what, Congressman?
    Mr. Sweeney. Over the St. Regis Reservation.
    Mr. D'Ambrosio. That's correct.
    Mr. Sweeney. Because it's not designated specifically, you 
have no authority because it's another sector of the Border 
Patrol that has that authority?
    Mr. Moran. That's correct, Congressman.
    Mr. Sweeney. And there isn't any entity that you know of 
that has that kind of authority that connects you each up to 
the issues attendant to the transportation of illegal 
immigrants into the Nation through the reservation?
    Mr. D'Ambrosio. May I ask whether my colleague Mr. Peter 
Smith sitting in the back bench might have something to add to 
that? He's with the Bureau of Immigration and Customs 
Enforcement.
    Mr. Souder. Mr. Smith, do you have anything you want to 
add? Will you raise your right hand?
    [Witness sworn.]
    Mr. Souder. It's Peter Smith?
    Mr. Smith. Peter J. Smith.
    Mr. Souder. Thank you. State your rank.

STATEMENT OF PETER J. SMITH, SPECIAL AGENT IN CHARGE, BUREAU OF 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Smith. I'm Special Agent in Charge of the Bureau of 
Immigration and Customs Enforcement. Congressman, on that point 
there, what we do on the reservation, we work jointly. We've 
got 10 people, special agents assigned to the Massena office. 
We work closely and jointly with the DEA, the Border Patrol and 
the New York State Police to enforce the customs laws along the 
reservation. It is a very political issue. We safeguard the 
intelligence going back and forth and our enforcement actions 
that we do. But when we do them, we do them jointly and 
together.
    Mr. Sweeney. How great is your capacity? I don't want to 
belabor the point, we can do some followup on it. How 
successful and how much of a concern is the reservation and 
your capacity with those multi-agencies?
    Mr. Smith. The biggest concern that we've had in the last 
18 months has been the money going up to Canada, illegally 
through the reservation and the that's marijuana coming down 
through Canada through the reservation and getting into New 
York State.
    Mr. Sweeney. I thank you, Mr. Smith. Let me ask one 
question that's sort of connected with it, the FBI set up 56 
car terrorist task forces throughout the country, I believe 
there's one in western New York. Is that not true? It is true. 
Are any of you members of that task force or are all of you?
    Mr. Gugg. Yes.
    Mr. Sweeney. Coast Guard is. DEA?
    Mr. Walker. DEA is.
    Mr. D'Ambrosio. Office of Field Operations is not.
    Mr. Sweeney. Do you know if there is any reason for that, 
has that been explained?
    Mr. D'Ambrosio. Again, we're very operational, very port 
specific. And again, I would think that Mr. Smith, who is a 
member of that unit and we work closely with what is now 
called----
    Mr. Sweeney. So essentially there are two customs units?
    Mr. D'Ambrosio. Well, there were. Now they're two separate 
bureaus.
    Mr. Sweeney. All right. I will followup and I thank you.
    Mr. Moran. The Border Patrol also has a presence on that 
task force.
    Mr. Souder. Thank you. Congresswoman Slaughter?
    Ms. Slaughter. Thank you, Mr. Chairman. I'm going to be 
very brief. I was very impressed in your testimony. I thank you 
for being here. I learned a great deal this morning and feel 
somewhat better about what's going on at the borders. One 
question though that I need to ask you is the question of first 
responders. I know you mentioned that you work very well with 
county government and other governments. Do you--do any kinds 
of--what is the chain of command of how you would get ahold of 
the fire chief or the police department, is that considered to 
be a problem of the local government; or do you have any 
sharing of information at all with the people that have jobs on 
the ground of keeping us safe in our houses when the border is 
breached or when we have reason to believe something is going 
to happen within the border?
    Mr. Moran. Congresswoman, if I may, the Border Patrol is a 
mobile uniform force between the ports of entry. We're out 
patrolling the roads all the time. It frequently happens that 
we will come across an accident, a fire or something along 
those lines. We have direct communications with the State 
authorities. We just get on our car radios and advise the 
appropriate authorities as to what----
    Ms. Slaughter. But if you thought it was a breach of 
security or something has happened that you were to get the 
information, despite all your best efforts and everything you 
have, something was probably going to happen in Buffalo let's 
say, you would have the ability immediately or some way to 
contact the people that would be necessary on the ground to be 
able to help you deal with that, they're not left out of this 
are they?
    Mr. Gugg. I believe that would be best coordinated with the 
Joint Terrorist Task Force and the FBI, they practice this all 
the time and they have communication in place, it's a 24 hour 
watch.
    Ms. Slaughter. The FBI is not anywhere around the homeland 
security nor is the CIA, is that correct? So that means that 
what you do on the border itself and the coast, does not 
directly connect directly with the first responders?
    Mr. Moran. The Border Patrol does maintain a 24 hour a day, 
7 day a week, 365 day a year communication factor. We have 
direct communication link with the State of New York and with 
the counties. There is a New York State Counter Terrorist 
Network that we have access to, and it's both ways. They can 
also contact us directly and we can immediately get it down to 
our people on the ground. They would do the same through their 
network. But it would be the communications centers that jump 
from Federal to State and county, that's where we make the 
jump. We advise the State, the State goes to their people and 
it works in the opposite direction.
    Ms. Slaughter. Well, I certainly hope that communication is 
fast enough and adequate, so we can get the information to the 
people who are going to be responsible, riding in our 
neighborhoods. We're all very impressed here with what happened 
with the Lackawanna Six, the interdiction of those people and 
the prosecution which certainly was a combination of what was 
done by the local responders and the FBI, as I understand it.
    And so I wanted to be assured as I work with my 
constituents and the volunteer firemen who work hard, train so 
hard, the EMTs, that when something happens that's going to 
require their attention they are notified at once and 
considered to be partners in what you're doing.
    Mr. Camp. Thank you. And now I will recognize Chairman 
Souder. And again, I want to thank you for allowing us to have 
this joint hearing which really is an attempt to have the 
authorities as divided in Congress come together in a way that 
the statute requires. Chairman Souder.
    Mr. Souder. First, I'd just like to point out for the 
record that it's been really interesting because some people 
work the north border and some people have worked the south 
border and there are just dramatic differences. Have any of you 
served on the south border? Why don't you say, what's the 
biggest difference you see here from the south border?
    Mr. Moran. It's colder. [Laughter.]
    The volume. I was in a small station in Fort Hancock, TX, 
that little station apprehended about 10,000 people a year, 
there were 7 of us. So the volume down on the southern border 
is overwhelming. Up here I think you see more sophistication, 
it can be equally as dangerous to cross this border. Up here 
we've lost people attempting to cross the Niagara River. We've 
had in recent years a woman lose her leg riding a freight train 
across. So the dangers are there. Whether it's the southern 
border or northern border. But I say that the biggest single 
thing obviously is the numbers.
    Mr. Souder. I want to put a couple things in the record to 
illustrate the numbers point. While we were having a hearing in 
Sells, AZ, there were four busts during the hearing that 
totaled 1,500 pounds of marijuana. In El Paso a couple weeks 
ago, when we held the hearing there, they have no prison base 
to hold anyone under 100 pounds. That is dramatically 
different.
    Second, we held a hearing a few years ago where we heard 
from the DEA that when he was attempting to apprehend somebody, 
was shot at by the Mexican Police. And generally speaking on 
the north border the Canadian Mounties are not shooting at you. 
What we've had is the IBET teams, the CPATs, other things that 
you've talked about here, that is really a different type of 
border situation.
    In parts of the southern border we're starting to get that 
cooperation and that's where it works best then where we don't 
have as much cooperation. The number of illegal immigrants is 
substantially less coming across the north than the south. You 
could walk all day and probably not see anyone trying to cross 
illegally to the open eye. But every single crossing I've been 
in California in-between the crossings, and Arizona and Texas, 
you can see people preparing to move across the border.
    There's a substantially different type of challenge we have 
at the north border. But you also heard new things coming out 
of Congress, and the word is ``all'', which is kind of an 
unnerving word for the north border. It's unnerving in the 
north harbor where 16 members have said, can you assure that 
every package that's not contained to customs, does not contain 
any nuclear part; every package.
    All are probably achievable but are more than just a vague 
goal, we're moving very aggressively because the type of things 
that we're looking at now compared to immigration and drugs, 
are catastrophic. Therefore, the questions as the terrorists 
become more sophisticated and we have reason to believe based 
on the experience we're seeing, that the north border in fact 
is more vulnerable right now in the question of terrorism than 
the south border.
    So you're kind of seeing us in evolution just as your 
departments are in evolution, in trying to figure out 
resources, distribution and the demands on you are different. 
At the same time I want to ask a few questions in narcotics in 
particular because we're seeing some rising pressures on the 
north border. I have a couple questions I want to make sure we 
get in for the record.
    First, on the Century NEXUS, Mr. D'Ambrosio, in the year 
2000 the Department of Justice report said that there had been 
no time savings on NEXUS on the north border and that it had 
been minimal at best. On the south border we see dedicated 
lanes at San Isidro, at El Paso, at Lorigo and Magallan, but in 
the north is the primary reason that the studies have shown 
that it hasn't had a dramatic reduction. First off, has that 
changed in the last 2 years; and second, is it predominantly a 
problem of lanes on the bridges because of the water?
    Mr. D'Ambrosio. Mr. Chairman, my understanding of SENTRI 
which was a legacy immigration system was that there wasn't the 
level of participation in SENTRI since there was a charge for 
it. It was not as well used as NEXUS is becoming. NEXUS in an 
era of tighter security is viewed I believe by travelers is the 
way to get quickly across the border.
    Mr. Souder. That was pre September 11, the study was?
    Mr. D'Ambrosio. Right. I can say here in Buffalo where 
there's the Peace Bridge and it's only three lanes. People will 
get through the procedures more quickly with a NEXUS card once 
they get across the bridge, once they get into the area where 
they can open up into these various lanes. But getting across 
the bridge in the middle of summer at the peak of traffic is 
still gonna be----
    Mr. Souder. Which is a very critical point. That when we 
study time, we need to study the time that the Homeland 
Security is doing with their systems, not the wait time at the 
bridge because that's a separate question, if we don't have 
adequate bridges to cross. Because we control the number of 
ports of entry, so we can expand that. That's a huge problem in 
Windsor because even if we expand the ports of entry, they 
can't get more trucks across fast enough. So some of the 
studies will show there hasn't been a reduction in time, when 
in fact it's another problem, that is a infrastructure 
question.
    I was just talking with the MPs from New Brunswick and they 
have a 3-hour wait at the main border which is nothing compared 
to San Isidro, but it backs up because you don't have enough 
ports of entry and you don't have enough bridges and there's 
not much you can do about it. Could you give us, for the 
record, if you don't know it right now, what percentage of 
commercial trucks you anticipate will be enrolled in the 
system?
    Mr. D'Ambrosio. Commercial trucks enrolled in FAST?
    Mr. Souder. Yes.
    Mr. D'Ambrosio. The aim is to have at least 50 percent of 
the trucks enrolled in FAST.
    Mr. Souder. What is it currently?
    Mr. D'Ambrosio. Currently? I can get that information.
    Mr. Souder. Also, like a tracking of how you foresee that. 
That's for the whole Buffalo border?
    Mr. D'Ambrosio. Actually, it's for all commercial centers 
on the U.S.-Canada border.
    Mr. Souder. We'd like the data for your border.
    Mr. D'Ambrosio. OK.
    Mr. Souder. Can you explain the process the FBI, CIA, those 
intelligence agencies are not part of homeland security. How 
does that information, if you have somebody you've intercepted 
who is--you have questions about, let's say in-between the 
ports of entry, do you have--you have Top Security clearance. 
But is there a method and also at the ports of entry, are we 
proceeding to where that data even if you're an agent who is 
picking them up, does not have access to specific data, gets a 
pop-up or mark that this person is on a watch list? Do we have 
that sort of implement? Are you confident that if you intercept 
somebody in-between a crossing or at a port that the 
information we have elsewhere on our system that information 
will flag that individual?
    Mr. Moran. I could not speak to the specifics on what they 
would be inputting into our systems. We have a number of 
systems that we run every individual. But if we have any 
suspicion, Mr. Chairman, that's when we contact the Anti-
terrorism Task Force which has access to all terrorists related 
systems. If there's any doubt in our minds, we routinely 
contact them. If we're done with them for instance and ready to 
let them go, we contact them to make sure they might not have 
some interest before.
    Mr. Souder. That's any illegal that you might----
    Mr. D'Ambrosio. That would raise suspicions that they might 
possibility be involved or have any knowledge regarding, for 
instance, any terrorist activity would automatically be 
referred to the Anti-terrorism Task Force.
    Mr. Souder. How would you decide whether or not that person 
is suspicious and must be checked out?
    Mr. D'Ambrosio. It might be something they have--every 
individual we apprehend is already run through a number of 
ours, and of course now, the Customs data bases. So if they 
were interested in somebody, it would automatically flag up 
when we ran them through our system.
    Mr. Souder. So if someone has a passport from a nation that 
is a terrorist nation, would that be a flag?
    Mr. D'Ambrosio. I believe our current policy is if 
someone's from a nation that is seen as sponsoring terrorism, 
that is an automatic flag that a special interest alien would 
be run.
    Mr. Souder. Mr. Smith, could you address the intelligence 
question?
    Mr. Smith. Yes. Information that is provided by the JTTF 
would come in to the Bureau of Immigration Customs Enforcement 
through a special agent we have assigned to them. When we get 
that information, we put it into the tech system and it goes 
nation wide. When the people are stopped, the Bureau of 
Immigration Custom Enforcement will go out and interview these 
individuals and start the process of obtaining and gaining more 
intelligence.
    Mr. Souder. Thank you. I also wanted to ask Mr. Walker a 
few questions on the narcotics. You testified that you felt 
there was a stockpiling of heroin in Canada as well as in the 
United States, Asian heroin.
    Mr. Walker. Yes, we believe so.
    Mr. Souder. Large stockpiling, small, do some signs of 
these--I think at least your written testimony you said you 
believe that to some degree there's been a somewhat decline in 
the usages? In other words, there's an oversupply coming out of 
Southeast Asia essentially into the U.S. market as that 
Colombian in Mexico?
    Mr. Walker. We believe that the competition between 
Colombian heroin and Southeast Asian heroin is going to come 
back full circle. Southeast Asian heroin we're seeing more of 
it, our complex monitoring program we typically only confront 
Colombian heroin. But there's an ongoing investigation that 
just hit the news yesterday that talks about our successful 
efforts with China, Southeast Asian heroin has always been a 
problem. We believe organizations based in Canada have stock 
piled heroin and are bringing it across the border.
    Mr. Souder. On a couple of visits to Vancouver and also a 
hearing at the Blaine Border, what we heard was that the BC 
Buds, supposedly this high grade marijuana which literally 
sells for more than cocaine and heroin in my home town, and my 
understanding, New York City and Boston, that the heroin and 
cocaine or particularly cocaine are going north but there's a 
little bit, really Asian heroin was only in the northwest. Are 
you suggesting that some of that Asian heroin is now making its 
way across Canada and in the United States from Asia, coming 
down to this side as well?
    Mr. Walker. That is what our ongoing investigation and 
intelligence tells us, yes, sir.
    Mr. Souder. That--do you see an interconnection between 
those who are dealing with the hydroponic marijuana and the 
heroin, cocaine, are they swapping, is there money going back 
and forth between those groups or are they different 
distribution groups?
    Mr. Walker. I don't think so. Let me ask the Assistant 
Special Agent In Charge. No, we haven't.
    Mr. Souder. Now, my staff just told me that yesterday 
Customs informed them that hydroponic marijuana seizures were 
up 100 percent this year?
    Mr. Walker. Yes.
    Mr. Souder. Are those--is much of that coming through 
Buffalo/Niagara?
    Mr. Walker. Yes. We seen an increase in Buffalo but as we 
were talking earlier, we don't know if that's a combination of 
increased assets on the border. We believe that the threat has 
always been there. We're getting more of it because we have 
more resources.
    Mr. Souder. Could you do in the Customs at the ports of 
entry, I believe at Niagara was one of the places where you 
were doing back checking, going back into Canada. What are you 
finding from either Canadians who visit the United States, U.S. 
citizens or others, what are they taking back to Canada and has 
that program of interception found much?
    Mr. D'Ambrosio. That's what we call the out bound program 
which has found quite a few hundred thousand dollars in 
undeclared currency. Peter Smith could probably speak to this 
as far as investigations are concerned but really it's 
narcotics. Also interestingly we have found marijuana going to 
Canada, inexplicable, buyers would be going to Canada from the 
United States and coming in from Canada from the United States.
    Mr. Souder. Colombian-Mexican marijuana?
    Mr. D'Ambrosio. I don't know what kind.
    Mr. Walker. I don't know.
    Mr. Souder. Do you know, Mr. Smith?
    Mr. Smith. Yes, sir, it's Mexican.
    Mr. Souder. So while in the west and in the Vermont, NY, 
Champlain corridor clearly that is coming down from Quebec, 
Canadian marijuana. The west is Vancouver, B.C., but in the 
middle we may be having less traffickers going up reverse 
direction. Let me--would you see that increasing if they change 
the laws on marijuana?
    Mr. Walker. It definitely would reduce risk by 50 percent. 
The risk would only be on one side of the border.
    Mr. Souder. Let me ask a couple other questions. Are you 
still doing the out bound program?
    Mr. D'Ambrosio. Mr. Chairman, it's what we would call a 
program that we do when we have the opportunity. We have to 
judge whether it's going to cause excessive backups into 
neighborhoods, especially in the Buffalo area. We had been 
doing it after September 11th 24 hours a day, 7 days a week. We 
received a number of complaints that this was backing traffic 
up going into Canada. And we since refined it so that we will 
confine these operations at different times of the day 
unpredictability, in order to intercept mainly the currency 
exiting the country.
    Mr. Souder. I would strongly suggest anybody who's even 
been at San Isidro and seen all the watchers on the border, 
that if the standard is when there's backups you don't check, 
that's when the high risk will move. That's the challenge we've 
got with the whole thing. Congresswoman Sanchez.
    Ms. Sanchez. Mr. Chairman, with all due respect, I just 
wanted to not leave for the record an impression that I think 
that you left. And that is--and especially as the only Mexican-
American here at this hearing, anecdotal situations shouldn't 
be implied with respect to a larger universe. I think it's not 
right for us to leave on the record that in some way or another 
that Mexican law enforcement is not working or is working 
against us.
    I personally have a cousin who is very higher up in anti-
narcotics, contra-narcotics in Mexico who has been shot 14 
times at the border working with our American law enforcement 
who stop drug trafficking and others. So I think it's wrong to 
leave the impression in the record and also to the members here 
in the audience, that somehow or another something that may 
have happened at a hearing or during a hearing that you were 
having is sort of an implication that our Mexican counterparts 
are not working hard on this whole issue of drug and migration 
flow.
    Mr. Souder. If I in any way implied that even a majority of 
law enforcement officers on the south border weren't committed, 
because the fact is there is greater danger, it's more complex. 
However, we do have more problems in some of the provinces and 
in fact, those like your relative who have tried to stand up 
have frequently been threatened. And I believe the current 
administration in Mexico, we have some areas there where now 
for the first time we're getting good cooperation but that 
doesn't mean individuals aren't constantly being threatened. 
The drug czars from Mexico were leasing an apartment that was 
controlled by the cartel. On the other hand there were other 
drug czars there whose lives were constantly threatened and it 
is more of a different challenge.
    Ms. Sanchez. It is challenging but I would remind the 
chairman that in any group there are bad apples and I'm sure we 
could find them on the Canadian side and we could also find 
them in law enforcement in our own agencies in the United 
States. So just not to leave the impression for that comment. 
Thank you.
    Mr. Camp. Thank you. I want to thank the panel very much 
for their services and their testimony this morning. Thank you 
very much.
    Mr. Camp. I think we'll move to panel two. We have two 
members of Parliament, the Canadian House of Commons. The 
Honorable Derek Lee and the Honorable John Maloney.
    Mr. Souder. I thank both of you for joining us here. We 
know you've both been very active for a number of years with 
the parliamentary group. Thank you for your testimony. Mr. John 
Maloney is from right across from Buffalo and I know it's very 
appreciated by his American colleagues for this work on the 
border issues and I look forward to hearing your testimony.

   STATEMENT OF JOHN MALONEY, MEMBER OF PARLIAMENT, HOUSE OF 
                        COMMONS, CANADA

    Mr. Maloney. Thank you, Chairman Souder, Chairman Camp, 
Members of the Congress. I much appreciate the opportunity to 
come and discuss the issues we have before us. In the interest 
of time I'll move very quickly to a quick overview of some of 
the measures Canada put in place since September 11th.
    Following the terrorist attacks our government quickly 
established an ad hoc committee of our executives on public 
security and anti-terrorism to address the immediate and the 
long term challenges. Since then the government has made 
significant involvement in the public safety envelope. And in 
our budget for 2001 shortly after September 11 there's 
investment of $7.7 billion over 5 years to help keep Canada 
safe, terrorists out and our borders open; sometimes a 
difficult task.
    For example, There is RCMP, Royal Canadian Mounted Police 
which is our national police service and that was given $576 
million over 5 years, for use of new technology, new members 
and work on national security. Our Canadian Security 
Intelligence Service was given $334 million for security 
training, approaches to new technology equipment and 
information systems, as well as additional personnel.
    We passed an Anti-terrorism Act in 2001 to strengthen our 
ability to investigate, prosecute and prevent terrorist 
activity. We instituted a mechanism of listing of terrorists 
entities as identified by the U.N. Security Council and we have 
roughly 360 entities listed. We also listed entities under our 
criminal code. And once listed, an entity's assets are frozen 
and can be subject to seizure and forfeiture and there are 
penalties for dealing with them by otherwise up to 10 years in 
prison.
    We're coordinating our law enforcement--we've heard this 
morning our Canadian border and ports of sea, IBITS, they're 
joint Canada and U.S. multi-agency enforcement teams which in 
this area have been working very well for cross border 
terrorism and criminal activities as well. Currently there are 
22 teams in 11 geographic areas. And perhaps I can give you 
some figures on the Massena area, Congressman Souder mentioned 
at the Mexican border.
    In 1 year period from November 2001 to December 2002 they 
intercepted 1,171 pounds of marijuana. Doesn't sound much 
compared. They intercepted $1,900 and $59,480 in U.S. currency. 
42,896 cartons of cigarettes; 28 pounds of magic mushrooms; 
215.5 kilograms of hashish. As well as minor smuggling decline 
from 2001 to 32 cases in 2002.
    So our Integrated Security Enforcement Team established in 
Vancouver, Montreal and Ottawa, they are 200 investigative 
personnel who exclusively investigate terrorist threats. We 
have a memorandum cooperation with the United States in 
exchange of fingerprint records between the RCMP and the FBI. 
We have organization policy called Integrated Ballistics 
Identification Systems. Began collecting data on guns, we have 
a big problem with guns coming into Canada from the United 
States.
    We have joint counter terrorism training. We just completed 
one in May of this year called Exercised Top Off. We're 
involved with the American authorities as well. We designated 
$600 million for border infrastructure improvements at our 
borders and we anticipate an announcement in the Niagara region 
within a few days. This initiative is to expedite the transfer 
of goods and services across the border, as well as security 
measures. Mr. Mayer will appear before you next time and he 
will probably have more details to share with you on that with 
much more authority.
    We have improved security to our ports. In January of this 
year the government announced $172 million on new marine 
security programs, which is the RCMP and the Canadian police 
like $20 million over 5 years to increase our surveillance and 
tracking of marine traffic, screening of passengers and crew 
and the detection of criminal imports containers for radiation.
    The solicit general and our national defense began a 5-year 
chemical biological, radiological, nuclear research and 
technology initiatives. There are a total currently of 41 
projects ongoing and more projects are forthcoming. The RCMP 
instituted an Internet program, a national Web enforcement 
support team. We heard at great length the benefits of NEXUS 
and FAST. I won't go into that. On the Canadian side we have a 
VACIS portable unit which rotates between the Peace Bridge and 
Buffalo and the Lewiston Bridge. There is a second unit that 
has been ordered and is on its way.
    The Canadian Food Inspection Agency under Agriculture 
Canada has been given $36.2 million over the 5-years for 
increased biosecurity measures at border entry ports. Increase 
in detection measures, increase in science laboratories and 
once again additional 260 member staff.
    We think there's a fine cooperation in the Niagara Region 
between our respective agencies. Just a short example, when you 
went to Alert Orange there, at the request of U.S. authorities 
we also began--actually inspections from Canada to assist. And 
certainly these inspections certainly backed up the traffic 
going in the United States significantly and we're happy to do 
that for you, but we don't look forward to the next Alert 
Orange, that's for sure.
    Louise Slaughter, your comment on the recreational boating, 
at any given time on a hot summer weekend there's going to be 
5,000 recreational boats in Lake Erie, Basin and Niagara River 
and Lake Ontario Region, which is a significant problem.
    Ms. Slaughter. You can walk on.
    Mr. Maloney. Exactly, walking on water would be an 
appropriate expression. Gentlemen, I think that's just a quick 
overview. I'd be happy to entertain any questions you might 
have with myself or Mr. Lee.
    Mr. Souder. Thank you.
    We're also joined by Mr. Derek Lee, one of the Toronto 
writings, whose also been very active in the one initiative and 
many other issues on the border.

STATEMENT OF DEREK LEE, MEMBER OF PARLIAMENT, HOUSE OF COMMONS, 
                             CANADA

    Mr. Lee. Thank you, Chairman Souder and Committee Chairs 
and members. Thank you for this opportunity. I most recently 
was a member of the House Special Committee on the nonmedical 
use of drugs. I currently also Chair the House Subcommittee on 
National Security. We have had a number of descriptions of the 
border here. I want to urge upon you a view of the border as 
not being the Canadian border or the U.S. border or the Mexican 
border, I think what we have between Canada and the United 
States is something rather unique, special unlike anything else 
in the world; both in terms of scope and complexity.
    If one were to stop you as two--two-way border line, that 
is a Canadian two-way border and American two-way border, and 
view it as an organism, it is of that size and scope now that I 
think it's much easier to look at it that way, that border has 
to be managed, jointly managed to the benefit of both 
countries. And we in Canada certainly since September 11 come 
to the conclusion whether we want to be there or not with this 
conclusion, is that the joint management of that organism 
requires us to put just as much effort into making that 
organism work as the American's do.
    While we may put different amounts of money in it, our 
countries are much different in size, we've got to work just as 
hard. And I think some of the evidence earlier today reflects 
all of the multi-level efforts, in fact we haven't even 
mentioned them all here, but that are going on daily 24 hours a 
day across our joint border.
    The major focus of course is always the economy, the 
economy of both countries is heavily linked. Eighty percent of 
Canadian trade goes into the United States about 23 percent of 
American trade goes into Canada, 35 U.S. States record Canada 
as their best or biggest customer. That has huge implications.
    I suppose I'm preaching to the converted here, this is 
simply a fact of life. On the drug issue, that is the main 
reason my colleagues have urged me to be here today and I guess 
why you invited me. Of course I don't speak for Canada, just as 
you don't speak for the United States, I'll try to explain 
where we've come from on the Canadian side.
    The policy debate on marijuana in Canada goes back to 1970, 
33 years ago when a Royal Commission on the subject urged a 
distinct regime be established within the whole umbrella of 
drug policies for marijuana and it essentially sat around for 
some 30 years. In May 2001, the House created the Special 
Committee which I sat on to deal with the nonmedical use of 
drugs, that's all the drugs, all illicit drugs. And in doing 
our work, of course, we were introduced to the utter 
unresolvable complexities of the drug issue, the drug problem, 
the drug challenge.
    And we were determined to cause our government to 
revitalize our own Canada drug strategy. We've suggested a 
slightly different name, a lot more resources and some 
adjustments here and there. And of the 50 plus recommendations 
we've made, 2--only 2 dealt with marijuana. The principal one 
reads the committee recommends that the possession of cannabis 
continue to be illegal and that trafficking in any amount of 
cannabis remain a crime.
    With that recommendation I believe the government has 
accepted. However, we have--we have reports of impending 
Canadian legislation. And that legislation, as I understand it, 
I haven't seen it but I understand that it will move the 
possession of small amounts of marijuana from the current Food 
and Drug Act and Criminal Code, into the Contraventions Act and 
marijuana convictions will be proceeded with on a ticketing 
type basis; procedural ticketing.
    And that procedure as we understand from our research 
exists in 12 U.S. States. So if that were a huge problem here 
in the U.S.A. I'm sure the Federal Government with its very 
firm line and messaging, the drug issue would have moved to 
deal with it. And maybe the U.S. Federal Government will move 
to deal with it.
    But at this point in time, based on the hard work of my 
colleagues on the Special Committee and I believe the 
government is there now, for many reasons that we don't have to 
go into today because you may end up getting it in your own 
countries as well. Possession of small amounts of marijuana and 
only that, would be prosecuted by way of the ticketing regime, 
if I could call it that way. I suppose if the person doesn't 
pay their fine they're going to go to jail but procedurally it 
will be done on that summary basis.
    In the end, our mutual drug enforcement efforts go on. 
There isn't a chance in hell that the Royal Canadian Mounted 
Police would fail to execute on the reliable information of the 
source and existence of illegal drugs in Canada including 
marijuana. The fact, is as Congressman Souder has pointed out, 
we--both our countries are shipping--people in both our 
countries, let's put it that way, are shipping drugs across the 
border; it's organized crime.
    And both sides of the border want to do what they can to 
squeeze it, to pinch it and to eradicate it. That's what 
Americans call the War On Drugs, that's what the Canadians call 
the National Drug Strategy. We're both moving in the same 
direction I hope. And I hope that the press reports of 
legalization won't be taken too seriously. We intend to 
increase penalties, as I understand it, for certain types of 
trafficking and the marijuana growers, which are hydroponic. I 
believe we're going to create a new offense. So let's see what 
happens, that legislation should be added into the House soon.
    The most important part of why I really wanted to be here 
today was to participate in an exercise that reflects the 
sharing of information across the border. Fairly certain that 
80 to 90 percent of all the issues and problems our two 
countries deal with, from time to time, are manageable, simply 
by talking and listening and sharing in the evolution of the 
solution.
    So I'm delighted to have a chance to be a part of this 
exercise and I congratulate your House for allowing this to 
happen. And I hope that our House can do the same on an as 
needed basis, from time to time. Thank you.
    Mr. Souder. Before I give the mic back to Chairman Camp, I 
want to just say that I think that this is very important as 
you deal with homeland security or subcommittees to involve 
both the representatives of Canada and Mexico in particular in 
the discussions, because it is so important in our trade and 
commerce and immigration questions clearly while we talk about 
illegal immigrants. The United States could not operate and 
we'd have to figure out how to get a reasonable water strategy 
that still protects us from illegal narcotics and terrorism.
    I also want to say for the record that I don't agree with 
Mr. Lee's description of their proposal. But I felt it was 
important that we had on the record here what their position is 
because this is gonna be one of the most hotly debated things 
if this goes through on the border, parliamentary discussions 
it was clear that the Canadians even in the different parties 
are arguing among themselves. It's not clear that this 
legislation is gonna move forth and maybe introduce, not move 
through.
    We've talked about technical changes, we've been debating 
on CBC, TV, radio, but it is a process for us to work through. 
Their committee, in the House and the Senate both came down to 
our Congress to meet with the different leaders. And if we're 
going to effectively work as both a North American zone with 
our neighboring nations, we have to be very particular in the 
Homeland Security Border Subgroup of how to work these things 
through.
    And what I found a lot of times is when the different 
groups come to Washington, nobody really wants to meet with 
them as much. And today's interest in this hearing is really 
important because having a number of members who are willing to 
do this on a regular basis, is going to make it a lot more 
effective. Because if we can get harmonization and understand 
each other at the border, we don't cripple the commerce. I have 
had more than my share of time to cross discuss with both of 
these gentlemen and both of them are big advocates of trade and 
in trying to work together and I appreciate the leadership.
    Mr. Camp. Thank you. Thank you both for testifying and for 
being here and taking the time out of your every day to do 
that. I would just associate myself with Chairman Souder's 
remarks on the issue. I think when we look at harmonization, I 
think it does have implications for how we work together to 
protect this border. And there's been some very good projects, 
I think the reverse inspections, customs inspections, obviously 
the Smart Border Initiative and I think it's really the 
direction that everyone needs to be going.
    I would just say in my State of Michigan, I don't know if 
we're on your list of 12 States but really it's cities, there 
are cities in the United States that have done that. And so I 
would just be cautious of that, that there are some city 
jurisdictions that have made that distinction, maybe not the 
entire State.
    Just tell me how you think the--I guess I'll start with Mr. 
Maloney, how you think this sort of joint management of the 
border is going and what do you think we can do to make it work 
better?
    Mr. Maloney. I think it's going very well. We talked a 
little bit here early this morning about the possibility of an 
international zone. I think the integration of our respective 
agencies would certainly work much better if that was 
established, with U.S. personnel being able to work in Canada 
and perhaps vice versa, even at the administrative level, as 
far as the operations.
    Currently the toll collectors on the American side, we have 
much more room on the Canadian side, which if they were brought 
to Canada it would free up more land which would double the 
truck capacity on the American side going into the United 
States. And these are the type of--just increasing and 
augmenting the joint interactions going on now is the most 
important. The IBIT program is an ideal example on how it can 
work.
    Mr. Camp. Mr. Lee, your comments on that?
    Mr. Lee. I think to be successful with these two countries 
we've got to look--although there is certainly immediate 
concerns, real existing threats that have to be dealt with, 
we've got to deal with those. But to be successful in the long 
run, I think we've to try to get outside the box a little bit 
and look down the road 5 or 10 years or even longer, because 
whatever is there now is going to get bigger.
    The infrastructure, it's not going to shrink. It's just 
going to get bigger. And Congressman Souder told a story about 
the experiment in Sweet Grass Montana and they're building a 
one unit to deal with the border. It sounds pretty good until 
they had to design in the washrooms and they realized that if 
they put the washrooms on the Canadian side of the border, then 
the American's who were carrying firearms wouldn't be able to 
wash without leaving their guns behind, simply because Canada 
had a regime of firearm control.
    So it sounds silly but it's an example of how the 
administration when they go up to do this work, half the work 
is on the law on the regulations that exist. They're not 
permitted to go outside the box. So who is going to think 
outside box to get us there? Well, it's partly the legislators 
and the policymakers. And that's a conceptual answer but there 
are smart people on both sides of the border and pretty good 
resources and I know we're going to revolve in the right 
direction. In fact, I think this organism of the border is so 
big it's bigger than all of us and it's going to drag us along 
into the future one way or the other.
    Mr. Camp. Tell me what you think about the automated entry 
and exiting system that have been proposed, what are your 
thoughts of that?
    Mr. Maloney. The difficulty as I see it is the traffic 
density. It's just gonna not only clog the border, it will 
strangle the border. That's the difference that we've got. 
Certainly we have the need to have--know where people are going 
and perhaps where they're coming, but just the reliability of 
it, it certainly won't wash.
    The NEXUS program is where you've been preapproved, low 
risk people, they go through the criminality checks, security 
checks on both sides of the border, that is certainly the way 
we should be going. But I have real difficulties with the 
automated system, just the time alone it's going to be tough.
    Mr. Camp. OK. Any comment on that?
    Mr. Lee. Just that any pinch point that malfunctions or 
even a badly placed stop sign or the system breaks like 
involving a broken water main in Windsor, Ontario, any 
infrastructure pinch point is going to have economic 
implications. So it needs constant thought, reworking and 
that's going on now. But it's just going to take a lot of work 
to get it right and think how we do things now.
    Mr. Camp. Thank you.
    Ms. Sanchez. Thank you, Mr. Chairman. I've just kind of 
been chuckling over here when I hear about your fears of 
commerce being slighted because of long waits at the border. 
You should come and see our borders at California, New Mexico.
    Mr. Souder. Could you give an idea of the waits in 
California and what they're looking at here?
    Ms. Sanchez. As I said, Saturday night I was crossing, 
Sunday night--Saturday, I can't remember, this is any time. It 
used to be you could call ahead or if you had plans, they could 
go check the border for you and tell when you could cross 
within 20 minutes. Currently, at any given time the wait is at 
least an hour and a half. When I crossed over on Saturday it 
was 2\1/2\ hours, that's without the pre-checking out and 
everything. If you're in the special line to cross, it usually 
will take you about half an hour to 40 minutes, so we have a 
lot of commerce that goes across.
    You might have two or three booths open, we have 24 open 
across San Isidro and you're talking about an hour and a half, 
2\1/2\, 3 hour waits. And this has been going on for a while. 
So what would be the times that you all are looking at right 
now and what's your fear?
    Mr. Lee. I think the broken water main was what, 6 hours?
    Ms. Slaughter. 7\1/2\.
    Mr. Lee. 7\1/2\ hour delay, but that was a 1-day wonder. It 
was a bad day. We couldn't carry on. All of these huge 
businesses, what do we do $1.2 , $1.4 billion across the border 
every day.
    Ms. Sanchez. We do more on the southern border by the way, 
that's nothing. That's nothing. I'll get you the number but 
it's nothing, that's like a drop in the bucket.
    Mr. Lee. I'm going to beg to differ. I am told that the 
$1.2, $1.4 billion a day is the largest trade relationship in 
the world. It doesn't exist anywhere else. Not to underestimate 
your favorite border crossing the U.S.-Mexico.
    Ms. Sanchez. It's not my favorite anymore by the way.
    Mr. Souder. There's more total sales product value in the 
north, more trucks in the south and far more people in the 
south. And so both borders--but the important thing to note 
from our perspective because what she's describing in 
California, is also true with the Texas crossings. When you all 
raised the infrastructure questions and then we raised--look, 
I'm on the north side. But the fact is that they're yelling at 
the south border for more lanes because the length of time 
every day and in the middle of the night is longer.
    Mr. Maloney. Mr. Chairman, we have delays of that length as 
well; 2, 2\1/2\ hours. They're put on the radio for truck 
traffic, what the wait is at the Lewiston Bridge, what the wait 
is at the Peace Bridge. The inter traffic is somewhat laxed 
generally but sometimes you get caught in the line up of trucks 
with the infrastructure and you're caught there as well. The 
length of time in delivery is a real key item here, we have 
here the Tonawanda Plant, places where motor vehicles have to 
be in Toronto the next day.
    Horticulture is a big industry here in the Niagara 
peninsula. Flowers are picked and put into transport freight 
and sent to New York City. If there's a significant delay at 
the border that impairs their product. Also we're concerned 
about your border as well because a lot of your product comes 
up to us too. So it's not as if we're in isolation. We have the 
same problems as you. Our infrastructure is not quite as large 
as yours having that many booths but we still have the same 
problems.
    Ms. Sanchez. Yes. That was a quote for just a regular type 
of tourist type of crossing the border. Trucks are an even 
bigger problem, the commerce that goes across, we're all 
concerned about the commerce that's why I bring it up. Let me 
just--I have really have no questions other than to say that I 
believe and I don't really know this because I don't do drugs, 
so I don't really check the State law quite frankly, but I do 
believe that California is one of those places that allows an 
ounce or less of personal possession and you get the equivalent 
of a misdemeanor or ticket written, to which you have to pay a 
fine and go to court or what have you, or actually I think send 
in your money and it doesn't matter. So that's the law of the 
land in California, I believe.
    And we also of course have passed by popular initiative 
medicinal marijuana which at the State level we are more happy 
than not to have that in place. The Federal Government is a 
different situation and continues to test the waters and shut 
down what we have with respect to medicinal marijuana. But 
you're probably talking to the only member here who represents 
a constituency that's way far ahead on this whole issue.
    And I'll just end by saying my district is a very 
Republican and Libertarian district, the area that I represent. 
And I almost lost one time to a Republican who his whole 
platform was to advocate that we make drugs legal basically, so 
California is significantly ahead on the whole marijuana issue 
at least. Thank you.
    Mr. Souder. Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman.
    Mr. Maloney, welcome, thank you very much for your 
testimony. I found it of great importance and great interest. 
As you probably heard earlier in the testimony, I'm from the 
eastern end of this State and have a lot of concern and 
interest in the development of the Champlain border crossing. I 
will note that of the top 10 lane crossings in this nation, 3 
of those top 10 are in this sector; from Champlain down to 
Alexandria Bay to the Niagara frontier. Also, I was able to a 
year ago secure $2 million in study money that we're working 
with your colleagues from Ontario in developing the New York to 
Montreal corridor and how we could make that more efficient.
    So the Champlain border and the border crossing issues have 
been issues for years that we've been concerned with. I'd be 
interested in hearing some general comments from you on the 
distinctions between the challenges over at Champlain versus 
what we face here on the Niagara side. And in particular, do it 
to make the point that the NEXUS system which is something I 
think is gonna be of great benefit toward further enhancing the 
relationship of that living organism that is the border on the 
list of Champlain and has been for some time. What's your 
thoughts on that notion and idea and how important that border 
crossing is as well.
    Mr. Maloney. Currently the NEXUS program and even the FAST 
program, it hasn't been going as quickly as we anticipated but 
it is coming. There has been natural reasons, people have been 
reluctant to cross our borders. As I understand it the facts 
that I'm aware of approximately 15,000 applied in the FAST 
program, 5,000 under the NEXUS program. But I can see this is 
the system or the solution all the way along our border, from 
the maritime zone to the west coast. I think that's the way to 
go.
    You know, I spoke with a young woman in the grocery store 2 
weeks ago and she had applied for a NEXUS card at the end of 
February and still hadn't been called in for an interview so 
there are logistical problems----
    Mr. Sweeney. Safe to say we need to expedite all those 
systems?
    Mr. Maloney. Well, I think we're doing that. In this area 
all the inspections have been done on the American side and now 
they're starting to come to the Canadian side as well.
    Mr. Sweeney. Sure. Mr. Lee.
    Mr. Lee. I'm very confident that where the two countries 
are working on the particular project together, there will be 
success. And some of the factors are the political support for 
that and I'm very pleased to hear of your support and new 
investments in that. But whether the political push for it 
advances this concept or advances in time, in other words, 
hurry up political push, both will help with those projects. 
The getting out in front, getting outside the box. Pushing the 
administration to advance in concepts so that it will serve the 
needs for the years to come.
    And to be bold in doing that. Because there seems to be a 
lot of--the resistance on both sides of the border at one time 
based on sense of sovereignty, sense of ownership of the 
border, this is our border; that has receded. Even though you 
think it might go up because of marijuana on our side of the 
border, Canadian's side of the border, Canadians have a lot 
more tolerance for the joint management concept. They would not 
be as sensitive to an American role in managing their border. 
They see it now as something we've got to do together.
    Mr. Sweeney. Mr. Lee, I couldn't agree more. I think we're 
in an interesting time ironically. On one end we need the 
security required, different commitments and attention, and 
then the recognition that in terms of the economy. And frankly, 
in an effort to not let the terrorists win the fight, we need 
to continue to go forward in those areas.
    Let me--I was going to get to some specific question, you 
in particular as chairman of the Intelligence Committee in 
Parliament could answer. Let me just ask you a very broad 
question about what changes occurred in Canada, subsequent to 
the attacks of September 11th, in intelligence gathering and in 
terms of the priorities that you had to establish in order to 
meet a burgeoning threat that wasn't just the main land the 
United States but the entire continent. And maybe you can give 
me some sense of the mood at Parliament and the commitment or 
not of your colleagues.
    Mr. Lee. On a general level, the whole House of Commons and 
Senate pretty much across the board bought into the challenge 
which seemed to be an American challenge. September 11 was an 
American event but there were many other people around the 
world involved, many other victims. So Canadians had no doubt 
that they were going to be involved in whatever evolved out of 
September 11.
    As you know, all of your intelligence services had all the 
infrastructure pre-September 11. It was all out there. Maybe it 
wasn't as tight as it could have been, maybe there were visions 
that should have happened earlier that weren't. But without 
trying to figure out exactly what happened, post September 11, 
there has been a significant tightening up in Canada and 
additional resources--the counter terrorism Branch Sesus will 
have more weight, more resources, more infrastructure added 
into it and we've made multi-million dollar investments. Mr. 
Maloney has described it briefly.
    So we have resourced significantly, both Sesus and the 
Royal Canadian Mounted Police to deal with the counter 
terrorist initiative. Even though we don't feel Canada is a 
target, we could be in Canada. But we feel like we're part of 
the program with our American neighbors, we have no choice but 
to be very involved in that.
    Mr. Sweeney. If I could just interrupt. Is that because you 
haven't felt as though there has been a direct attack on the 
persons of Canada and the property of Canada, or is that based 
on some other valuation?
    Mr. Lee. Do we see the terrorist threat out there on 
Canadian soil, yes, we gather intelligence and we'd like to 
think we're on top of the potential threats. But I don't think 
in Canada we've ever experienced anything as ugly and 
conspiratorial as the Al-Queda threat. This is outside the 
envelope. So now we're reconstructing, as you are in the U.S.A. 
To deal with this ugly conspiratorial threat that's come right 
to your homeland.
    I mean, it came right here, we can't be isolated from that. 
We trade data with your guys, if we can put it that way and 
with other intelligence agencies around the world ensuring that 
and dog everything to ensure that.
    Mr. Maloney. I mentioned the Anti-terrorism Act and shortly 
after the incident and there are a lot of people who were 
concerned about civil rights, charter rights, very concerned 
about the new restrictions and investigative power. Fortunately 
as time passes, we see these have not been abused, but even the 
suggestion initially that some of those terrorists might have 
come from Canada, that was a very sensitive issue in Canada. We 
were glad that the 19 in fact did not come from Canada, and 
we're very aware of that as well. The Phantom Five that we're 
also alleged to becoming to do dirty deeds in the United States 
from Canada, they didn't exist.
    We're very sensitive to those. And we feel that we're just 
as much a North American continent, we're as vulnerable as you 
are. We certainly have supported you in Afghanistan, and we 
could be targets too. Eighty-five percent of our trade goes 
across these bridges, in Detroit, the Niagara area. If you 
knock those out, it will knock our economy out. But we're in 
this together for the long haul and I think that's the way most 
Canadians feel.
    Mr. Sweeney. While the linkages are real, as a New Yorker 
and a Member, I thank you for your testimony and I hope and 
believe that we will continue to work as cooperative as we can.
    Mr. Souder. Because we're in a deep time bind on what we've 
worked out here, as Congressman Shadegg has one more question, 
Congresswoman Slaughter has a brief comment, Congresswoman 
Jackson Lee has agreed to yield her time to be the first 
questioner on the next panel, because we want to make sure 
before many of the Members have to leave that we can hear the 
testimony. Mr. Shadegg.
    Mr. Shadegg. Mr. Chairman, I'll try to work this into a 
single statement and question and just request that you look 
into this issue and perhaps get back to us, it may be of help 
and assistance. Canada like America is an open and free 
society. You have an interest in acquiring immigrant workers. I 
have been provided some information that says that 95 percent 
of foreigners claiming refugee status are immediately allowed 
to settle in Canada even though upwards of half of them have no 
identification.
    The statistics I've been given suggest that Canada accepted 
15,000 refugees since September 11th, this is from Joe Bassett. 
Of those 15,000, some 2,500 came from terrorist countries; 
Algeria, Pakistan and Afghanistan. I also understand according 
to this information that Deputy Prime Minister John Manley says 
Canada's current domestic security priority or current domestic 
security policy is under review. Are you aware of that view and 
are you watching it and working with--that once into Canada, 
access in the United States is much greater and probably vice 
versa? Are you A, aware of the review and B, looking at it in a 
cooperative sense with the United States? And if you don't want 
to answer that at this point, we'd be happy to take an answer--
--
    Mr. Lee. I'm a politician, I'm happy to answer your 
question. The answer is, yes, we're working on this and 
including the particulars you mentioned. I was asked by an 
American media program a half a year or year ago, about all 
these refugees that Canada has that aren't documented. My reply 
was you know where half our refugees come from, do you know 
Congressman?
    Mr. Shadegg. I don't know that I do.
    Mr. Lee. The United States. So, I mean, to complain that 
all of these refugees in Canada are undocumented when they're 
coming across the border from United States to Canada, please 
try to understand where they enter. And in addition to that, we 
have signed an agreement, a Safe Third-Country Agreement with 
the U.S.A. And we are waiting in the utmost good faith for the 
United States to develop some regulations and we're hoping 
they'll be there. The Safe Third-Country Agreement will 
actually allow those good refugees in the United States to be 
processed in the United States as opposed to Canada, then you 
won't have to worry about them.
    But your point is well taken. Our efforts to better 
document and assure the integrity in terms of a terrorist 
threat of everybody who's coming into Canada, including those 
post abroad, interdict abroad. In jointly with the Americans we 
do this. That's in process and we're getting better at it 
everyday.
    Mr. Shadegg. I appreciate that very much.
    Mr. Maloney. Actually, the Niagara region is the largest 
land border crossing for refugees coming into Canada, coming 
obviously from the United States, coming up from Central 
America or from New York and up through Buffalo. We're 
certainly looking at that again and more resources, again off-
shore applications and a prompter review of refugee 
applications is the way you should go.
    It's also a concern as we've seen with the SARS situation. 
We have a proposal in Fort Erie where it's a one stop shop, 
when they come across they have their interviews done, have 
their physicals done. So if tuberculosis, they know it right 
away, whether we have a problem health wise with these people 
coming into the country too which is another area of security, 
health security.
    Mr. Shadegg. Thank you very much.
    Mr. Souder. Congresswoman Jackson Lee from Immigration 
prompted an additional question from her because this is her 
major area of focus.
    Ms. Jackson Lee. The Congressman from Arizona just probed 
an area and I will be brief and I have acknowledged to the 
chairman that I will lose my front position on the next panel. 
But it's so urgent that I wanted to make sure I asked.
    It's an interesting question that most of the refugees come 
from the United States. Can you tell me whether or not you've 
changed requirements for the admission of individuals from the 
Caribbean to Canada since September 11 and why and--how can we 
since we have this mutual challenge with respect to refugees 
and also the undocumented, how can we collaborate; United 
States and Americans on ensuring that one, we balance the 
theory that I've utilized that immigration does not equate to 
terrorism and that both foundations I think have benefited from 
immigrants but yet we have a new responsibility since September 
11?
    Mr. Lee. We have a new Immigration Act in force in Canada 
but that would not materially impact on the immigration coming 
from the Caribbean.
    Ms. Jackson Lee. You ask them for different documentation?
    Mr. Lee. You might be referring to is--well, all of our 
immigrants are screened, all of our legal immigration is 
screened and security cleared and this is not the problem area. 
It's the visitors, the visitors that come without visas.
    What has happened since September 11 is that we kind of 
regretted that we had to do it, but we've now imposed a cross 
Caribbean visa requirement; to come from the Caribbean you've 
got to get a visa. And before that there was some Caribbean 
countries, like I think it's Grenada, where you didn't need a 
visa to make a visit to Canada; it was being abused a little 
bit here and there--not just by Grenadians.
    So, we have paper secured the movement of the visitors from 
the Caribbean to Canada now and that's working its way through 
the system.
    Ms. Jackson Lee. And is there any ways of collaboration--so 
that's only for the non-immigrant visitor that's coming in 
that's not coming to stay, but they're visiting?
    Mr. Lee. Well, in order to get to Canada from the Caribbean 
you got to fly--or you don't have to, you could take a long 
boat. But now we are now sharing our passenger--airline 
passenger lists. And the extent to which we share, I'm not an 
expert on, but it's caused some concern for Canadians, the 
extent to which airline passengers lists are now being shared. 
But we've had to do it to fly planes around North America. So 
there is one vehicle to deal with security issues if the need 
arises and it's probably happening now.
    Ms. Jackson Lee. On the Caribbean--and this is my last 
question--on the Caribbean did you hold hearings or what was 
the basis of changing your policy?
    Mr. Lee. Unfortunately it just happened very quickly. I 
believe it was a collaboration between Canada and United States 
and both countries, whereas Canada felt that it simply had no 
choice but to impose the visa requirement. And politically I 
represent eighty percent immigrant, it's a huge percentage and 
I've taken some heat for that, administered the imposition of 
the visa requirement. It was not done with huge consultation. 
But our diplomats, our immigration people were aware of this. 
The problem that we were encountering, the risks that were 
there, and I believe we felt that was the only solution to 
reduce the risk in the light of September 11 and the airline 
industry risks.
    Ms. Jackson Lee. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I appreciate your testimony and the 
work of both of you. The third panel could come forward so we 
can get you sworn in and started.
    [Witnesses sworn.]
    Mr. Souder. Let the record show all witnesses respond in 
the affirmative. I think what we'll do is start with Mr. 
Beilein.

    STATEMENT OF THOMAS A. BEILEIN, SHERIFF, NIAGARA COUNTY 
                      SHERIFF'S DEPARTMENT

    Mr. Beilein. Chairman Souder, Chairman Camp, distinguished 
members of the subcommittee. I am Thomas Beilein, the sheriff 
of the county of Niagara, NY. I am a law enforcement 
professional with 34 years of experience responsible for 
keeping the peace and protecting the citizens of Niagara 
County. It is certainly my honor to be asked to testify here 
today and I thank you for your privilege.
    What is unique about Niagara County is that we share an 
international border with Canada; to our west and to our north. 
From the cataracts above Niagara Falls to our eastern border 
with Orleans County, there are approximately 40 miles of 
international border. There are three international points of 
entry into Niagara County; two of them are in the city of 
Niagara Falls and one is in the Town of Lewiston.
    In the year 2002, approximately 4\1/2\ million vehicles 
crossed from Canada to the United States using these points of 
entry. It is common knowledge there are no jurisdictional 
constraints on crime and criminals. Because our unique location 
and because of the amount of traffic that flows to and from 
Canada, law enforcement has always maintained a good working 
relationship with both our Federal agencies and our law 
enforcement counterparts in Canada.
    This relationship includes drug investigations, criminal 
investigations, intelligence sharing, along with search and 
rescue recovery operations in the Niagara River and Lake 
Ontario. President Kennedy once said, ``Geography has made us 
neighbors, history has made us friends, economics has made us 
partners and necessity has made us allies.''
    Local law enforcement has an outstanding list of 
accomplishments when working in unison with Canadian law 
enforcement. We also can point to a similar list of 
accomplishments when working with our own Federal agencies. 
Although communication with our Canadian counterparts is an 
ongoing process, on several occasions we have taken our 
relationship to a higher level. I would like to document a 
couple of those occasions.
    On the Green Ribbon Task Force between May 1987 and 
December 1992, this multi-jurisdictional Task Force was 
responsible for the investigation and prosecution in Canada of 
Paul Bernardo and Tammy Homolka, serial rapists, who were 
convicted of sexually assaulting 18 women and killing 3 others. 
Paul Bernardo had visited Niagara County several times during 
that period. Working with Canadian authorities we tracked his 
whereabouts when he was here, we assisted in providing 
documentation of those visits and determined that he had not 
committed a crime in the United States.
    Operation Ovech, during the later half of 1997 and 1998 we 
had investigators from the Royal Canadian Mounted Police, 
Niagara Regional Police, London Police Services, Ontario 
Provincial Police, Customs Canada, United States Customs, 
United States Drug Enforcement Administration, along with our 
Sheriff's Office, conducted an investigation into cross-border 
trafficking in Ecstasy.
    In July 1998, this investigation culminated with the arrest 
of 12 individuals for violation of the Controlled Drugs and 
Substance Act in Canada and two individuals in the United 
States. During this investigation 29 ounces of cocaine were 
purchased, weapons were seized, along with vehicles and 
assortment of stolen property.
    Working together with our own Federal agencies has been a 
positive experience. I have officers currently assigned with 
the Joint Terrorism Task Force in Buffalo, the Drug Enforcement 
Regional Task Force, the Bureau of Alcohol and Firearms 
Regional Task Force, both of those agencies also have quarters 
in Buffalo, NY. All three of these Task Forces can list major 
accomplishments.
    Three of these accomplishments, you mentioned three, would 
be the Al-Queda Sleeper Cell located in Lackawanna, NY; where 
six members of the Lackawanna Community were arrested for 
attending terrorists camps in Afghanistan. I believe as of this 
morning's news all six had agreed to plead guilty to some 
charges.
    The investigation into a laborers local organization crime 
investigation conducted with the FBI and U.S. Attorney's 
Office, along with the Niagara Falls Police Department. A major 
investigation with the Drug Enforcement Administration, 
Operation Deja Vu, which was an investigation which 
investigated the illegal importation of cocaine starting in 
Colombia and ending in western New York and southern Ontario.
    It is necessary to emphasize to this committee that every 
successful joint investigation needs three key ingredients. We 
need a pool of skillful, experienced and dedicated officers. We 
also need highly skilled leadership capable of managing those 
investigations. And third, the financial resources that only 
the Federal Government can provide.
    Despite the successes and effectiveness of these Task 
Forces and despite cooperation with Canadian and U.S. law 
enforcement, there still exists major concerns regarding the 
security of our border. There are numerous inlets and coves 
along the southern shore of Lake Ontario that have a history of 
being popular with smugglers. Inlets that sport such names as 
Keg Creek, earned those names during the prohibition when 
alcohol was commonly smuggled into the country. The fact is 
that from the Toronto Harbor in downtown Toronto to any number 
of inlets and harbors in Niagara County, it is only a 30 minute 
boat ride. A ride across the vast waterway that is only 
sporadically patrolled. From the Queenston Ontario docks just 
north of the Lewiston-Queenston Bridge the Lewiston sand docks 
is a short paddle in a rubber raft.
    Within the past 3 months this vulnerability of this area 
has been documented by two incidents. A 7-year-old Canadian boy 
rode his bike to the Whirlpool Bridge, threw his sister's bike 
over the bridge and into the gorge and walked into the United 
States unconfronted. Local law enforcement questioned him when 
he appeared not to belong in the area and determined that he 
had left his home in Niagara Falls, Ontario for an afternoon 
adventure.
    On March 31st, six people who tried to enter the United 
States after crossing the Niagara River were apprehended while 
calling a cab. They actually landed approximately 1:30 a.m., 
and weren't detected until 3 a.m., while walking down Main 
Street in Lewiston, NY. All six were determined to be illegal 
aliens who entered across the Niagara River.
    Both of these cases demonstrate how vulnerable our border 
security in Niagara County is. It also shows the difficulty in 
securing our borders and protecting our citizens. We need to 
prevent terrorists from entering through a border that can be 
entered by a determined 7 year-old. Local law enforcement is 
ready and willing to assist in those efforts, however, we need 
your help in gaining additional resources in order to 
accomplish this.
    Mr. Chairman, I applaud this committee for the work you 
have donein addressing the issues facing our borders. Not 
withstanding this past week's terrorists events, a recent 
United Nations report indicated a drastic decrease in terrorist 
incidents in this past year. This reflects your dedication and 
the ongoing efforts that face us. Working together I feel we 
can ensure the security of those who we are sworn to protect. 
Thank you.
    Mr. Souder. Thank you very much.
    Mr. Deveso, is that correct? Deveso, I apologize, thank you 
very much for your testimony.

    STATEMENT OF RUSSELL DEVESO, CHAIRMAN, NYS MOTOR TRUCK 
    ASSOCIATION, INC., GENERAL MANAGER, G.W. BURNETT, INC., 
                          BUFFALO, NY

    Mr. Deveso. Thank you. The New York State Motor Truck 
Association is the voice of the trucking industry in New York 
State. On behalf of the Motor Truck membership and the 
industry, I would like to thank Chairman Camp, Chairman Souder 
and the congressional committee for the opportunity to speak on 
the issue of improving security and facilitating commerce at 
the northern border.
    Every State has a State trucking association affiliated 
with the American Trucking Associations [ATA]. At the State 
level, members are encouraged to join and follow association-
endorsed programs. By reaching out to nonmembers, membership 
growth is promoted and so are the programs and educational 
opportunities. Throughout the year, we keep the entire industry 
informed of changes, not only in the regulatory arena but also 
in safety, maintenance, technology and operations. We 
accomplish this through mass mailings, Web site news, blast 
fax, seminars and outreach programs.
    The Federal Motor Carrier Safety Administration regulates 
and the Motor Truck Industry implements areas of employment 
screening which is a vital part of the process of recruiting 
and hiring new truck drivers. The industry utilizes automated 
services that provide a full range of employment screening of 
motor vehicle reports, criminal history checks, consumer credit 
reports, commercial drivers licenses, a drug and alcohol 
screening and hazardous material hauling certification.
    But the industry does not simply comply with regulations. 
In the War on Terrorism it has voluntarily stepped forward to 
assist in this worthwhile and vital effort. Three million truck 
drivers eyes will act as the eyes and ears for our nation. 
Under the ``Highway Watch Program,'' professional truck drivers 
are trained to spot and report any suspicious activity that 
might have terrorism or national security implications. Their 
goal, to make certain a truck is never used as a weapon.
    The FAST Program--Free and Secure Trade--is a bilateral 
initiative between United States and Canada, designed to ensure 
security and safety while enhancing the economic prosperity of 
both countries. The New York State Motor Truck Association is 
happy to offer any expertise or insight we have to assure that 
FAST exceeds expectations.
    When all processes are implemented, the missing puzzle 
piece is the vital and overwhelming call for improvements to 
perfected infrastructure. This must include dedicated and 
adequate truck lanes and booths, increased customs and 
inspection personnel, and enough room to handle future volumes 
of commercial traffic. Even a small child would have to pass 
through a guarded turnstile.
    The mission of the New York State Motor Truck Association 
is to serve and represent the interests of the trucking 
industry; to enhance the industry's image; efficiency, 
productivity and competitiveness; promote highway safety, 
provide educational programs and work for a healthy business 
environment. And we thank you for this opportunity.
    Mr. Souder. Thank you very much.
    We'll now hear from Mr. Kevin Feely, the Chapter Director 
of the National Treasury Employees Union.

  STATEMENT OF KEVIN FEELY, PRESIDENT, CHAPTER 154, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Feely. Thank you. Chairman Souder, Chairman Camp, 
Ranking Member Sanchez, distinguished committee members, thank 
you for the opportunity to provide testimony about northern 
border security and the Port of Buffalo/Niagara Falls, NY. I am 
proud to be one of the over 12,000 Customs employees who along 
with Immigration and Naturalization Service, Border Patrol, and 
APHIS inspectors were merged to form the Bureau of Customs and 
Border Protection, within the Border and Transportation 
Security Directorate of the Department of Homeland Security on 
March 1, 2003.
    Customs personnel make up the first line of defense against 
terrorism, illegal immigration and the influx of drugs and 
contraband at 317 ports of entry across the United States. The 
scope of the task is enormous. Nationwide in fiscal year 2002 
nearly 415 million travelers, including 118 million cars and 
trucks and over $1 trillion worth of commercial merchandise 
were processed entering the United States. This number 
continues to grow annually and statistics show that over the 
last decade, trade has increased by 135 percent.
    During my 29 years as a Customs Inspector I have personally 
witnessed the exponential growth of border traffic. When I 
first started there was only one truck lane at the Peace Bridge 
with no waiting. Now, there are four lanes and trucks often 
line the entire span of the bridge even backing up on to the 
highway approaches. In 1976 when I was first assigned here to 
the Rainbow Bridge in Niagara Falls, in the dead of winter you 
could hear the water rushing over the falls because that was 
the only activity around. Scenic tourism was the only 
attraction.
    Now there are casinos on both sides of the border. In terms 
of traffic, in fiscal year 2002, four bridges entering the 
United States in the Port of Buffalo/Niagara Falls, more than 7 
million passenger vehicles and over 1 million commercial trucks 
were processed. The United States has 5,525 miles of border 
with Canada, nearly three times as long as the U.S. border with 
Mexico.
    As the traffic has increased, I watched the staffing in my 
port first decrease and then stagnate as it did across all of 
the northern border. Increased resources were concentrated on 
the southern border where the threat was perceived to be 
higher. Then just prior to the Millennium Celebration, Customs 
Inspector Diana Dean in Port Angeles, WA thwarted a terrorist 
attack planned for New Years Day 2000 at the Los Angeles 
International Airport.
    For the first time, security at the northern border was 
tightened and many inspectors were temporarily transferred from 
other parts of the country since the staffing numbers along the 
northern border were inadequate. Once the Millennium 
Celebrations had passed with no actual terrorist attacks having 
occurred our staffing levels returned to normal.
    Then, on September 11, 2001, our complacency was shattered. 
Since then, more attention has finally been focused on the 
northern border and it is my hope that Congress will continue 
to increase funding for personnel and resources at my port, as 
well as not only our northern border ports, but all ports of 
entry. In addition to annual appropriations, Customs also 
receives funds from a user fee account known as the COBRA 
account. This user fee account funds all inspector's and canine 
enforcement officers' overtime pay, as well as approximately 
1,200 Customs positions across the country. The COBRA account 
is funded with user fees collected from air and sea passengers, 
commercial vehicles, commercial vessels and rail cars entering 
the United States.
    The COBRA fund will expire on September 30, 2003, unless it 
is reauthorized by Congress before then. Currently, there is 
provision incentive bill No. 1054, Jobs and Growth Tax Relief 
Reconciliation Act of 2003 that reauthorizes COBRA until 
September 30, 2013. However, there is no COBRA reauthorization 
provision in the House passed tax bill. The COBRA fund must be 
reauthorized or Congress must appropriate additional funds to 
make up for the loss of the user fees.
    As a representative of the front line Customs employees of 
the National Treasury Employees Union, Chapter 154, I have 
serious concerns regarding our transition into the Department 
of Homeland Security. As a result of the Homeland Security Act 
of 2002, the administration was given new Federal personnel 
flexibilities in a number of areas governing the current rights 
of Federal employees. While it was unclear exactly what is 
meant by flexibilities, the members I represent fear that the 
flexibilities that will likely be proposed by the 
administration will lead to many fewer dedicated personnel 
being willing to work for the new department. That would be a 
shame and I hope Congress will not let that happen.
    I'd ask the members of this committee to use the oversight 
authority given to you to ensure that Title 5 rights and 
benefits that currently available to the employees who have 
been merged into this new department are not lost. In addition, 
for 27 years as an officer of NTEU I have lobbied Congress in 
an attempt to gain law enforcement officer status for Customs 
Inspectors and Canine Enforcement Officers. We must carry a 
weapon and at least three times a year qualify and maintain 
proficiency on a firearm range. We also have the authority to 
arrest and detain those engaged in smuggling drugs and 
violating other civil and criminal laws. In addition, 
nationwide fiscal year 2002, Customs personnel seized more than 
165 pounds of cocaine, 1.2 million pounds of marijuana and over 
4,000 pounds of heroin.
    Unfortunately, we are still not considered law enforcement 
officers like our Customs and Border Protection counterparts in 
the Border Patrol. We have long performed law enforcement 
duties and we deserve the recognition and benefits that come 
with law enforcement officer status. We face real dangers on a 
daily basis and granting us law enforcement officer status 
would be an appropriate and long overdue step in recognizing 
and retaining the Customs and Border Protection personnel who 
continue to protect our borders from terrorism, drugs, 
contraband and illegal immigration.
    I understand the House Government Reform Committee will be 
holding a hearing on this issue in the near future. I hope that 
you will attend that hearing and support law enforcement 
officer status for Customs officers. I also hope the members of 
this committee will go back to Washington and tell your 
colleagues and the administration, what you have seen here and 
how important additional funding is for Customs and Border 
Protection personnel in New York and around the country.
    In closing, thank you for the opportunity to comment on 
these very important issues, as I submit this testimony on 
behalf of all my colleagues in the Bureau of Customs and Border 
Protection, especially the employees here at the Port of 
Buffalo/Niagara Falls, NY.
    Mr. Souder. Thank you very much.
    Ms. Hamilton.

  STATEMENT OF DAWN HAMILTON, DIRECTOR OF STRATEGIC PLANNING, 
                              WNED

    Ms. Hamilton. Chairman Souder, Chairman Camp and 
Distinguished Members of Congress, thank you for the 
opportunity to testify today. I'm Dawn Hamilton, Director of 
Strategic Planning for WNED, Western New York Public 
Broadcasting Association. It is clear one of the greater 
challenges in our homeland security is to improve the speed, 
the flexibility and coordination of information sharing among 
local, State agencies, Federal Government and first responders.
    Public television will soon offer a wireless broadband 
distribution and networking solution that can transmit 
information instantaneously to one individual or an unlimited 
number of agencies and responders. For all public television 
stations, digital broadcasting is mandated by the FCC. And as 
of Saturday night, WNED is transmitting a digital signal.
    With digital television we can transmit data as 
information. We can bring pictures, sound, text and graphics 
into bits of information using a digital signal and it can be 
transmitted securely and instantaneously. Here's an example of 
how it could work. A Federal agency needs to communicate 
information immediately about a bio-hazard. That information is 
transmitted by a satellite to a secure server at WNED. The 
information is encrypted and transmitted as data through 
digital broadcasting. But only people with PCs and laptops with 
a special TV tuner card programmed to receive and encrypt this 
information will actually receive the data. The same 
distribution system can work for local law agencies as well. 
And the software has been developed so that it would 
automatically activate the data access system without any 
direct action or intervention by WNED.
    The organization which is distributing the information, 
whether it be Federal, State or local agencies, would have 
complete control over who receives what information and when. 
Most emergency responders and government agencies involved in 
disaster preparedness already have PCs and laptops. All that 
would be needed would be a tuner card that looks like this, the 
cost is $300, and an antenna; a silver sensor that looks like 
this which costs about $30 at Radio Shack. Unfortunately, they 
were sold out in the Buffalo area this weekend.
    If you have a roof top antenna, that would serve the same 
purpose. Public television is only a distribution mechanism. We 
would have no knowledge, no control or access to any sensitive 
data that might be transmitted. The border is also not a 
barrier for digital broadcasting. WNED's digital signal now 
serves most of Western New York; the entire Niagara peninsula 
of Ontario and well beyond the Toronto Metropolitan area.
    We can transmit vital information to agencies and first 
responders on both sides of the border easily and seamlessly. 
Next. If there was a bio-hazard situation in our region it 
would be very important to get projections about contamination 
fallouts to first responders. The scenario that's depicted here 
shows a wind shift about 1 hour after contamination that 
clearly impacts the best evacuation routes outside of a 
contamination area.
    This will be vital information for law enforcement 
officials to act as quickly as possible. Firefighters on the 
scene would like information details, the procedures to 
effectively respond with bio-hazards, bxlueprints for 
buildings. And local hospitals could be sent information on 
treatment for incoming casualties and appropriate 
decontamination procedures. Regional broadcasting can 
communicate this information and much more, instantly and 
effectively.
    In conclusion, WNED in the Buffalo/Niagara region and 
public broadcasting across the continent can provide for the 
timely transmission, security, congestion free access, 
addressibility and scaleability that is cost effective. Public 
broadcasting, we consider ourselves the community connection. 
And we would welcome the opportunity to help you connect with 
the great people who protect, who respond, who treat and who 
lead the way in times of crisis. Thank you for your kind 
attention and your thoughtful consideration, and I'd be glad to 
answer any questions you may have.
    Mr. Souder. Thank you. I understand that you've got a back 
pain, if you want to go back over and sit in the other----
    Ms. Hamilton. Thank you.
    Mr. Souder. Mr. Mayer.

STATEMENT OF STEPHEN MAYER, GENERAL MANAGER/OPERATIONS, BUFFALO 
              & FORT ERIE PUBLIC BRIDGE AUTHORITY

    Mr. Mayer. Chairman Souder and Chairman Camp, thank you 
very much, and members of the committee.
    I'm going to speak to you today as a crossing operator and 
if it's OK with you, I will not go through my testimony, you 
have it in the record. So I would like to just focus on some of 
the highlights and talk to you about the need for specialty 
crossing operators, mainly because we breathe, work the border 
and eat and sleep the border, if you will, every single day. 
You'll also find that we are probably the most significant 
partners in both fostering security and trade that you will 
find.
    I want to just as a background let you know that we view 
security as----
    Mr. Souder. Mr. Mayer, could you just--I know this is still 
confusing to me from time to time, but explain how you're 
different from Customs and Border Patrol. A lot of times people 
think you're all the same unit.
    Mr. Mayer. Sure. And I'm--very quickly.
    First of all, the crossing operators, we're a unique 
creation, the bridge tunnel operators which I'm also the 
president, there are nine crossings; eight bridge authorities 
and one tunnel operation. We are all different. Some of us are 
compact organizations of the U.S. Constitution, some of us are 
both State agencies, State and provincial agencies, one of us 
is private.
    The tunnel, for example, is owned by two cities and 
operated by a private investment bank. So we are unique 
creations that I should also point out that Customs and 
Immigration, all the Federal law enforcement agencies are 
tenants of ours. We own the facility and provide them for the 
Federal agencies. There's no direct Federal role, either the 
United States or Canada in the border crossings, other than the 
inspection operation.
    My theme that I want to make this morning is as follows; 
economic security and physical security have to be in balance. 
We cannot have one without the other. The second is, and I just 
talked to you briefly about it, the bridge tunnel operators you 
will find are very, very helpful and important partners in this 
entire effort to improve physical security, economic security 
of our countries. And finally, I want to also talk very briefly 
about the issue of leadership. When you go around the country 
and you hold these committees, I think you hear from a group of 
people all pretty much saying the same thing.
    So what we're seeing now is a real need for and it's coming 
from committees such as this, for leadership to define the 
border of tomorrow. I'll talk very quickly about that in a 
moment. Let me give you some little background. The nine major 
crossings all located over the contributory waterways, the 
Great Lakes Basin, handle 75 percent of all Canada-U.S. trade; 
over $750 million every single day in merchandise trade. And 
we've been doing that successfully for many, many years.
    With the exception of the Bluewater Bridge which was built 
in 1997, the second span of the Bluewater, no new 
infrastructures capacity has been built on the northern border, 
bridges, tunnel infrastructure, with the exception of the 
Lewiston-Queenston Bridge in 1962, yet trade has burgeoned and 
ballooned over those crossings going back to the auto pact 
agreement in the 1960's, free trade in the 1980's, and the 
NAFTA in the 1990's and has been possible for two ways.
    Through technology, and improved practices at the border by 
all the Federal inspection agencies. That won't last forever. 
We need major infrastructural expansion, bridge and border 
expansion, we also need improved connecting road networks 
coming to them.
    In a post September 11th world, one of the things that's 
coming to stark reality, national security interests, physical 
and economic security interests, have now gone head long into 
local land use and jurisdictional issues. To add new capacity 
at the border now in any meaningful way is a 10 to 15 year 
effort. I suggest to you we simply cannot wait that long.
    Here's a few recommendations, you've heard some of them 
today. Prearrival processing system. No commercial carriers 
should enter our country without transmitting documents ahead 
of time; it does three things. No. 1, let's us know what's 
coming. No. 2, it improves--so that improves physical security. 
No. 2, it facilitates trade because trucks aren't sitting at 
the border getting their documents in order. No. 3, goods in 
motion are more secure and pollute less than goods sitting at 
the border--than trucks sitting at the border.
    The second is the issue of flexible processing. Legislation 
such as Public Law 108-7, we're beginning to look at better 
ways to manage the border of tomorrow and create the border of 
tomorrow. We also support a rapid expansion of money for 
Federal agencies for IT architecture, that costs amongst 
agencies and also you heard it from Customs before, we really 
need a automated commercial manifest for commercial carriers. 
In this day and age we really shouldn't be using those paper 
manifests for trucks coming to our border.
    And finally, the economic piece, border crossings work 
because the connections too and from them work. So we believe 
in the next round of authorizations of what is now TEA-21, that 
a very hard and coordinated look needs to be taken at how goods 
and people move too and from our border. Thank you very much.
    Mr. Souder. Thank you.
    Mr. Rich is representing Dr. Rudnick, is that correct?

  STATEMENT OF LUKE RICH, SENIOR CONSULTANT, BUFFALO NIAGARA 
                          PARTNERSHIP

    Mr. Rich. Correct. My name is Luke Rich. I am senior 
consultant with the Buffalo Niagara Partnership which is an 
upstate New York's largest business organization. Dr. Rudnick 
unfortunately was indisposed at the last minute this morning, 
so I'd like to present his statement.
    I want to focus in on the topic of border security and 
leave you one very simple, very important message. Something 
that has become a sort of mantra for many of us in the business 
community: Border Security Can Equal Border Efficiency.
    What does that mean? That means that as we all look for the 
ways to tighten border security as a result of the horrific 
events of September 11, we must be sure that the actions we 
take at the border do not harm the movement of goods or people 
between the United States and Canada and where possible, 
actually improves this commerce.
    Consider that in 2001, Canada bought more goods from the 
United States than all the European Union countries combined; 
three times more than Japan and 61 percent more than Mexico. 
The United States exports more than $250 billion in goods to 
Canada each year and more than 30 percent of that commerce 
crosses the bridges here in western New York.
    There was a time when many of us thought that an open 
border between Canada and United States was a real possibility. 
It may still be possible. However, it will only happen if our 
two countries can agree on ways to secure the North American 
Perimeter, thus, relieving pressure on the over 5,000 mile 
border between our two countries. This goal can be achieved, 
but not in the immediate future. None-the-less border security 
and border efficiency are not mutually exclusive.
    That's why numerous business and trade organizations from 
across New York have met to form the New York State Smart 
Border Coalition. Our goal is to advocate for a policy that 
ensures the secure free flow of goods and people and services 
at the various crossing points between New York State and 
Canada.
    This can only be achieved by expediting the flow of low 
risk goods and people so that customs and immigration officials 
in both countries can concentrate on those they don't know, who 
may be a greater risk to our security. Minister Manley and 
Secretary Ridge and their staff are doing an excellent job in 
this regard. In fact of the 30 points in their game plan for a 
safe and secure border, major progress has been achieved in all 
but two points.
    It is the issue of joint inspection, reverse inspection, 
creation of international zones that I want to call your 
particular attention today. These three terms represent 
different ways of achieving the same end. It is vital to the 
bridge and tunnel crossings in western New York and Michigan, 
where over 70 percent of the Canadian American trade crosses, 
those customs inspectors be able to do their job in each 
other's country.
    These bridges and tunnels are vital to the economic 
security of our two nations. Millions of jobs in virtually 
every State and province depend on keeping these crossings 
open. Thirty-eight U.S. States have Canada as their largest 
trading partner. The expansion of capacity, security, 
expedition of trade and travel across these bridges and tunnels 
is a national issue, not a local issue. If you take nothing 
away from this hearing other than that, we have made our point.
    Here in western New York, millions of dollars can be saved 
and years of delay avoided in the construction of inspection 
plazas, if U.S. Customs can do their inspections in Fort Erie, 
Ontario after the new Peace Bridge is constructed.
    Progress in the negotiations between Canada Customs and 
U.S. Customs is painfully slow. You, the Congress of the United 
States have passed legislation permitting Customs to negotiate 
an agreement. You have also passed legislation calling for a 
pilot project at the Peace Bridge. However, it appears the 
negotiators are bogged down on the issues of procedure, which 
have already been, at least partially resolved with the airport 
inspection agreement signed between the two countries in 2002.
    What is needed is for negotiations to move to the highest 
level of each government in order to overcome the inertia of 
traditional procedures and hypothetical worst case scenarios. 
Continued pressure from you will be enormously important. We 
cannot allow the largest trade and tourism relationship in the 
world to be jeopardized by the reluctance of bureaucrats to 
give up traditional ways. Thank you for your attention.
    Mr. Souder. Thank you.
    Before yielding to Congressman Shadegg for questions, let 
me first explain the kind of good and bad news of what's 
happened here. We had no idea how many Members were going to 
come to this hearing. And whenever you have more Members, the 
questions of the earlier panels takes longer.
    If you're going to make tonight's votes, you have to leave 
a few minutes ago, actually probably hopefully they'll make 
their plane. Congressman Shadegg and I decided to skip votes 
tonight so we're here. Congresswoman Slaughter was particularly 
upset because she would have except she has a Rules meeting at 
5 o'clock that she also needed to be at. She wanted to make 
sure that it got on the record what her particular extra 
pressure was. And this is kind of her district, you're her 
direct people and it's been particularly upsetting in this 
process with that. But she had been checking to see if she 
could miss the Rules meeting and she really couldn't.
    Each of the Members expressed their frustration. But the 
good news is we have had a lot of people here. The other thing 
is Congressman Shadegg--well, actually, a couple of--in 
reorganizing how the Federal Government is going to try to deal 
with homeland security and if you figure it out before us, let 
us know. [Laughter.]
    We are working through a very difficult process, it's very 
hard for some agencies to figure out how to do that. But what 
we know is the general publics tolerance is zero if we fail, 
but impatient if we impede commerce, which is actually the No. 
1 issue involved. In trying to balance these two things it has 
been very difficult. Well, in addition to the two committees, 
the Border Subcommittee of the Homeland Security which 
Congressman Shadegg and I both serve, and this drug policy 
which has had oversight over all these different agencies, 
Congressman Shadegg Chairs the Subcommittee on the Emergency 
Response and Preparedness and the Intelligence equipment, the 
technology as well.
    So that subcommittee wasn't part of this today but he's the 
chairman of that and I'm on that subcommittee too. So we're all 
wearing multiple hats so we wanted to stay and make sure we 
heard from all of you today. Now I'll yield to Congressman 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. And I'll start with a 
round of questions if I may--usually when you ask questions I'm 
provoked to ask others because you stimulate my curiosity. But 
let me start with a few, Mr. Mayer, let me start with you. I'm 
intrigued with your concept of the border of tomorrow. I am 
particularly interested, Congressman Souder mentioned that my 
subcommittee within Homeland Security has not only emergency 
preparedness and response, but also as he indicated technology.
    Mark and I, actually, I think the year we were first 
elected went to the border at Nogales and looked at what was 
then the cutting edge technology at a new commercial crossing 
center they had there for commercial trucks crossing the 
Arizona-Mexico border coming into Mexico. And it was state-of-
the-art at the time. But I think that was 7 years ago, Mark? 
I'm sure it was.
    I would like you to describe for me kind of the key 
elements of the border of tomorrow, both from the commercial 
standpoint and from a civilian tourist standpoint. And if you 
would, focus on any technology that you are aware of or you 
think we ought be looking at with particular emphasis on 
homeland security issues.
    Mr. Mayer. Thank you, Congressman. First of all, let me--
when I talk about the border of tomorrow, I'm not only talking 
about a line on a map, I think the border extends right to the 
factory door. It extends to the individual that's leaving their 
house in the morning and has their NEXUS card and they're going 
to cross into another country. It focuses first on what I'll 
call preparedness.
    And it allows Federal agencies in particular to make sure 
that their resources go to--their resources are focused on the 
high risk traveler and high risk commercial carrier. And the 90 
plus percent that are doing what they should be are on the 
programs and technologies such as FAST, NCAP, and they're CEPAT 
compliant, and that whole other world of acronyms. And they 
provide them other things such as transponder technology. For 
example, the Peace Bridge uses electronic toll collections in 
our tolling operations and we're part of the E-Zpass the inter-
agency group in the northeast. And that--those transponders, in 
fact, new technologies coming out allow a lot more information 
than just toll collections to go on there; information on the 
goods, the traveler and all that. So that's part of the 
technology.
    Also another thing I think it's necessary to make the 
border work, between Canada and United States so much of our 
economic security rests in interfirm and intrafirm industry 
trade. So the border crossings now are part and parcel of the 
manufacturing system. A bridge now is literally part of an 
assembly line. One of the things the crossing operators have 
been talking, we have all gone out and done independent threat 
assessments of our infrastructure. Working with Transport 
Canada, the U.S.'s counterpart of the U.S. Department of 
Transportation, we have taken all our individual threat 
assessments and hammered out with Transport Canada leadership, 
the best management practices to infrastructure security.
    A key part of that is regional mobility. For example, what 
happens if the Ambassador Bridge went out of a service, in a 
real threat, something actually happened? How would we route 
that critical traffic in that area? The same if you're in the 
Niagara region. So that's part of it too. It's that whole 
region mobility planning at and around international crossings 
as well.
    For example, I mean, I know that the Brooklyn Bridge and 
the--for example, the Golden Gate Bridge are national icons. 
But I can assure you, if you want to create serious disruption 
in North America, if the Ambassador Bridge were lost or the 
Peace Bridge, the economic consequences would be disastrous.
    Mr. Shadegg. You indicated that you performed a threat 
assessment. Is that threat assessment shared or has it been 
shared with the Bureau of Immigration and Customs Enforcement 
or the Bureau of Customs Enforcement Protection?
    Mr. Mayer. We have shared that threat assessment with FHWA, 
their office of Critical Bridge Infrastructure. The bridge 
operators have a seat at the table of FHWAs Blue Ribbon 
Committee on security. We're not a voting member but we've been 
asked to participate and sit in. And this Friday I have a 
meeting in Washington with Under Secretary Asa Hutchinson and 
it's one of the issues that we'll be discussing.
    Mr. Shadegg. Mr. Feely, I was fascinated by some parts of 
information as a dedicated need to a great degree and I was 
unaware of this COBRA fund or its inclusion in the Senate and 
the House version that may get resolved yet this week. And I 
think it is our leadership intention to pass that legislation 
this week. That is completely user fee funded?
    Mr. Feely. The COBRA Fund is, yes.
    Mr. Shadegg. And it is used simply to pay for overtime?
    Mr. Feely. No. Well, during a fall-off in funding for the 
agency in earlier years, it initially started as a fund to fund 
overtime. But we actually began to use it as I mentioned 1,200 
positions, through the last authorization, were paid for out of 
the COBRA fund. That's complete salaries, expenses, benefits, 
everything.
    Mr. Shadegg. So that's going to actual personnel?
    Mr. Feely. Yes. We're using that as a funding mechanism to 
provide personnel at the borders, so if it's not reauthorized, 
then we're going to have to pick up the cost for those 1,200 
people that are currently just doing a regular 8 hour day who 
are picked up on COBRA's Fund.
    Mr. Souder. I want to move to a separate line of questions 
so I don't have to raise that question. Do you know was it just 
not focused on in the House, was there an opposition of the 
funds?
    Mr. Feely. I'm not certain. I can give you a contact points 
with NT's national office who are actually lobbying up on the 
Hill. We're not certain why this was--it wasn't included in any 
legislation in the House. But, I mean, it's an issue that we 
have been raising, NTU has been raising for the last 2 years 
because we knew it would have an impact on our funding 
capabilities.
    Mr. Shadegg. Pardon my ignorance, but I'm going to try to 
wade through this and try to understand some points here. You 
represent Treasury Employees, which means you represent--when I 
deal with Customs Agents on the border at Mexico, you would 
represent them?
    Mr. Feely. Yes.
    Mr. Shadegg. That would include Customs Agents that do the 
open border between ports and also Customs Agents at the port, 
is that correct?
    Mr. Feely. Well, the way it stands right now we're dealing 
in terms of legacy agencies. I, myself, am a Customs Inspector 
assigned here to the four bridges in Buffalo and Niagara Falls. 
In a sense Custom serves as part of the Treasury Department, we 
became part of the National Treasury Employees Union.
    Now, there are Legacy Immigration Naturalization Service 
Officers and there are Legacy Border Patrol Officers, they 
belong to the American Federation of Government employees. They 
get their representation through them. In a sense, I represent 
everybody, I can speak for everybody because I worked side-by-
side with the Immigration Inspectors at the border crossing 
points.
    This is--just as the Government is trying to deal with the 
combination of 22 agencies, there's been a problem for Federal 
unions. We are now trying to deal with a combination of all 
these different employees who are represented by in particular 
two different unions. And the Annual Plan Health Inspection 
Service inspectors have their own union.
    Mr. Shadegg. I guess the point I want to get to is, you 
make a plea for law enforcement officer status. And as I've 
indicated previously, and Mark indicated previously, we are on 
the--I was on the Arizona-Mexico border at a gate recently 
where I talked with some Customs employees; and with Mark I was 
on the Tohono O'odham Indian Reservation when we stopped at 
some customs agents and they actually showed us around.
    They clearly--those agents were clearly performing law 
enforcement functions. They are carrying weapons, they are 
dealing with more dangerous border crossers on the southern 
border than Border Patrol is. The Border Patrol is largely 
dealing with human traffic, most of which are crossing the 
southern border simply looking for a job. They want to come to 
the United States because the economy in Mexico will not 
sustain them, many of them come across alone, get a job here 
and send money across the border.
    If they are apprehended, they make generally no opposition. 
They are simply apprehended, and Mark and I were watching and 
they were just grabbed, they're put on a bus, they're sent 
right back across the border and the next night they cross 
again. They do not pose a very serious threat anywhere near as 
serious as a threat to life as do the drug smugglers, that Mark 
and I also encountered on that same trip. What I want to 
understand about if this is what your testimony is, are you 
telling me that those Customs Agents that we met, who patrol 
the borders for drug smugglers, are currently not law 
enforcement certified?
    Mr. Feely. No. Are you referring to the members of the 
Immigration Custom Enforcement Branch now?
    Mr. Shadegg. Apparently so.
    Mr. Feely. Yeah. The agents that work for the Bureau of 
Immigration of Custom Enforcement are law enforcement trained.
    Mr. Shadegg. And so your plea here is for what 
specifically?
    Mr. Feely. Custom and Border Patrol Inspectors who are now 
comparable--comprised of the Legacy Custom Inspectors, 
Immigration Inspectors and----
    Mr. Shadegg. Who would be at ports?
    Mr. Feely. We work at the ports of entry.
    Mr. Shadegg. OK. Thank you. Mark, that's all I have at this 
point.
    Mr. Souder. I first wanted to make two references to Mr. 
Mayer's testimony. One, is on your point nine, where you 
mention about the Northern Border Congressional Caucus. Two of 
the three recommendations that came out of groups at the 
Interparliamentary Conference would reduce some long term 
regular dialog between United States and Canada to try to head 
off some of the different problems. So I'm not sure, they 
pointed out that 10 years ago they similarly resolved that, so 
we're trying to figure out how to coordinate with the executive 
branch committee between the House and Senate there. And I 
believe there's going to be more effort because there's more 
consciousness about the border right now.
    The most disturbing thing that you had in your testimony 
and I'm still trying to figure out, is that you have a point 
six: U.S. Federal agencies should review security plans, 
practices and procedures at each crossing and provide expert 
input into the planning. The goal here is to maintain the best 
practices approach to infrastructure security.
    Are you telling me that currently the Federal agencies 
don't look at any security regarding the bridges, your plans or 
anything?
    Mr. Mayer. Not as much as I think that they could and 
provide the input. We obviously, as the owners of that 
infrastructure, make sure that we're protecting that 
infrastructure, reviewing it and putting in place a whole host 
of security measures. The intent of point six was really to 
say, as the Federal Government, either through FHWA or Homeland 
Security sees potential gaps that might exist in what we term 
critical infrastructure, that they work with the crossing 
operators to point that out, such that we can always make sure 
that we're at the leading edge of where we want to be in 
protecting our infrastructure. And also alerting us, making 
sure that we're always alerted to potential threats as well.
    Mr. Souder. Let's say hypothetically that there was a case 
at one--which bridge are you again?
    Mr. Mayer. Peace Bridge.
    Mr. Souder. At the Peace Bridge, like what happened at 
Ambassador where the people with suspicious packages may have 
not been enough to warn the Ambassador Bridge that they were 
intercepted a couple weeks ago. How does this work, do you have 
guards there to intercept, the Federal Government happened to 
come in because they had a specific tip where they called in; 
how would it work in your case or how does that interrelate 
with the local Sheriff? Are they tipped off? There's a specific 
example. How does that work here in Buffalo?
    Mr. Mayer. Well, let me--first of all, as a Peace Bridge 
employee, I should point out we have 100 employees that work 
for the Peace Bridge Authority. If you put all the Federal 
agencies and the trade community people there, over 1,000 
people work at the Peace Bridge. We are not law enforcement. We 
do not have law enforcement procedures or authority.
    Mr. Souder. You're more structural questions on security, 
not protecting it from a bomber?
    Mr. Mayer. We're both. For example, we get bomb scares all 
the time. I shouldn't say all the time, we might get one or two 
a year. Someone will call, for example, when Sheik Rachman was 
convicted, we'll get a call that, ``I've planted a bomb on your 
structure.'' So what happens is it comes to us, we the Peace 
Bridge have a call from a law enforcement agency, be it the 
city of Buffalo Police, or the Regional Police, because frankly 
the only one who knows what should be on the structure is 
ourselves because we own and operate the structure.
    So we will go out with them, if we deem it a credible 
threat we talk to Customs, Customs Officials now Homeland 
Security, the former Customs Officials and Immigration, close 
down the booths and we close the bridge; if we deem it to be a 
credible threat. We then notify what's called NITTEC, which is 
a group of transportation agents in the area that send messages 
out to all the transportation agencies that the Peace Bridge is 
closed, that we have travel advisory radio, there will be 
variable messages through the New York Thruway. We call our 
colleagues at the Niagara Falls Bridge and say we are sending 
all of our traffic to you.
    That's the general procedure that takes place right now. I 
think it could be a bit better coordinated, not only in the 
Niagara region but what would happen, for example, if severe 
disruption happened in the Niagara region that might effect the 
Lewiston-Queenston Bridge? Would the vehicles move say to the 
St. Lawrence region to cross?
    I think we need to take a little bit broader look at the 
mobility--as I talked about before, the mobility in the area, 
that is No. 1. And specific to the bridge itself, what we're 
asking just when Federal agencies may be looking at state-of-
the-art techniques, via camera monitoring, remote sensing, that 
they work with the crossing operators. You will find us--if you 
called us up and say we want all nine of you crossing operators 
in Washington tomorrow, we will all be there. You will find us 
very good partners.
    Mr. Souder. If we check or random check truckers going 
over, cars going over, Federal employees, people who work on 
the bridge do you have a screening procedure?
    Mr. Mayer. We haven't in the past. It's something we're 
looking at right now. But as to what we can do, we're a 
unionized work environment so there's certain obviously 
protections there that we have to make sure that we follow. But 
if just look at the Federal agencies, as it was discussed 
earlier, at the radiation portal monitors, auto licensed plate 
readers, and a whole range of technologies to check the people 
and the goods coming in.
    But I'm not only talking about that, I'm talking about 
someone who might want to approach our piers from the Niagara 
River or land side and do damage to our structure. Now, we're 
doing a lot to do take care of that. Crossing operators on 
their own are doing that. My issue there is, more as the 
Federal Government might see best practices or changing trends 
in technology that might help us, that they make us aware.
    Mr. Souder. This has been a big issue at airports.
    Mr. Mayer. Certainly.
    Mr. Souder. People who are--I mean, they screen everybody 
through but if you're not checking the people who do the 
repairs on the airplanes or who are moving around at the 
airports, what was the point of screening all the passengers 
who are going over the bridge and I just wondered what the 
extent of that was.
    Sheriff, it was interesting your anecdotal stories about 
finding immigrants walking around and the little boy, which 
still are exceptions not in the rule. But what do you--how 
would you describe other than frustration and some good days, 
the interrelationship that you have right now and how your 
working relationship with the Border Patrol and Customs and DEA 
and the other agencies? Have you seen a somewhat of an increase 
in their ability to work with you, a lot of increase?
    Mr. Beilein. I would describe it as good to excellent. I 
think one of the great accomplishments since September 11 was 
the creation of the Joint Terrorism Task Forces and involving 
local law enforcement in that task force. It's been a good 
accomplishment and I mentioned in my testimony that it has to 
be--you have to have certain ingredients, you have to have 
dedicated officers and you also have to have the leadership and 
the resources. And I think that the Federal Government needs to 
supply those leadership and those resources.
    But the communications between myself and the Coast Guard 
that you had up here earlier, the Border Patrol up there, has 
been very, very good. It was never bad, however, since the 
World Trade Centers terrorist attacks it has improved 
dramatically and this reaches across the border to my Canadian 
counterparts in law enforcement.
    Mr. Souder. So if one of you moved toward, there's somebody 
that shouldn't be moving in that location or there's an object 
of suspicion, do you have a pretty good fast interconnect now, 
because you may have--unlike the southern border, where there 
are Border Patrol people everywhere, not everywhere but lots 
more than on the north and that's why your people are often at 
those points in the gaps. And they see something, first to be 
able to respond, is it almost instantaneous or is there a 
bounce back delay?
    Mr. Beilein. I believe there's a small bounce back delay, 
we don't have the interoperability with our computer systems 
with the Federal Government.
    Mr. Souder. Do you use RIIDS or any of those?
    Mr. Beilein. No. I think in the case--I hate to go back to 
the 7-year-old boy but it took some good questioning by local 
law enforcement of that 7 year-old to determine that he did 
cross the border. And it wasn't until he mentioned a particular 
school that he went to that it was realized that he crossed the 
border. A lot of it depends on the instinct and training of the 
local law enforcement officer when he encounters that type of 
situation.
    Mr. Souder. I want to ask a question with Ms. Hamilton 
and--related to see how you might have in your local Sheriff's 
Office, I'm trying to understand some of the concept of what 
you're saying. Let me first put it in laymens terms and give 
you an example in my district and then see how this fits. 
You're proposing that this information overlay be on one of 
your broad band signals?
    Ms. Hamilton. Yes. We are assigned one broadband but you 
can send different bits of information at the same time.
    Mr. Souder. And would this be open information to everyone 
if they bought one of those receivers or would it be just for 
law enforcement?
    Ms. Hamilton. It is very secure. A receiver you can buy at 
Radioshack. These tuner cards are specially programmed and they 
have a special mechanism to decrypt. So as an example, even if 
there was information you wanted to share with Erie County 
Sheriff's Department but--or Niagara County Sheriff's 
Department but you do not want the Health Department knowing 
it, you can address the information to exactly who you want to 
receive it. And unless somebody has the proper tuner card, they 
cannot receive the information.
    Mr. Souder. Sheriff, in one of the counties that I 
represent has a more advanced systems that I've seen they have 
a computer hookup that's gradually been putting in by building 
and block, they're increasing getting the blueprint plans in, 
so that for example, when a--although it's Homeland Security, 
when a tornado approached from one angle, they could actually 
tell people which side of the building to move through and they 
can also for fires and rescue purposes be able to track that. 
Do you have a similar thing here?
    Mr. Beilein. We have a basic computer system. I think what 
I was referring to was being able to access the Federal data 
bases, for instance, for illegal immigrants that we happen to 
see walking down the road, which is usually the case. But as 
far as an overall computer system, yes, we're tied in with----
    Mr. Souder. But do you have a mapping technique for your 
county that shows you where the houses are, with blueprints? I 
know it's relatively new because it's a new technology.
    Mr. Beilein. That is in the next round of the cops grants 
that's coming down to purchase that, with the mapping and so 
forth.
    Mr. Souder. How do you see that type of program 
overlapping?
    Ms. Hamilton. Well, public broadcasting is just a 
distribution mechanism. But I think what we offer is to see--
and I'll give you an example, I was speaking with someone from 
the Upper Mountain Fire Co. and they said they do have maps and 
data bases of critical sites in their area, if there's a bio-
hazard from some sort of terrorist threats. They have this 
information but the other fire companies that may be responding 
do not have this information. It would be very cumbersome under 
ordinary circumstances to get this information to all of the 
first responders from all the different agencies.
    Now, with our system it can be set up and distributed to 
them almost simultaneously. It eliminates the lag. I don't know 
how long the lag is now in terms of information sharing or 
getting access to the Federal Government, the advantage of this 
system is that once the information is set up, we can get it 
out almost instantaneously.
    Mr. Souder. Well, one of the things that we should look at 
because one of the problems is that if a city--if the city's 
inside a county and the city cooperates, you all can't get on 
the same systems and get these new kind of technologies so 
there's no lag. But what a TV--regional approach does is help 
us address a couple potential questions.
    One is, the cities and counties in some places tend to 
argue at times over jurisdiction. It's been known to happen in 
many States. Furthermore, different counties are known to not 
necessarily want the same system. And if you're--when you're an 
individual, even for tornadoes, but certainly if it was some 
kind of an attack coming, you don't want to have one set of 
information depending on trying to figure out where the county 
line is, the township line is here, the city here, because the 
annex of this block could have a whole different evacuation 
plan. And trying to force that intergration, one may be the way 
the data is communicated. It's something we need to look at as 
we evolve.
    Mr. Shadegg. If I could interrupt. Let me just ask you Ms. 
Hamilton, I understand that you're proposing this for an 
information--as an information link for first responders. Are 
you familiar with an organization called America's 911?
    Ms. Hamilton. No, I'm not.
    Mr. Shadegg. I have constituents who helped develop this 
and it's a computer link that has been set up, it's set up 
across the country, it's being much more broadly used and 
currently the Homeland Security Department is in discussion 
with them. But they serve as a single point of information for 
information sought by individuals.
    For example, there's tons of information that EPA generates 
on how clean a given beach is but they don't know how to get it 
out. You drive into the town, you can call this number but if 
you go to the next town you have to call a different number. 
They have an entire system where literally all of these 
agencies up-link their data to a single source and you can go 
on and you put in your disk and it will tell you how clean the 
beach is at the various beaches that are close to you or 
further away from you. And it goes on and on and on. And 
they're currently up-linking this. I guess one question I 
have--I have two questions for you.
    One, is the proposal that you made to us written up in a 
written form to submit to Congress or to submit to the Homeland 
Security Department or the Select Committee on Homeland 
Security, which Mark and I serve? I'd be interested if it's 
not, in having you do that and get us a copy. And second, have 
you given thought, since as you pointed out this could be a 
quick link for to get information quickly to all of the first 
responders in the areas. Have you looked to a parallel system 
that would get information out to computer data bases or 
computers for the general population?
    Ms. Hamilton. We do have a trade organization in public 
broadcasting called APTS, which is based in Washington, DC, and 
they do have complete information. And in fact, if you would 
like a live demonstration of this, they would be glad to 
provide one to you. In terms of information sharing, we're a 
distribution mechanism. It would be up to the governmental 
agency to determine how we use this information mechanism to 
the benefits of the agencies, the first responders, local and 
State governments and also governments on both sides of the 
border.
    It could be used for any application. I mean, if the time 
came that you want to use emergency bands or someone in the 
Defense Department for whatever reason to talk to everyone in 
the public, I mean, it's public airways. And I think the 
advantage for first responders is to bridge the gap between 
Washington and Buffalo and Niagara Falls and Toronto and Fort 
Erie and among different agencies.
    First responders may have a very good communication network 
but do they have a connection to the CDC if there is a bio-
hazard information. I think a really good example is when the 
SARS scare came out, it took 2 to 3 days for all hospitals to 
find out what the symptoms were, how you should handle the 
situation. With this system, CDC could have sent up the 
information and it could have been broadcast by public 
broadcasting stations to all hospitals that just had this tuner 
card. And if you have a LAN system which most hospitals do, 
you'd need one card for an entire system.
    Mr. Shadegg. I have a couple other questions for a few 
other witnesses. I wanted to ask the Sheriff, I was fascinated 
with your testimony regarding the kind of smuggling routes that 
are known, some of which have been around since prohibition, 
and we have those problems on the Mexico border. On our latest 
trip down there they took us to the top of the peak that sits 
right on the border and the drug smugglers will send a lookout 
to the top of that peak with a clear view to the south, clear 
view to the north, and they'll sit there with a little radio 
and he can sit on top of that peek with a pair of binoculars 
and look for miles east and know whether there are any agents 
anywhere around. And if there are, he radios his people and 
says, stay put or if he looks and doesn't see anybody he says 
come on through.
    So I guess I'm interested in any thoughts you have on how 
do you deal with the unique water problems you have. How do you 
deal with those or is it simply, we're going to have that level 
of smuggling no matter what we do when you have an open water 
like this or like what I have, an open desert----
    Mr. Beilein. It's a difficult situation to deal with. You 
can't patrol the water of Lake Ontario like we patrol the 
highway and the fact that with the speed of boats and so forth 
today, you can go from the heart of Toronto to any one of those 
inlets in a matter of 30 minutes or less, depending on the 
speed of the boats. I think it's something that both sides has 
to work on to stop it on the other side before it gets here. 
And we have to continue to be vigilant. I don't see a situation 
like in the Bahama line where you're putting up blimps and 
radar type of devices in order to detect boats crossing the 
open water, but what I see is a stepped up intelligence 
gathering and stepped up information on the people who are 
doing the smuggling. I believe it doesn't just happen with 
drugs, it happens with people too.
    I have had the experience of fishing people out of water 
dead. A Malaysian national tried to cross the water in January 
and was found dead in the water and those situations where 
you're talking about at the most half an hour to be on the 
other side of the lake and into the United States.
    Mr. Shadegg. I wish you luck. I know our border in the 
desert is a real challenge. One last question for you Mr. 
Deveso. You heard the testimony about the COBRA user fee 
imposed on your commercial vehicles, I am safe to assume that 
you as an industry representative don't have a problem with 
that user fee and those kinds of efforts to help fund say the 
border of the future, a border that is operable, that ports are 
secure, but also commercially viable? Is that something you're 
supportive of or are there problems here?
    Mr. Deveso. Any user fee implemented, if the purpose for 
which the money is derived goes for the purpose of its 
accomplishment, we have no problem. The problem is most user 
fees facing the trucking industries is the misappropriation of 
funds. That being said, we have no problem whatsoever if it's a 
matter of national security.
    What you have to go look out for and I'm going to get away 
from your question a little bit, is the passing on of the costs 
of lost time during these crisis times. And it's not even if 
you're paying drivers, for example, by the hour, there's a--
there's stress factors involved and related costs to driver 
retention and companies having the ability to waiting to be 
crossing the borders.
    Mr. Souder. You want a trust fund that is secure, like 
Social Security?
    Mr. Shadegg. I'll point out, the user fees on one hand look 
very attractive. But shouldn't the people take the--on the 
other hand I'll tell you my brother and I have had an ongoing 
discussion on the issue and so forth of parks user fees. But he 
makes a point of saying, John, I pay my general taxes and to 
pay to go into those parks, why should I have to pay a user fee 
on top of those, we don't make others in our society who get 
government services to pay a user fee. And one could construct 
an agreement to the fact that to secure our borders, whether be 
it for--from drugs or terrorism or just make them operate well 
commercially, that is a general good and it's not necessarily 
just a good that is used by the people who cross the borders 
all the time. So before we'd elect to go to Congress--I thought 
user fees were a no brainer and I discovered since then they're 
a little more complicated.
    Mr. Deveso. I agree, when you're going from private sector 
to commercial, it's more complicated being that operating 
ratios, those costs also eventually are passed down in the 
private pocket sector.
    Mr. Shadegg. Absolutely. Thank you.
    Mr. Souder. It's amazing how many industries because of 
their frustration at this slow speed of the Federal 
bureaucracy, are going to these different fees to do that. I 
met with egg producers the other day and they can't process 
their egg proceeds so they're willing to take a fee in order to 
get the FDA and all sorts of things. That is why if you know it 
can be used and dedicated to that fund, in fact, that is where 
the conflict is.
    Mr. Deveso. The disadvantage is our user taxes and fees in 
New York State are the highest in the country, so we have a 
problem here aside from the Federal standards.
    Mr. Souder. I have two trucking questions. One, is we run 
into this at the ports more with ships and we heard from some 
of the shippers, let me yield with the first question. As we 
deal with the FAST pass entry and all these different 
challenges, the question comes who is going to be held 
accountable in the challenge with the truck--the trucking 
company which have an independent driver, the cab owner may not 
be the same as the trailer and they may or may not know who 
loaded it or something could be attached to it?
    We've had testimony that they would be willing to have 
higher penalties if somebody abused that, but the question 
comes first off, how do we sort out a practical line of 
responsibilities because it isn't going to work for each part 
to say it was the others responsibilities?
    Mr. Deveso. I'm not sure I have an answer to that question. 
Right now in New York State we're initiating FAST now and 
it's--the way I understand the system, by educating the 
industry itself and raising that level of confidence right from 
the origin to the destination, including the trucking company, 
including the driver, I would agree with those constituents 
that they would raise the bar on penalty. Because of that level 
of confidential, the higher the penalty should be.
    Mr. Souder. Would you have that be on whoever's name is on 
the truck or who the designated driver is?
    Mr. Deveso. Unfortunately, where the system is right now, 
the conveyance--one, the product is loaded on the conveyance of 
distribution at interstate commerce, unfortunately it falls on 
the trucker.
    Mr. Souder. One other truck question. I was in the 
furniture retailing business and when we'd get furniture on a 
truck, we'd get a bill of lading, then you got a more specific 
invoice. Part of the debate in how we can do monitoring is that 
the bills of lading are what--are generally be checked in at 
our customs and ports. I'm not sure how the trucking works, in 
other words, they get a general description of a box with 
chairs or maybe even two chairs and the invoice says French 
provincial yellow, such and such. A lot of people want to wait 
until the last minute to put the specifics of what's inside and 
what that means in the monitoring is that there isn't 
necessarily a match and therefore it doesn't--what some of the 
trucking companies are arguing is because the people who are 
loading their trucks aren't being specific enough about what's 
coming in, it may not be fair to hold them accountable because 
we're asking for the wrong information.
    Mr. Deveso. I disagree with them. I think they should be 
held accountable. Dealing with LTD split shipments, varying 
shipments, container shipments, probably are the most 
difficult. I think if the seamless process has to be 
accomplished or could be accomplished, it would have to be done 
because the level of confidence would have to be raised at the 
point of origin, the shipper, the person loading the vehicle. 
Then it goes on to the conveyance and on to the person 
receiving the product. And if everything were to be perfected 
the way it's supposed to be and in reaching more than 50 
percent expectation that were discussed earlier, I think beyond 
50 percent, you could have a seamless way.
    Mr. Souder. So you believe in the trucking area the paper 
you're currently providing is accurate enough to be measured in 
accountability?
    Mr. Deveso. It's accurate enough to ornate the paperwork. 
But if there's a level of confidence from the source, knowing 
and understanding that shipping document and then passing it 
forward and then processing it over the computer system, then 
they could be adequate.
    Mr. Souder. Thanks. I want to tell Mr. Rich, we always try 
to include the business sector in the testimony, although you 
may not get as much cross. But to make sure all records show 
when we plunge into the details of trying to figure out 
security, we don't forget the trade question. Would you like to 
add anything?
    Mr. Rich. First, on the user fee issue, the general 
business community is not adverse to user fees as long as they 
are not used for substitution for others. I think if I 
understood the testimony earlier, 1,200 people are being paid 
out of users fees, so we would have an objection to that as a 
business community.
    Mr. Souder. And what if they're lost?
    Mr. Rich. We think they should be--if we need 1,200 people, 
they should be paid the same way the other however many 
thousands that are there are. That of course throws the ball 
back in your court, but if it's a priority, it should be a 
priority. If the user fee is for some further level of 
security, that would be fine. The other issue is on the 
question of the future. There's a NEXUS pass now, there's work 
toward some sort of a secure frequent flyer kind of pass, 
there's also some work toward something with cruise ships. All 
three systems are, as far as we understand, different and 
incompatible. And it makes no sense if we're going to have a 
pass, let's have a pass we can use everywhere.
    Mr. Souder. If you get a copy of this report, that's one of 
the criticisms we issued. They were testing too many systems. 
That is one of the things John's subcommittee will be focusing 
in on. I mean, this is ridiculous. I mean, if they can't talk 
to each other, this is just silliness and the first terrorist 
that gets through because we didn't synchronize our system, 
some heads will roll.
    Mr. Rich. I think the Federal regulations are contributing 
to that too. They are testing different systems----
    Mr. Souder. Partly. Now we have more dollars to invest in 
that. In fairness to the agencies, they are trying to piece 
together what next but now it's crunch time. The other thing 
you can kind of hear, the problem in the north border and south 
border are substantially different. One of the differences is 
on the north border we have peak times that jam or when a 
problem occurs they jam because it's over water, so you have 
bridge structure problems. And we're used to just in time 
delivery.
    On the south borders they have back-ups all the time, at El 
Paso, Laredo. We have--they don't just have the peak back-ups 
at certain times, Sunday nights and that type of thing or 
holiday periods as it can happen in the north. They got it all 
the time on the south. It's almost like they factor it in, but 
they're frustrated because obviously the cities just north of 
the south border Los Angeles, Phoenix, San Diego, Houston, 
Dallas and the pressure is on us to address some of the 
questions and the differences between the borders.
    With the new president of Mexico, we're making progress, 
the trucking standards are different in Mexico than Canada, the 
training regulations are different. I'm not saying you don't 
have these, but these are huge political challenges to us and a 
hearing like today is helpful because we have both north and 
south border people here arguing. I don't have any border 
crossing but trying to reconcile some of this on a national 
priority, you've got to hear some of that. And what we want to 
do is make sure in the north, in a place where we for the most 
part haven't thought--even admitting Canada is a different 
country, is a real challenge for us as opposed to cultural and 
language difficulties. As we work, we have to be fair if 
Canada--if Mexico was proposing drug policy changes like 
Canada, Congress would be going ballistic. And that's going to 
come up if they do that because we would react so strongly on 
the Mexican border and there's going to be equity questions, so 
we're working hard to work through these things. And I thought 
personally the most interesting statistic was there was nothing 
new in the north border other than the Bluewater Bridge. Did 
that count any lane additions?
    Mr. Mayer. A three lane bridge that opened in 1997.
    Mr. Souder. Thank you very much for your patience today and 
your testimony.
    [Whereupon, the subcommittees adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0400.001

[GRAPHIC] [TIFF OMITTED] T0400.002

[GRAPHIC] [TIFF OMITTED] T0400.003

[GRAPHIC] [TIFF OMITTED] T0400.004

[GRAPHIC] [TIFF OMITTED] T0400.005

[GRAPHIC] [TIFF OMITTED] T0400.006

[GRAPHIC] [TIFF OMITTED] T0400.007

[GRAPHIC] [TIFF OMITTED] T0400.008

[GRAPHIC] [TIFF OMITTED] T0400.009

[GRAPHIC] [TIFF OMITTED] T0400.010

[GRAPHIC] [TIFF OMITTED] T0400.011

[GRAPHIC] [TIFF OMITTED] T0400.012

[GRAPHIC] [TIFF OMITTED] T0400.013

[GRAPHIC] [TIFF OMITTED] T0400.014

[GRAPHIC] [TIFF OMITTED] T0400.015

[GRAPHIC] [TIFF OMITTED] T0400.016

[GRAPHIC] [TIFF OMITTED] T0400.017

[GRAPHIC] [TIFF OMITTED] T0400.018

[GRAPHIC] [TIFF OMITTED] T0400.019

[GRAPHIC] [TIFF OMITTED] T0400.020

[GRAPHIC] [TIFF OMITTED] T0400.021

[GRAPHIC] [TIFF OMITTED] T0400.022

[GRAPHIC] [TIFF OMITTED] T0400.023

[GRAPHIC] [TIFF OMITTED] T0400.024

[GRAPHIC] [TIFF OMITTED] T0400.025

[GRAPHIC] [TIFF OMITTED] T0400.026

[GRAPHIC] [TIFF OMITTED] T0400.027

[GRAPHIC] [TIFF OMITTED] T0400.028

[GRAPHIC] [TIFF OMITTED] T0400.029

[GRAPHIC] [TIFF OMITTED] T0400.030

[GRAPHIC] [TIFF OMITTED] T0400.031

[GRAPHIC] [TIFF OMITTED] T0400.032

[GRAPHIC] [TIFF OMITTED] T0400.033

[GRAPHIC] [TIFF OMITTED] T0400.034

[GRAPHIC] [TIFF OMITTED] T0400.035

[GRAPHIC] [TIFF OMITTED] T0400.036

[GRAPHIC] [TIFF OMITTED] T0400.037

[GRAPHIC] [TIFF OMITTED] T0400.038

[GRAPHIC] [TIFF OMITTED] T0400.039

[GRAPHIC] [TIFF OMITTED] T0400.040

[GRAPHIC] [TIFF OMITTED] T0400.041

[GRAPHIC] [TIFF OMITTED] T0400.042

[GRAPHIC] [TIFF OMITTED] T0400.043

[GRAPHIC] [TIFF OMITTED] T0400.044

[GRAPHIC] [TIFF OMITTED] T0400.045

[GRAPHIC] [TIFF OMITTED] T0400.046

[GRAPHIC] [TIFF OMITTED] T0400.047

[GRAPHIC] [TIFF OMITTED] T0400.048

[GRAPHIC] [TIFF OMITTED] T0400.049

[GRAPHIC] [TIFF OMITTED] T0400.050

[GRAPHIC] [TIFF OMITTED] T0400.051

[GRAPHIC] [TIFF OMITTED] T0400.052

[GRAPHIC] [TIFF OMITTED] T0400.053

[GRAPHIC] [TIFF OMITTED] T0400.054

[GRAPHIC] [TIFF OMITTED] T0400.055

[GRAPHIC] [TIFF OMITTED] T0400.056

[GRAPHIC] [TIFF OMITTED] T0400.057

[GRAPHIC] [TIFF OMITTED] T0400.058

[GRAPHIC] [TIFF OMITTED] T0400.059

[GRAPHIC] [TIFF OMITTED] T0400.060

[GRAPHIC] [TIFF OMITTED] T0400.061

[GRAPHIC] [TIFF OMITTED] T0400.062

[GRAPHIC] [TIFF OMITTED] T0400.063

[GRAPHIC] [TIFF OMITTED] T0400.064

[GRAPHIC] [TIFF OMITTED] T0400.065

[GRAPHIC] [TIFF OMITTED] T0400.066


</pre></body></html>
